Audit Report




OIG-14-026
Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
Fiscal Years 2013 and 2012 Financial Statements


February 5, 2014




Office of
Inspector General
Department of the Treasury
The Alcohol and Tobacco Tax and Trade Bureau (TTB) is committed to making its Web
     Site accessible to all TTB customers and staff and creates its Web pages in
       accordance with the provisions of Section 508 of the Rehabilitation Act.

  However, the attachment to our report, TTB's FY 2013 Annual Report, does not
       conform to the Standards of Section 508 of the Rehabilitation Act.

For a copy of TTB's FY 2013 Annual Report, see TTB's Annual Reports Web page and
      for problems with accessibility, please contact TTB at Section508@ttb.gov.

                                    Also see:

                       About TTB -Accessibility Policy Page
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF                                 February 5, 2014
INSPECTOR GENERAL




            MEMORANDUM FOR JOHN J. MANFREDA, ADMINISTRATOR
                           ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audit

            SUBJECT:                Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
                                    Fiscal Years 2013 and 2012 Financial Statements


            I am pleased to transmit the attached audited Alcohol and Tobacco Tax and Trade
            Bureau (TTB) financial statements for fiscal years 2013 and 2012. Under a
            contract monitored by the Office of Inspector General, KPMG LLP (KPMG), an
            independent certified public accounting firm, performed an audit of TTB’s financial
            statements as of September 30, 2013 and 2012 and for the years then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards and Office of Management and Budget
            Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG found:

                •   the financial statements were fairly presented, in all material respects, in
                    accordance with U.S. generally accepted accounting principles;
                •   no deficiencies in internal control over financial reporting that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit performed in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on TTB’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG is
responsible for the attached auditors’ reports dated January 30, 2014 and the
conclusions expressed in the reports. However, our review disclosed no instances
where KPMG did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audit, at
(202) 927-5591.

Attachment
Alcohol and Tobacco Tax and Trade Bureau



FY 2013 Annual Report




                                           a
                                                                  TTB 2013 Annual Report



Table of Contents
Introduction .............................................................................................................................................. i

Message from the Administrator .............................................................................................. iii

Vision, Mission, and Values ......................................................................................................... v

TTB Strategic Goals and Objectives ...................................................................................... vi

TTB Office Locations .................................................................................................................... vii

Part I: Management’s Discussion and Analysis

Profile of a Bureau.................................................................................................................................. 1

Performance Summary ...................................................................................................................... 33

Financial Summary .............................................................................................................................. 45

FY 2013 Bureau Budget ..................................................................................................................... 47

Bureau Challenges ................................................................................................................................ 48

Part II: Program Performance Results

Performance Overview ...................................................................................................................... 49

Summary of Collect the Revenue Performance ........................................................................ 50

Summary of Protect the Public Performance ............................................................................ 53

Summary of Management and Organizational Excellence Performance ........................ 57




                                                                                       a
                                                                   TTB 2013 Annual Report



Message from the Chief Financial Officer ........................................................................ 63

Part III: Financial Results, Position, Condition and Auditors’ Reports

Budget Highlights by Fund Account .............................................................................................. 65

Linking Budget to Program Spending .......................................................................................... 66

Systems and Controls.......................................................................................................................... 70

Financial Statements, Accompanying Notes and Supplemental Information

       Independent Auditors’ Reports ..............................................................................................................75

       Financial Statements ................................................................................................................................... 81

       Notes to the Financial Statements ......................................................................................................... 86

       Required Supplementary Information (Unaudited) ................................................................... 106

       Other Information (Unaudited) ........................................................................................................... 108


Part IV: Appendices

Principal Officers of TTB................................................................................................................. 113

TTB Organization Chart .................................................................................................................. 114

Connecting the Treasury and TTB Strategic Plans ............................................................... 115




                                                                                         b
                                        TTB 2013 Annual Report



Introduction
Supporting the Nation’s economic vitality is at the core of the work performed by the Alcohol and
Tobacco Tax and Trade Bureau (TTB). The Bureau’s role in permitting and regulating the alcohol and
tobacco industries ensures a fair marketplace, enhanced trade opportunities, and a level playing field for
those engaged in the manufacture and trade of these commodities. As the Nation’s excise tax authority
on alcohol and tobacco products, TTB also ensures fair and effective tax administration and
enforcement in a globalized marketplace.

TTB is focused on supporting the business community it serves by reducing the burden of compliance
and addressing the illicit trade that undermines their legitimate operations. In the 10 years since TTB’s
inception, the industries that the Bureau regulates have continued to expand, evidenced by the 60
percent growth in the permit applications and registrations that TTB receives. Annual tax revenue from
the alcohol, tobacco, firearms, and ammunition industries totals approximately $23 billion annually,
making TTB the third largest tax collection agency in the federal government. The revenue that TTB
collects on these products funds national priorities.

Maintaining a responsive and effective organization requires Government agencies to look at their
business processes and operations anew. TTB, like the businesses it regulates, must continuously look
for ways to effect its mandates more efficiently and effectively, leveraging limited resources in smarter
and more innovative ways to ensure that the investments made in its mission achieve a positive return.
Within its FY 2013 Annual Report, TTB combines program performance with financial data to
demonstrate how effectively the Bureau translates its program dollars into quality service, responsible
management practices, consumer protection, and increased tax revenue.

Each year, as part of the performance and budget cycle, TTB issues this report to inform its stakeholders
of the Bureau’s accomplishments and explain any challenges. The report defines the Bureau’s mission,
strategic goals, and major programs, and summarizes its progress in meeting its objectives, as stated in
the TTB strategic plan. TTB also presents financial information that depicts how TTB expended its
budget according to its major programs, and accounted for tax collections from the alcohol, tobacco,
firearms, and ammunition industries.

This report presents this information in four parts:

Part I – Management’s Discussion and Analysis. This section provides an overview of the Bureau,
including its mission and programs, highlights of program and financial operations, and a summary of
TTB’s program performance.

Part II – Program Performance Results. This section provides a discussion of results achieved for each
performance measure related to the Collect the Revenue and Protect the Public strategic goals and an
overview of the Bureau’s accomplishments under its Management and Organizational Excellence goal.


                                                       i
                                        TTB 2013 Annual Report



Part III – Financial Results, Position, Condition and Auditors’ Reports. In this section, TTB presents
audited balance sheets, statements of net cost, changes in net position, budgetary resources, and
custodial activity as of and for the years ending September 30, 2013, and September 30, 2012, and the
Independent Auditors’ Report on these financial statements. Also included is a report on the Bureau’s
internal control over financial reporting and a report on TTB’s compliance with laws and regulations.
This report section also includes a discussion of budget activities for each of the Bureau’s seven major
programs and supplemental information, such as a history of federal excise tax collections for the past
decade.

Part IV – Appendices. This section includes a list of TTB’s principal officers, an organization chart, and
strategic plan information that demonstrates the relationship between TTB’s plan and the overall
Department of the Treasury’s mission and goals.




                                                     ii
                                        TTB 2013 Annual Report



Message from the Administrator
                                     The past year was fraught with challenges that required creative
                                     thinking and difficult decisions on the part of all government
                                     agencies. These challenges were particularly acute for TTB, a
                                     small, innovative organization that has maintained a lean business
                                     model since it was established in January 2003. This already
                                     efficient model, which has enabled us to invest the majority of our
                                     budget in core mission work, limited our options in responding to
                                     the steep, immediate funding cuts of the sequester that took
                                     effect midway through the fiscal year. As a result, services that
                                     our industry members rely on, including alcohol beverage formula
                                     and label approvals, slowed dramatically over the course of the
                                     year. Many burgeoning businesses faced a six-month wait before
                                     they could legally operate and turn a profit. These results are
                                     antithetical to the role we play in facilitating a thriving, lawful, and
competitive marketplace for the industries that we regulate.
In the face of these challenges, TTB has taken a broader view, recognizing that trimming overhead and
halting hiring are stopgap measures that cannot sustain the Bureau over the long term. Throughout FY
2013, we continued to make strategic changes to our programs that will help us improve our efficiency
without compromising short-term mission results. In both our tax administration and trade facilitation
roles, we have sought to leverage data to inform decisions, direct enforcement resources based on
areas of risk, and apply technology to gain efficiencies for ourselves and for our industry members.
These changes are critical to our ability to provide needed services to a growing industry and to ensure
the collection of the $23 billion in annual revenues that result from their businesses.
In the labeling program, we revised our policies to shift some of the responsibility for compliant labels to
alcohol beverage producers and importers. Certain label information poses a low risk to consumer
health and safety and, in these areas, we effectively stepped out of the way and now allow industry
members to make certain revisions to their product labels without reapplying to TTB for a new
Certificate of Label Approval. These changes are a precursor to larger reforms planned for the next
several years that will bring federal regulations and policies in line with modern industry practices and
market realities. TTB continues to evaluate both its labeling and formulation requirements and intends
to proceed with enhanced guidance and rulemaking, as appropriate, to reduce the regulatory burden for
industry and to facilitate TTB’s transition to market-based enforcement of these regulations.
We also continue to hone our tax enforcement strategy to deter and address fraud and other criminal
activity in the alcohol and tobacco industries. Because diversion schemes vary widely, and evolve
rapidly in response to enforcement efforts, we use real-time data and advanced analytics to remain
flexible and responsive to revenue threats. In FY 2013, we continued to focus our enforcement efforts
on the import and export trade of alcohol and tobacco, as this is a vulnerable point in the supply chain
that is exploited by criminal enterprises to evade federal excise taxes. The civil and criminal cases

                                                     iii
                                       TTB 2013 Annual Report


brought to date indicate that the federal government is losing millions in revenue annually due to illicit
alcohol and tobacco trade, and TTB will continue to work with its law enforcement partners to prevent
criminal actors from profiting at the expense of governments and legitimate businesses.
Ensuring vibrant and compliant global trade requires that we engage and collaborate with scientific and
regulatory agencies around the world. In FY 2013, TTB scientists contributed to advancements in
tobacco science through the validation of new tobacco testing techniques, providing a reliable
international standard for tobacco regulators to authenticate and classify certain tobacco products. TTB
also opens opportunities for U.S. businesses in overseas markets, with the global trade in alcohol
beverages valued at well over $3 billion. The Bureau expanded its global network of alcohol and
tobacco regulators in FY 2013 by signing a memorandum of understanding with Wine Australia, an
important strategic partner in promoting wine trade. We also continued to engage with economies in
the Asia-Pacific rim that represent emerging markets for U.S. producers. This work ensures that markets
remain open for opportunities for domestic businesses and that illegal activity in international trade is
addressed promptly.
In the pages that follow, we more fully describe the year’s accomplishments and discuss areas where we
fell short of our desired performance. The cumulative impact of the sequester and other recent budget
reductions is apparent; however, we remain undeterred in our continued resolution to more effectively
and efficiently fulfill our mandates.

The Bureau has validated the accuracy, completeness, and reliability of the performance data contained
in this report.




                                             John J. Manfreda
                                               Administrator




                                                     iv
                                       TTB 2013 Annual Report



Vision, Mission, and Values
Vision
Our vision is to be the world's authority in the regulation, taxation, and science of alcohol and tobacco
products and a model for next generation government.




Mission
Our mission is to collect the taxes on alcohol, tobacco, firearms and ammunition; protect the consumer
by ensuring the integrity of alcohol products; and prevent unfair and unlawful market activity for alcohol
and tobacco products.




Values
We value:

    •   People. We empower our people through trust, respect, and teamwork.
    •   Results. We take pride in accomplishing meaningful results for the American public.
    •   Accessibility. We are available to the public and our colleagues through collaboration,
        communication, and partnership.
    •   Innovation. We explore new and better methods of conducting business, take manageable risks
        to improve our operations, and evolve based on results.
    •   Service. We are professionals dedicated to public service.




                                                     v
                                       TTB 2013 Annual Report



TTB Strategic Goals and Objectives
Strategic Goal: Collect the Revenue
Industry remits the proper federal tax on alcohol, tobacco, firearms, and ammunition products

Tax Verification and Validation. Assure voluntary compliance in the timely and accurate remittance of
tax payments

Civil and Criminal Enforcement. Detect and address excise tax evasion and other criminal violations of
the Internal Revenue Code in the industries TTB regulates

Strategic Goal: Protect the Public
Alcohol and tobacco industry operators meet permit qualifications, and alcohol beverage
products comply with federal production, labeling, and marketing requirements

Business Integrity. Assure that only qualified persons and business entities operate within the industries
TTB regulates

Product Integrity. Assure that alcohol beverage products comply with federal production, labeling, and
advertising requirements

Market Integrity. Assure fair trade practices throughout the alcohol beverage marketplace

Strategic Goal: Management and Organizational Excellence
Effectively managed resources and human capital for maximum performance, efficiency, and
program results

Human Capital Management. Maintain a qualified, engaged, and satisfied workforce

Technology Solutions. Deliver effective, streamlined, and flexible IT solutions that add value and support
program performance

Finance and Performance Results. Facilitate strategic management and financial accountability through
the delivery of timely and reliable financial and performance information




                                                    vi
                                  TTB 2013 Annual Report


TTB Office Locations




                       Industry at a Glance                         FY 2013             FY 2012
        Total TTB Permittees                                         66,642              61,684

        TTB Permittees by Industry Type

            Alcohol                                                  96.9%                96.7%

            Tobacco                                                     1.4%                  1.5%

            Firearms                                                    1.7%                  1.8%

        TTB Permittees Not Subject to Tax                            51,167              48,046

        TTB Permittees Subject to Tax                                15,475              13,643

            TTB Permittees Who Filed and Paid Taxes                   9,298               8,533

                         TTB at a Glance                         2013                  2012
        Employees                                          482                 496

        Office Locations *                                 12                  12 **

        Budget Authority                                   $94.7 Million       $99.9 Million

        Revenue Collected                                  $22.9 Billion       $23.4 Billion

        Original and Amended Permits Processed             25,646              27,363

        Certificate of Label Applications Received         140,324             152,741
        *TTB has 12 locations in the U.S. that support 17 field offices.
        **TTB included the Westlake, OH office on the FY 2012 map in error.
                                                     vii
 TTB 2013 Annual Report




Page left intentionally blank.

             viii
                                                     TTB 2013 Annual Report


PART I
Management’s Discussion and Analysis
Profile of a Bureau
The mission of the Alcohol and Tobacco Tax and Trade Bureau (TTB) is to collect the federal taxes on alcohol,
tobacco, firearms, and ammunition products, protect consumers from unsafe or improperly labeled alcohol
beverage products, and prevent unfair or unlawful trade of alcohol and tobacco products. TTB’s diverse
mission, and its position as a bureau of the Department of the Treasury, means that TTB must strike a balance
between its tax and regulatory functions and its role in facilitating fair and robust economic activity in the
alcohol and tobacco trades.

TTB is staffed with approximately 500 employees, most of whom report to either the headquarters office in
Washington, D.C., or the National Revenue Center in Cincinnati, Ohio. For its auditors, investigators, and
agents to most effectively operate in the field, TTB maintains a minimal physical footprint, with 10 offices in
cities across the United States and Puerto Rico. These small, strategically located offices place the Bureau in
close proximity to centers of trade and industry activity, and provide effective launch points for TTB’s
investigative teams. Additionally, the Bureau has two laboratory facilities in Walnut Creek, California and
Beltsville, Maryland. See Part IV of this report for a chart outlining the TTB organizational structure.

The Bureau was formed in January 2003, under the Homeland Security Act of 2002, but its history began more
than 200 years ago as one of the earliest federal tax collection agencies. Today, TTB operates under the
authorities of the Internal Revenue Code of 1986 (IRC) 1 and the Federal Alcohol Administration Act (FAA Act), 2
including the Alcoholic Beverage Labeling Act of 1988 (ABLA) 3 and the Webb-Kenyon Act. 4 These laws put in
place strict requirements and controls related to alcohol and tobacco products and place restrictions on who
can make, sell, and distribute these commodities.

In essence, TTB administers its jurisdiction according to two core mission areas—“Collect the Revenue” and
“Protect the Public”—both of which serve to support the Nation’s economic recovery by ensuring that the
federal government has the cash resources needed to fund the Nation’s priorities and that lawful U.S.
businesses are competitive and thriving in the global marketplace.




1
  Chapters 51 and 52 of the IRC provide for excise taxation and authorize operations of alcohol and tobacco producers and related
industries, and IRC sections 4181 and 4182 provide for excise taxes for firearms and ammunition.
2
 The FAA Act provides for regulation of those engaged in the alcohol beverage industry and for protection of consumers through
certain requirements regarding the labeling and advertising of alcohol beverages. The FAA Act also includes provisions to preclude
unfair trade practices that serve as barriers to competition and trade in the U.S. marketplace.
3
 The ABLA mandates that a Government warning statement appear on all alcohol beverages offered for sale or distribution in the
United States.
4
    The Webb-Kenyon Act prohibits the shipment of alcohol beverages into a State in violation of the receiving state’s laws.


                                                                     1
                                                                                                                                TTB 2013 Annual Report



   Alcohol Industry Snapshot

                                                                       Alcohol Tax Collections Trend                                                                                             Alcohol Permits Trend
                                 $7.9
                                                                                                                                                                    7,000
                                 $7.8
                                                                                                                                                                    6,000
                                 $7.7
                                                                                                                                                                    5,000
                                                  FY 2013: $7.85 billion, unchanged
                                 $7.6
                                                  from last year and up 6% from 2009                                                                                4,000
                     Billion




                                 $7.5                                                                                                                               3,000
                                                                                                                                                                    2,000
                                 $7.4
                                                                                                                                                                    1,000
                                 $7.3
                                                                                                                                                                          0
                                 $7.2
                                                                                                                                                                                   FY 2009        FY 2010           FY 2011              FY 2012        FY 2013
                                                      FY 2009            FY 2010                FY 2011             FY 2012             FY 2013
                                                                                         Alcohol Tax Collections                                                                                       Alcohol Original Permits Issued




 Tobacco Industry Snapshot

                                                                 Tobacco Tax Collections Trend                                                                                               Tobacco Permits Trend
                  18.0
                                                                                                         FY 2013: $14.3 billion, down 5%                    350
                  16.0                                                                                   from last year, up 24% from 2009
                  14.0
                                                                                                                                                            300

                  12.0                                                                                                                                      250
Billion Dollars




                  10.0                                                                                                                                      200
                   8.0                                                                                                                                      150
                   6.0                                                                                                                                      100
                   4.0
                                                                                                                                                            50
                   2.0
                                                                                                                                                                0
                   0.0                                                                                                                                                        FY 2009        FY 2010          FY 2011               FY 2012          FY 2013
                                                 FY 2009             FY 2010                 FY 2011               FY 2012              FY 2013

                                                                               Tobacco Tax Collections                                                                                            Tobacco Original Permits Issued




                         Firearms & Ammunition Industry Snapshot

                                                     Firearms and Ammunition Excise Tax Collections Trend                                                                               Firearms & Ammunition Registrations Trend
                                           900
                                                                                                  FY 2013: $763 million, up 48%                                      45
                                           800
                                                                                                  from last year, up 69% from 2009                                   40
                                           700
                                                                                                                                                                     35
                                           600                                                                                                                       30
                         Million Dollars




                                           500                                                                                                                       25
                                           400                                                                                                                       20
                                           300
                                                                                                                                                                     15
                                                                                                                                                                     10
                                           200
                                                                                                                                                                      5
                                           100
                                                                                                                                                                      0
                                            0                                                                                                                                     FY 2009         FY 2010            FY 2011               FY 2012         FY 2013
                                                           FY 2009             FY 2010                 FY 2011                FY 2012             FY 2013

                                                                                   Firearms & Ammunition Tax Collections                                                                           Firearms & Ammunition Registrations Issued




                                                                                                                                                            2
                                           TTB 2013 Annual Report


Collect the Revenue
                                                              FY 2013 Total Tax Collections by Industry Type

TTB is the third largest tax collection agency in
the U.S. government, behind the Internal
Revenue Service (IRS) and U.S. Customs and
                                                                     Tobacco
Border Protection (CBP). Annual revenues from                          63%                      Alcohol
the alcohol, tobacco, firearms, and ammunition                                                   34%
industries are approximately $23 billion. TTB
excise tax collections reached an historic high of
$23.8 billion in FY 2010, principally due to
increased receipts from the tobacco industry.                                       Firearms
                                                                                       3%
Today, tobacco revenues comprise more than 60
percent of TTB’s total excise tax collections.

In FY 2013, TTB collected $14.3 billion in tobacco tax revenue, a decrease of approximately 5 percent
compared to FY 2012 collections. In forecasting tobacco revenue, the Congressional Budget Office (CBO)
predicted that federal collections would decline after peaking in FY 2010 due to the significantly increased tax
rates on cigarettes and other tobacco products enacted by the Children’s Health Insurance Program
Reauthorization Act (CHIPRA). This legislation provided for a tax increase on all tobacco products (except large
cigars), cigarette papers, and cigarette tubes, effective April 1, 2009. Higher prices on tobacco products have
historically resulted in decreased consumption and increased illicit trade, which indicates that tobacco revenue
will continue to decline. Further, recent analysis of tobacco collections has shown significant market shifts for
tobacco products since the passage of CHIPRA. The law introduced large federal excise tax disparities among
tobacco products, which created opportunities for tax avoidance and led manufacturers and price sensitive
consumers to shift toward lower-taxed products. TTB’s efforts in enforcing both its civil and criminal tax
jurisdiction support voluntary tax compliance and act to deter illicit trade, and TTB will continue to act to
address the revenue threat posed by the diversion of alcohol and tobacco products to ensure the collection of
the taxes due.

The alcohol beverage industry in the United States accounts for approximately 30 percent of the excise tax
revenue collected by TTB. In FY 2013, TTB collected approximately $7.9 billion in revenue from U.S. wineries,
breweries, and distilleries, down slightly compared to the prior year. While economic forecasts predict
continued modest growth in the U.S. alcohol industry as a whole, excise tax collections will likely remain
relatively flat due to a number of variables, including increasing volumes in imports and exports, and declining
sales by volume from the country’s largest breweries, which account for over 90 percent of the beer sold in the
U.S. The rapid expansion of new small alcohol beverage producers, including small wineries and “craft”
breweries and distilleries, will not entirely offset the declines in sales and tax payments by the large companies
because these producers have lower production volumes and small beer and wine producers are eligible for
reduced tax rates based on their production volume. This trend is expected to continue into FY 2015.

TTB also collects the federal excise taxes on firearms and ammunition. These taxes are remitted to the Fish
and Wildlife Restoration Fund. This trust fund was established by statute and is overseen by the U.S. Fish and
Wildlife Service, which apportions the money to state governments for wildlife restoration and research

                                                        3
                                           TTB 2013 Annual Report


and hunter education programs. In the past decade, collections have increased from $193 million in FY 2003
to an estimated $763 million in FY 2013, an increase of $570 million over the past decade, or a 295 percent
growth in tax revenue. Significant revenue shifts occurred between fiscal years 2011 and 2013, with
collections increasing nearly 50 percent year-to-year. Historically, the increase in reported tax revenue can be
attributed to external factors, such as increased sales, as well as TTB’s enforcement presence, which increases
collections and promotes voluntary compliance.

Civil Tax Enforcement

Tax Classification
The tax rate on alcohol and tobacco products depends on a variety of factors, including product type (i.e.,
wine, spirits, or malt beverage) as well as characteristics of the products themselves, such as composition and
weight. A critical first step in tax enforcement is the assignment of a tax class to alcohol and tobacco products
based on federal regulatory standards.

For alcohol beverages, classification requires that TTB review the formula of certain products before they enter
the market. For example, if an examination of the formula reveals that an imported sake, which is made from
fermented rice and is classified and taxed as wine, contains added spirits, then the product is then classified
and taxed as a distilled spirits product. This type of formula review, known as a pre-import approval, can have
significant tax implications, as wine is subject to a lower tax rate than spirits products.

TTB also conducts marketplace product evaluations to check for proper tax classification based on the
characteristics of the product as defined by statute. As an example, TTB evaluates samples of products
marketed as large cigars to verify that the products are large cigars rather than cigarettes or small cigars, as
the tax rates differ markedly between these products. In classifying such a product for tax purposes, TTB
evaluates the product’s wrapper, the type of tobacco used in the filler, the product’s packaging and labeling,
and its weight to verify that the product meets the statutory criteria for a large cigar.

Shifting Market Trends due to Tax Rates

The increase in the federal excise tax rate on cigarettes and other tobacco products highlights the importance
of TTB’s tax classification activities. Prior to CHIPRA, TTB faced enforcement challenges due to the disparate
tax rates on cigarettes and small cigars, and challenges in applying the statutory criteria to these products. The
law resolved a longstanding tax enforcement challenge for TTB by creating parity in the excise tax rates for
cigarettes and small cigars. However, CHIPRA created large disparities in tax rates for other tobacco products,
thus presenting new challenges for TTB in appropriately classifying and collecting the taxes due on these
products based on their substantial similarities. Since the new tax rates took effect in April 2009, TTB has
identified and monitored significant market shifts toward lower-taxed tobacco products by manufacturers and
price-sensitive consumers.




                                                        4
                                                    TTB 2013 Annual Report

 In the past five years, TTB data indicates
a near complete reversal in the market
                                                            MARKET SHIFTS IN TOBACCO PRODUCTS
share for pipe and roll-your-own (RYO)
tobacco in response to the lower tax rate                   Significant shifts in the tobacco products industry have developed since the enactment
                                                            of CHIPRA, particularly for small and large cigars and RYO and pipe tobacco. An
on pipe tobacco.5 Similarly, the market                     independent review by the Government Accountability Office (GAO) examined the
share for small cigars and large cigars,                    market shifts in smoking tobacco products since CHIPRA, examined the impact of those
which was relatively equal pre-CHIPRA,                      market shifts on federal revenue, and evaluated TTB’s actions to respond. In its 2012
                                                            report (GAO-12-475) on shifts in tobacco product removals since the tobacco tax rate
has starkly shifted toward large cigars as
                                                            increase, GAO estimates that federal revenue losses due to market shifts from RYO to
these products are subject to an ad                         pipe tobacco and from small to large cigars could exceed $1.1 billion for the period April
valorum tax and can have significantly                      2009 through September 2011. GAO recommended that Congress consider equalizing
                                                            tax rates on RYO and pipe tobacco and, in consultation with the Department of the
lower tax rates depending on the sale
                                                            Treasury, consider options for reducing tax avoidance due to tax differentials between
price of the cigar. 6                                       small and large cigars. GAO also recognized that TTB has taken steps to respond to
                                                            these market shifts, including its efforts to differentiate between RYO and pipe tobacco
Because of the lack of clear standards in                   for tax collection purposes, but acknowledged that TTB has limited options. Current
the tax code to differentiate pipe                          data      indicates       that     this      trend      continued     in     FY     2013.
tobacco from RYO tobacco, and the
consequent potential for
misclassification and erroneous tax
payment on these products, TTB has
initiated rulemaking on the types of
objective standards that would provide a
basis for differentiating between these
two products for tax purposes. At the
same time, the TTB Tobacco Laboratory
has been evaluating proposed methods
and standards, and undertaking research                                                            Post CHIPRA Market Shift
                                                                                                     Large vs. Small Cigars
to develop additional methods and
                                                             100%
                                                                                                                                                                              93%
                                                             90%

standards, in support of this rulemaking.                    80%

                                                             70%
The goal is to set forth objective criteria,                 60%
                                                                                                                                      Small Cigars         Large Cigars



based on physical characteristics of the                     50%

                                                             40%
products, to distinguish between pipe                        30%


tobacco and RYO for tax purposes. TTB                        20%

                                                             10%

intends to publish subsequent
                                                                                                                                                                              7%
                                                              0%
                                                                    Pre-CHIPRA     Post-CHIPRA    - through CY     - through CY   - through 7/2012   - through CY   - through 7/2013

rulemaking in this area.                                                         4/2009-12/2009 2010 (21 months) 2011 (33 months)
                                                                                    (9 months)
                                                                                                                                     (40 months)   2012 (45 months)    (52 months)




5
 Prior to CHIPRA, the tax rates on pipe tobacco and RYO tobacco were the same at just under $1.10 per pound. As a result of CHIPRA,
the tax on pipe tobacco was increased to just over $2.83 per pound, while the tax on RYO tobacco was increased to $24.78 per pound.
6
  Large cigars are the only tobacco product for which the excise tax is based on the manufacturer or importer’s sale price; all other
tobacco products are taxed at a flat rate based either on the number of units or the weight of the product. The ad valorum tax on large
cigars can result in significantly lower tax rates on these products, depending on the sale price of the cigar. As a result, since the tax
increase on small cigars, TTB has found that manufacturers and importers are increasing the weight of products that TTB had previously
evaluated and determined to be small cigars prior to CHIPRA so that they meet the statutory definition of a large cigar.


                                                                     5
                                                    TTB 2013 Annual Report

                                                      Supporting Global Tax Administration by Advancing Tobacco
                                                      Science
TTB MANUSCRIPT ON TOBACCO
ANALYSIS METHOD PUBLISHED IN                          As an international authority on the technical analysis of alcohol
                                                      and tobacco products, TTB’s expertise is sought after by domestic
INTERNATIONAL TOBACCO JOURNAL
                                                      partners and foreign counterparts to support an effective global
                                                      excise tax enforcement scheme. TTB also actively pursues
                                                      opportunities for collaboration to support its tax and regulatory
                                                      mission.

                                                      TTB’s Tobacco Laboratory is a government leader in the
                                                      development of methods and protocols to identify physical
                                                      characteristics of tobacco products for regulatory and tax
                                                      enforcement purposes. In FY 2013, TTB’s Tobacco Laboratory
Beginning in 2011, TTB's Tobacco Laboratory           developed a method for humectant analysis in various tobacco
initiated a project to develop a method for the       products. Industry adds humectants to tobacco products to
analysis of humectants in tobacco products to         retain moisture content and extend a product’s shelf life. The
support product characterization. Humectants          TTB Tobacco Laboratory has analyzed humectants in pipe tobacco
are usually used in tobacco products to retain        and RYO tobacco in support future rulemaking to distinguish
moisture. Typical humectants are glycerol,
                                                      these products because humectant concentration is a physical
propylene glycol, and triethylene glycol.
                                                      characteristic that may provide an objective standard to support
Through their research, TTB chemists                  tax classification determinations. TTB also participated in an
developed a method for humectant analysis in          international collaboration study to validate the humectant
tobacco products using a column splitter              analysis methods proposed by the World Health Organization
technique for simultaneous analysis by gas            (WHO) and the Tobacco Laboratory Network (TobLabNet), a
chromatography with mass spectrometry (GC-            global tobacco testing laboratory network. This effort supports
MS) and flame ionization detectors (FID). The         the identification and acceptance of an internationally recognized
sensitivity of FID and the selectivity of MS
                                                      consensus method for the analysis of humectants in tobacco
make this an attractive method for the analysis
                                                      products.
of tobacco humectants.

TTB chemists compiled the details and the
                                                      TTB also published a paper in the Journal of Agriculture and Food
results of their research in a manuscript titled,     Chemistry comparing two accepted methods used by TTB and the
"Quantitative Analysis of Humectants in               tobacco industry to analyze carbohydrates in tobacco products.
Tobacco Products using Gas Chromatography             As major components of tobacco products, carbohydrates are
with Simultaneous Mass Spectography and               valuable for product characterization and support TTB’s efforts to
Flame Ionization Detectors." The paper was            develop objective criteria to determine the tax class of tobacco
published in the June 2013 edition of the             products. Based on TTB’s findings, industry members may use
Beiträge zur Tabakforschung International/            either technique for analysis of raw and processed tobacco
Contributions to Tobacco Research journal.
                                                      without concern that the other method will generate different
TTB plans to use humectant concentration as a         results.
test for characterizing various tobacco
products for tax classification.
                                                      In FY 2013, TTB organized the second meeting of the North
                                                      American Tobacco Regulatory Laboratory Network technical
                                                      forum, which met in September 2013 at the TTB National

                                                               6
                                           TTB 2013 Annual Report

Laboratory Center in Beltsville, Maryland. Thirty-five scientists and regulators representing 11 federal agencies
from the United States, Canada, and Mexico participated in the forum to discuss tobacco science in the context
of tobacco regulation. TTB established the forum to foster the exchange of information on technical
regulatory matters and collaboration on testing protocols and analytical methods to proactively address
emerging issues on tobacco. Forum participants identified tobacco leaves and tobacco flavor projects as major
areas for collaboration and formed working groups to begin enhancing technical capabilities.

In the alcohol field, TTB developed a new capability using isotope ratios to determine the difference between
naturally sparkling wines and wines that are artificially carbonated. This capability is important because
naturally sparkling wines and artificially carbonated wines fall into different tax classes, and producers may
label artificially carbonated wines as naturally sparkling wines to evade federal taxes and defraud consumers.
TTB participated in an international study with laboratories from France, Germany, Brazil, and Uruguay to
validate this capability, with TTB’s results comparing favorably to the international group’s results. The
participating laboratories are discussing future studies to support tax classification and address other
fraudulently labeled alcohol products.

In FY 2013, TTB also coordinated an international wine technical forum, which provided an opportunity for TTB
to address emerging technical issues and encourage scientific collaboration between TTB, industry scientists,
and other wine regulators. Participants at this year’s forum included representatives from TTB, the Wine
Institute, the Unione Italiani Vini (an Italian wine trade organization), the World Wine Trade Group, and the
Asia-Pacific Economic Cooperation (APEC). The technical principles discussed during the international forum
focused on establishing regulatory limits for wine and testing wine for compliance. These technical principles
will serve as the foundation for a multi-year project to promote coherence in wine regulation throughout the
APEC region.

Addressing Revenue Threat from Roll-Your-Own Cigarette Machines
The current tax differential on certain tobacco products has also contributed to the proliferation of cigarette
manufacturing machines at retail establishments and other venues for consumer use. Following the
enactment of CHIPRA, TTB began receiving reports of retail establishments maintaining commercial cigarette-
making machines on their premises for customers to use in the manufacture of cigarettes. TTB received
reports that customers were purchasing pipe tobacco for RYO to avoid the higher excise tax rate on RYO, and
then used the cigarette-making machines to produce lower cost cigarettes using pipe tobacco.

In July 2012, Congress enacted the Moving Ahead for Progress in the 21st Century Act (H.R. 4348, also known
as "MAP‐21"), which definitively addressed the legal status of retailers that provide cigarette-making machines
to customers. The law clarified that any person who for commercial purposes makes available for consumer
use a machine capable of making tobacco products (including cigarettes) is a manufacturer of tobacco
products. TTB issued public guidance in October 2012 to clarify that these manufacturers must comply with all
applicable statutory and regulatory requirements, including applying for a permit from TTB and, paying federal
excise taxes. The guidance also clarified that non-profit organizations, social clubs, cooperatives, and other
similar organizations that made RYO machines available to members were not exempt from these
requirements. In early FY 2013, TTB initiated enforcement actions on approximately 1,300 locations suspected
of illegally operating RYO cigarette machines. To date, this enforcement initiative has resulted in the
identification of approximately $1 million in tax liabilities and the initiation of several criminal investigations.
                                                         7
                                            TTB 2013 Annual Report

Tax Verification
In effecting its revenue mission, TTB uses a strategic risk-based approach to verify that industry members remit
the excise taxes due on the alcohol, tobacco, firearms, and ammunition products sold to U.S. consumers. This
strategy enables TTB to cover a wide universe of taxpayers and establish an identifiable enforcement presence
to deter industry members and others from engaging in diversion activity. This involves a combination of risk
modeling and data analytics to support the identification of the highest risk activity for audit or investigation.
Continuous refinements to these models and sound intelligence enable TTB to efficiently deploy its limited
enforcement resources to address most serious revenue threats.

TTB also relies on a coordinated enforcement approach in verifying proper tax payment. The Bureau’s
auditors, investigators, agents, and intelligence analysts all contribute critical skills to detecting and addressing
tax evasion. Due to the complexity of diversion schemes, these skills are often combined in the form of
National Response Teams that identify and investigate major diversion cases with potential nationwide impact,
helping to ensure the successful prosecution of offenders. TTB also applies advance investigative techniques
to detect diversion, which include the tracing of products through the supply chain to the point of diversion.
Combined, these efforts resulted in civil and criminal cases and the identification of approximately $18 million
in excise tax liability in FY 2013 alone. Further, TTB’s forward trace investigations have identified an
underground market for whole leaf tobacco used to manufacture “blunt” wrappers used to smoke marijuana,
indicating a relationship between marijuana and taxable tobacco products that warrants further evaluation.
Though the whole leaf tobacco itself is unregulated and untaxed, cutting the leaf to manufacture blunt
wrappers requires a permit and is subject to federal excise tax.

Enforcing Compliance in the Import and Export Trade
Due to the known revenue risk in the import and export trade in alcohol and tobacco products, in FY 2013, TTB
continued to focus its enforcement on these at-risk points in the supply chain. TTB’s efforts, in collaboration
with CBP, have ensured an even playing field in the international trade of alcohol and tobacco.

As the federal permitting authority for alcohol and tobacco importers, TTB developed risk models to identify
high-risk activity and importers. In FY 2013, TTB continued to enhance and test its risk models with the goal of
allowing for more real-time identification of high-risk activity for enforcement action. To date, this initiative
has resulted in the identification of more than $11.5 million in additional excise tax liability associated with
imported alcohol and tobacco products. TTB has referred these cases to CBP, the agency responsible for
collecting the federal excise tax on imported products.

TTB extends its enforcement reach through interagency cooperative efforts. In particular, TTB is partnering
with CBP’s Office of Regulatory Audits (ORA) to ensure that the taxes due on imported products are collected.
In FY 2013, TTB and CBP’s ORA conducted a joint audit of a tobacco importer. This pilot effort resulted in the
identification of $6.3 million in federal excise taxes, and TTB is working with CBP on collection. Additionally,
TTB and CBP jointly developed and implemented new protocols for tax collections on TTB-regulated
commodities to strengthen federal tax enforcement.




                                                         8
                                           TTB 2013 Annual Report


Exports also pose a significant revenue threat because alcohol and tobacco products intended for export may
be placed in a customs bonded warehouse, foreign trade zone, or tobacco export warehouse without payment
of tax because they are not intended for the U.S. market. Some tax evasion schemes involve diversion of these
products into domestic commerce to evade federal excise taxes. According to TTB data, non-taxpaid removals
of alcohol and tobacco products from bonded premises have an annual excise tax exposure of about $380
million and $1 billion, respectively. In FY 2013, TTB auditors and investigators, as well as five National
Response Teams, examined suspected tax fraud and diversion at export warehouses. Though these
investigations are time intensive, and often require forward trace investigations, the results to date indicate
significant diversion activity. Based on these investigations, TTB has initiated more than $3 million in tax
assessments and anticipates taking actions on the permits of the implicated companies. Going forward, TTB
intends to expand its proven intelligence and investigative techniques to make significant inroads into
identifying tax evasion schemes that involve the diversion of non-taxpaid products intended for export.

Addressing the Revenue Risk from Tobacco Processors
Manufacturers and importers of processed tobacco distribute roughly 1.1 billion pounds of processed tobacco
annually to a myriad of brokers, manufacturers, and other tobacco processors for use in cigarettes and other
taxable tobacco products. Manufacturers and importers of processed tobacco must obtain a TTB permit and
report to TTB on the first removal, transfer, or sale of processed tobacco. As processed tobacco is untaxed, the
diversion of this product outside the lawful distribution chain for use in the illegal manufacture of cigarettes or
other tobacco products poses a significant revenue risk. As a result, limited reporting requirements and the
unrestricted sale of processed tobacco create additional enforcement challenges in detecting and addressing
tobacco diversion.

During FY 2012, TTB developed a risk model to detect high-risk removals and sales of processed tobacco, and
used a combination of audits and forward trace investigations to determine if the product was used in the
illicit manufacturing of tobacco products. In FY 2013, TTB continued to address this identified revenue threat
and, to date, TTB’s investigations into this area have resulted in multiple civil and criminal cases that have
identified more than $180 million in potential revenue loss from the diversion of more than 10 million pounds
of processed tobacco to non-permitted entities.

Criminal Enforcement
TTB is the federal agency responsible for detecting and addressing federal excise tax evasion in relation to
alcohol and tobacco products. Under its criminal authority, TTB is charged with identifying any gaps in tax
payment from entities and individuals manufacturing or selling alcohol and tobacco products outside of the
lawful distribution system. The diversion of these products outside of legitimate commercial channels without
the payment of taxes due threatens federal revenues, undermines fair competition, and provides a well-
established source of funding for criminal enterprises.




                                                        9
                                                   TTB 2013 Annual Report

Accurately measuring the loss in federal tax receipts from alcohol and tobacco diversion is difficult because of
the clandestine nature of the activity. 7 However, in any case where the intrinsic value of a product is dwarfed
by its tax value, there is incentive to evade the tax to gain an illegal profit. In its 2009 review of federal
tobacco tax enforcement efforts, the Department of Justice Office of the Inspector General cited federal and
state government estimates of $5 billion in annual revenue losses resulting from the diversion of tobacco
products. 8

Recent increases in federal and state tobacco tax rates have further increased the profit incentive to engage in
cigarette trafficking, which has resulted in a proliferation of tobacco diversion schemes. A March 2011
Government Accountability Office Report found that there are a wide range of schemes used to evade tobacco
excise taxes and fees and described the scope of current diversion activity, which extends to high and low tax
states alike, as well as to Native American lands and other countries. 9 However, the diversion of products to
evade federal excise tax is not limited to tobacco. Though TTB has no similar estimates of revenue losses from
the diversion of alcohol, TTB’s criminal cases indicate that fraud in the alcohol beverage trade poses both a
public safety risk and a serious revenue threat.

Using temporary appropriations, TTB has developed an effective criminal enforcement program by leveraging
existing law enforcement agents within the Treasury Department to enforce its criminal jurisdiction. This
arrangement has allowed TTB to engage in operations quickly and bypass certain operational costs, both of
which are critical considerations given continued funding uncertainties. TTB uses forensic auditing and
advanced investigative techniques respond to constantly evolving diversion schemes, which vary widely and
change in response to targeted enforcement efforts. TTB’s techniques have proven effective in narrowing the
tax gap in the tobacco and alcohol industries and contributing to deficit reduction through additional revenue
collections.

Achieving Criminal Enforcement Results
In three years of operations, the TTB criminal enforcement program has produced significant results,
particularly given the early stage of the program. Using a small contingent of agents supported by a robust
team of auditors, investigators, and intelligence analysts, TTB has opened a total of 64 cases, 18 of which were
opened in FY 2013. In total, TTB’s criminal cases have identified nearly $350 million in estimated tax liability
from the diversion of alcohol and tobacco products, with one ongoing case initiated in FY 2103 involving over




7
  In February 2010, the Department of the Treasury issued a report to Congress (“Report to Congress on Federal Tax Receipts Lost Due
to Illicit Trade and Recommendations for Increased Enforcement”), which included an effort to estimate the amount of Federal tax
receipts lost as a result of cigarette diversion. The study emphasized the substantial uncertainty surrounding the magnitude of the
Federal tax receipts lost due to cigarette diversion.

8
 “The Bureau of Alcohol, Tobacco, Firearms and Explosives’ Efforts to Prevent Diversion of Tobacco,” U.S. Department of Justice, Office
of the Inspector General, Report No. I-2009-005, Sept. 2009.

9
 “Illicit Tobacco: Various Schemes are Used to Evade Taxes and Fees,” U.S. Government Accountability Office, GAO-11-313, March
2011.



                                                                  10
                                            TTB 2013 Annual Report

$150 million in tax liabilities. To date, TTB’s special agents have participated in criminal seizures valued at
approximately $117 million based upon violations under TTB’s jurisdiction.

TTB has worked jointly with local, state, and other federal agencies, including the IRS, CBP, FDA, ATF, and
Homeland Security Investigations, to investigate and develop criminal cases under TTB’s jurisdiction.
Coordinating with other law enforcement partners leads to stronger cases and ensures a unified federal
enforcement presence to deter future criminal activity. Based on charges outside of TTB’s primary jurisdiction,
including money laundering and Contraband Cigarette Trafficking Act violations, TTB has identified an
additional $2.7 million in revenue due to the government.

TTB has identified criminal activity across the industries it regulates, with approximately 61 percent of its
initiated diversion cases related to tobacco products, 33 percent related to alcohol beverage products, 5
percent involving alcohol and tobacco products, and 1 percent related to evasion of the firearms and
ammunition excise tax. The schemes employed to evade excise tax payment include:

    •   Manufacturing of tobacco products without payment of Federal excise tax
    •   Cigarette distributors evading tobacco floor stocks tax
    •   Cigarette distributors selling “exported” cigarettes in the U.S. without payment of federal excise tax
    •   Cigarettes smuggled into the U.S. without payment of federal excise tax
    •   Failure to pay federal excise tax on distilled spirits
    •   Importation of misclassified distilled spirits to evade federal excise tax
    •   Operating without a permit/wholesaling violations
    •   Importing alcohol without a permit
    •   False wine labeling and sales of counterfeit wine

In FY 2013, TTB presented 18 cases to the U.S. Attorney’s Office, of which 17 have been accepted to date, for a
94 percent acceptance rate. The high acceptance rate for TTB’s criminal referrals demonstrates both the merit
and the magnitude of these cases. In addition, TTB maintains a 100 percent conviction rate on the TTB cases
that have been resolved through the legal system. In FY 2013, the amount of tax loss at issue in the cases
recommended for prosecution exceeded $57 million.

Significantly, though criminal cases are often multi-year endeavors, TTB has already resolved several cases in
the three years since the launch of TTB’s criminal enforcement program. In FY 2013, a defendant convicted on
tobacco diversion charges was sentenced to five years of incarceration, followed by three years of supervised
release, and ordered to pay restitution of $10 million and forfeit $19 million. Another defendant was
sentenced to one year of incarceration and ordered to pay nearly $1 million in restitution for filing false federal
excise tax returns on manufactured distilled spirits.


Protect the Public
TTB’s public protection mission includes a wide range of activities that directly impact American consumers
and the U.S. economy. TTB’s role in regulating the trade of alcohol and tobacco products ensures not only
consumer confidence in the integrity of the products manufactured in the U.S., but also that businesses are
operating on a level playing field—key outcomes that promote job growth and a strong economy.
                                                          11
                                          TTB 2013 Annual Report

TTB’s work in this mission area aligns under three main programs: 1) Permits and Business Assurance; 2) Trade
Facilitation; and 3) Advertising, Labeling, and Product Safety. Taken together, these programs ensure the
integrity of the businesses that produce and distribute alcohol and tobacco products, the integrity of the
alcohol beverage products, and the integrity of the market in which these businesses operate.

Business Integrity
TTB facilitates growth in the U.S. economy by ensuring that only qualified applicants enter business as an
alcohol producer, wholesaler, or importer, or as a tobacco products manufacturer, importer, or exporter. The
FAA Act includes provisions that require a permit for alcohol beverage producers, importers, or wholesalers;
the IRC includes similar permitting requirements for tobacco manufacturers, importers, and export
warehouses, as well as some alcohol industry members. The number of applicants filing for an original permit
or registration with TTB has grown 40 percent between fiscal years 2009 and 2013. Today, the Bureau
regulates over 66,600 industry members.

Under its FAA Act authority, TTB conducts a multi-tiered background evaluation prior to issuing a permit to
ensure that only qualified persons obtain a permit to operate within the TTB-regulated industries. Through
this process and other activities under its Permits and Business Assurance Program, TTB prevents prohibited
persons from commencing operations and potentially diverting products from legitimate commercial channels
to fund illicit activity. Given the substantial tax revenue associated with the commodities TTB regulates, this
activity also plays an important role in protecting federal revenues.

Efficiency in permit processing is equally critical to support improved economic opportunities for U.S.
businesses. Prompt turnaround times for permit application processing enables those who are qualified to
hold a federal permit to begin their operations sooner, facilitating U.S. economic growth in a fair marketplace.


Improving Service in Permit Processing
TTB processes applications for 23 types of permits or registrations for the alcohol, tobacco, firearms, and
ammunition industries. New or existing alcohol and tobacco industry members must be approved by TTB in
order to commence a new regulated industry operation. The new businesses permitted by TTB are
predominantly small businesses, which contribute to local job opportunities as well as America’s
competitiveness in the global market.

Industry growth over the past several years has been striking, with the number of small producers increasing
an average of between 10 – 20 percent annually. Over the same time period, TTB resources have declined,
making it difficult to maintain prompt processing times. It is critical for TTB to address delays in permit
issuance to avoid being in an obstructive posture at a time when job creation and United States
competitiveness abroad are national priorities.

TTB completed its rollout of Permits Online, its electronic system for filing original and amended permits, in FY
2012. The impact of Permits Online has been substantial. Without this intervening action, TTB projected that
average processing times would have averaged between 90 - 120 days by early FY 2012 and into FY 2013,
compared to an average of 65 days just three years prior.


                                                       12
                                                     TTB 2013 Annual Report

                                                        However, TTB processing times are increasing annually, largely
                                                        driven by the influx of permit applications and limited staff to
ALCOHOL INDUSTRY MEMBERS
                                                        process them. Even as electronic filing rates reached 70
                                                        percent, the average processing times increased nearly two
                                                        weeks, from 69 days in FY 2012 to 81 days in FY 2013. Although
                                                        electronic processing reduces application errors as well as the
                                                        time and resources needed to return incomplete applications, it
                                                        does not decrease the time needed by TTB to review each
                                                        application. As a result, addressing delays in application
                                                        processing requires broader reforms in TTB’s business
                                                        processes.

                                                        In FY 2103, to curb increasing turnaround times, TTB
                                                        concentrated its system enhancements on improvements to
                                                        streamline the application review and approval processes.
                                                        These changes addressed bottlenecks in the approval process
                                                        and eliminated certain manual and paper-based processes. TTB
                                                        also identified and implemented improvements to every facet of
                                                        the processing workflow, from initial assignments to permit
                                                        approval or denial.

                                                        TTB intends to improve processing times in FY 2014 through a
                                                        combination of initiatives that involve further streamlining TTB’s
                                                        internal procedures, increased industry outreach, and ongoing
                                                        system enhancements. TTB will also update its risk model and
                                                        procedures used to process permit applications, including
                                                        through adding new financial data sources and improving the
The number of U.S. wineries, breweries, and             risk criteria used to vet alcohol and tobacco permit applicants.
distilleries continues to increase. The wine            Increased focus on risk modeling and statistical sampling will
industry has grown at a relatively constant pace
in each of the past five years, increasing an
                                                        help TTB maintain its assurance that it is permitting only
average of 9 percent each year. Since 2009, the         qualified applicants while managing workloads.
number of wineries has grown nearly 40 percent.
                                                        TTB is also taking steps to speed its transition to an entirely
U.S. breweries increased steadily between 2009
and 2011 and, in both 2012 and 2013, increased          online processing environment. System enhancements in
25 percent over the prior year. In five years, the      development for fiscal years 2014 and 2015 include the upload
number of breweries has increased 98 percent.
                                                        of historical permit application data from TTB’s legacy permit
Market data indicates that growth is strong in the
craft   brewer    segment,     which      includes      and tax database to the Permits Online system. This initiative
microbreweries and brewpubs.                            will allow the approximately 60,000 TTB permittees who
Since 2009, there has also been significant             originally filed a paper permit application to electronically file
growth in the number of distillers, which               for amendments to their permit (i.e., change in control or
increased by 107 percent in five years. This
                                                        change in address) through Permits Online. As TTB receives an
growth is driven by a booming craft distilling
industry, defined as beverage distilled spirits         average of 18,000 – 20,000 permit amendments annually, this
producers that taxpaid less than 100,000 proof          project will result in efficiencies for both TTB and the businesses
gallons annually. This segment has increased by
122 percent since 2009.
                                                        it serves.
                                                                13
                             TTB 2013 Annual Report




Top 10 States by Number of Alcohol Permits        Top 10 States by Number of Tobacco Permits
                          # Active Permit                                   # Active Permit
           State                                            State
                              Holders                                           Holders
California                     4,723              Florida                         243
Washington                     1,265              California                       93
Oregon                          789               New York                         78
New York                        683               North Carolina                   77
Texas                           560               Texas                            45
Michigan                        484               Pennsylvania                     37
Pennsylvania                    437               Virginia                         37
Colorado                        402               New Jersey                       36
Virginia                        393               Kentucky                         22
Ohio                            370               Illinois                         21

                                             14
                                                    TTB 2013 Annual Report

Importing Tobacco Products without a Permit

In support of the Bureau’s business integrity objectives, TTB monitors compliance with federal permit
requirements among tobacco product importers through a variety of data analysis and investigative
techniques. In FY 2013, TTB intelligence analysts identified that 11 percent of active tobacco importers had
imported products illegally during the fiscal year. TTB took appropriate enforcement action to address each
instance of non-compliance. TTB’s analysis of import data in FY 2013 also indicated that the vast majority of
non-permitted importers are individuals purchasing tobacco products through online tobacco outlets and
shipping them via the U.S. Postal Service (USPS) and FedEx. As appropriate, TTB coordinates with the USPS
and other ground carriers to take enforcement action against violations within the Bureau’s purview. These
efforts to identify and address compliance violations have proven effective, as all of the importer entities
contacted by TTB have subsequently complied with their legal obligations or ceased operations.

Further, due to TTB’s enforcement efforts, the rate of non-permitted tobacco importers that have declared
entries of tobacco products to U.S. Customs has declined from 22 percent to 11 percent over the past six
years. As tobacco products are often smuggled into the U.S. through undeclared importations, however, TTB
must continue to supplement these data mining efforts and to monitor importer activity through audits,
investigations, and other intelligence efforts to detect undeclared importations and address the substantial
potential tax losses that they represent.

Market Integrity
TTB is charged with ensuring that the alcohol marketplace is free from practices that would stifle competition
and act as a barrier to trade. TTB meets this mandate through a variety of activities under its Trade Facilitation
program, ranging from investigations of industry trade practices to engaging foreign counterpart agencies to
keep the channels of commerce open and operating in compliance with U.S. and international laws.

TTB’s work in this area directly influences the Nation’s economic recovery. Industry trade association reports 10
state that the alcohol beverage industry contributes directly or indirectly to the U.S. economy by providing
nearly 4 million jobs and roughly $400 - $500 billion in economic activity. Overseas demand for the products
TTB regulates remains strong, with U.S. exports of all alcohol beverages totaling approximately $3.2 billion in
2012. The majority of these exports are spirits and wine products.

Promoting Fair Competition in the U.S. Marketplace
As part of its Trade Facilitation Program, TTB’s FAA Act trade practices program investigates acts that violate
federal law relating to alcohol beverage marketing practices. The FAA Act provisions that TTB enforces require
TTB to ensure fair competition in the alcohol beverage trade by not only verifying that persons who engage in



10
  “The Impact of Wine, Grapes and Grape Products on the American Economy 2007,” MKF Research LLC; “The National Trade
Association Representing Producers and Marketers of American’s Favorite Brands of Distilled Spirits,” Distilled Spirits Council of the
United States; “Beer Industry Contributes Nearly $200 Billion to U.S. Economy,” Beer Institute and National Beer Wholesalers
Association. Economic Impact study conducted by John Dunham & Associates, New York City, using data compiled in 2008.



                                                                    15
                                          TTB 2013 Annual Report



the trade are qualified to do so within the meaning of the statute, but also by ensuring that the trade practices
among industry competitors comply with the law. Regulated trade practices include restrictions on exclusive
outlets, tied house arrangements, commercial bribery, and consignment sales. Unlawful trade practices
threaten fair competition by undermining equal access to the marketplace, precluding healthy small business
activity, and limiting consumer choices by allowing influential producers to unlawfully interfere with the supply
chain.

In FY 2013, TTB engaged in an evaluation of certain industry practices that may violate the tied house
provisions of the FAA Act. These provisions provide that it is unlawful for an industry member to induce any
retailer to purchase alcohol beverage products from the industry member to the exclusion, in whole or in part,
of alcohol beverage products sold or offered for sale by other persons in interstate or foreign commerce.
Examples of activities that are considered unlawful inducements under the FAA Act include furnishing, giving,
renting, lending, or selling to the retailer any equipment, fixtures, signs, supplies, money, services, or other
things of value. The regulatory exceptions to this provision are limited to certain promotional support items,
such as product displays, point of sale advertising materials, equipment and supplies, and other items and
services that are not considered to be an unlawful inducement.

In recent years, however, evolving industry practices and developing technologies have changed how shelf
schematics are designed and offered to retailers. Shelf schematics in the current market are often complex
computer-generated models of entire beverage sections that are increasingly offered in combination with
shelf management programs that include additional related services, some of which could be considered
unlawful inducements under the FAA Act. In FY 2013, TTB evaluated these programs and the use of shelf plans
and schematics given by industry members to retailers in the current market to determine whether these
practices constitute unlawful inducements. TTB intends to take additional actions to address this issue in FY
2014 to the extent that these activities violate federal laws that are intended to promote a competitive market
by ensuring fair competition among industry members.

Facilitating U.S. Penetration into Foreign Markets

TTB has been actively engaged with U.S. trade officials in facilitating fair and open trade in alcohol beverages
to support new opportunities for U.S. businesses in overseas markets. U.S. exports of alcohol beverages
totaled more than $3 billion in 2012, the most recent full year of data available. In line with increases in
overall export volume, alcohol beverage exports increased 17 percent compared to the prior calendar year. As
the technical expert in these commodities, TTB seeks to promote U.S. exports by facilitating industry
compliance with foreign requirements and by working with foreign regulators to address barriers that block
market access for U.S. products.
TTB must process certificates for U.S. producers to facilitate export sales because many foreign countries
require that shipments be accompanied by a certification from an appropriate government authority prior to
allowing entry of the product. This activity affirms the integrity of domestically produced alcohol beverages




                                                       16
                                                  TTB 2013 Annual Report


and supports the U.S. trade policy goal to double exports by the end of 2014, as stated in the Administration’s
National Export Initiative.
For those countries that maintain a certification requirement, in FY 2013, TTB issued more than 10,000 export
certificates for beer, wine, and distilled spirits. Without these certificates, which are only issued by TTB, U.S.
producers of alcohol beverages cannot sell their products in major markets abroad. Through its international
outreach and negotiations, TTB has arranged for the elimination or reduction of certification requirements for
wine exported to the 27 member states of the European Union, Argentina, Australia, Canada, Chile, Georgia,
New Zealand, and South Africa.




 ALCOHOL BEVERAGE IMPORTS and EXPORTS (by VALUE)




  The value of U.S. export trade in alcohol beverages continues to increase. In 2012, the most recent full year of data
  available, U.S. exports of distilled spirits totaled more than $1.4 billion, which represents a 10 percent increase from 2011.
  Over the same period, U.S. exports of wine increased by 3 percent, to $1.3 billion. Meanwhile, U.S. exports of beer
  increased by 21 percent, to $446 million. With the exception of the 2009 calendar year, exports of U.S. alcohol beverages
  have increased each year in the previous five years.

  U.S. import trade in alcohol beverages also increased in 2012. From 2010 to 2011, there was a 5 percent increase in wine
  and distilled spirits, and a 4 percent increase in malt beverages. Distilled spirits, wine, and beer imports reached new highs
  in 2012, totaling $6 billion, $5 billion, and $3.7 billion, respectively.




                                                                 17
                                                                              TTB 2013 Annual Report




 ALCOHOL BEVERAGE EXPORTS

                                            Bulk Distilled Spirits Exports (proof                                                                           Beer (barrels)
                                                           gallons)                                                                   6,000
                                                                                                                                                                                                  5,260
                                800,000                                                                                                                                                 4,894
                                                                              681,571                                                 5,000
 Proof-gallons (in thousands)




                                700,000                                                                                                                                   4,224




                                                                                                          Barrels (in thousands)
                                                                                                                                                 4,045        4,023
                                600,000                                                                                               4,000
                                                                    471,659              456,993
                                500,000
                                                                                                                                      3,000
                                400,000
                                300,000                   249,132                                                                     2,000
                                200,000
                                               111,444                                                                                1,000
                                100,000
                                        -                                                                                                -
                                               FY 2009   FY 2010    FY 2011   FY 2012    FY 2013                                                FY 2009      FY 2010    FY 2011        FY 2012   FY 2013



                                        Cased Beverage Distilled Spirits (wine                                                                           Wine (wine gallons)
                                                     gallons)                                                                         110,000                             108,688

                                40,000                                                    37,801                                      108,000
                                                                                                        Wine-gallons (in thousands)                                                              106,385
 Wine Gallons (In Thousands)




                                35,000                                                                                                106,000
                                                                               29,545                                                                         104,347
                                                                     27,937
                                30,000         24,564     25,633                                                                      104,000
                                25,000
                                                                                                                                      102,000     101,292
                                20,000                                                                                                                                                  99,778
                                                                                                                                      100,000
                                15,000
                                                                                                                                       98,000
                                10,000
                                 5,000                                                                                                 96,000
                                    -                                                                                                  94,000
                                              FY 2009    FY 2010    FY 2011   FY 2012    FY 2013                                                 FY 2009      FY 2010     FY 2011      FY 2012   FY 2013




Total Exports by Fiscal Year (in thousands)                                             FY 2009                                       FY 2010               FY 2011                 FY 2012      FY 2013
Beverage Alcohol
Beer (barrels)                                                                                4,045                                         4,023                 4,224                  4,894      5,260
Wine (wine gallons)                                                                         101,292                                       104,347               108,688                 99,778    106,385
Bulk Distilled Spirits Exports (proof gallons)                                              111,444                                       249,132               471,659                681,571    456,993
Cased Beverage Distilled Spirits (wine gallons)                                              24,564                                        25,633                27,937                 29,545     37,801

Percent Change from Prior Year                                                          FY 2009                                       FY 2010               FY 2011                 FY 2012      FY 2013
Beverage Alcohol
Beer (barrels)                                                                            0.6%                                         -0.5%                 5.0%                   15.9%           7.5%
Wine (wine gallons)                                                                      -3.6%                                         3.0%                  4.2%                   -8.2%           6.6%
Bulk Distilled Spirits Exports (proof gallons)                                           -8.8%                                        123.5%                89.3%                   44.5%         -33.0%
Cased Beverage Distilled Spirits (wine gallons)                                         -10.8%                                          4.4%                 9.0%                    5.8%          27.9%




                                                                                                   18
                                                          TTB 2013 Annual Report

                                                        TTB’s workload in processing export certificates increased by 62
TRADE CERTIFICATE                                       percent between fiscal years 2009 and 2013, primarily reflecting the
PROCESSING                                              growth in U.S. wine and spirits exports. Exports of these alcohol
                                                        beverage commodities increased approximately 50 percent between
                                                        2009 and 2012, from $2.1 billion to $3.2 billion, based on the most
                                                        recent trade statistics.

                                                        China
                                                        The People’s Republic of China is an important emerging market for
                                                        U.S. alcohol beverage exporters and represents the single largest
                                                        destination country for export certificates processed by TTB. In FY
                                                        2013, TTB issued more than 4,800 certificates for China-bound exports.
                                                        To streamline the operation and reduce paperwork for both sides of
                                                        the U.S.-China wine trade, TTB proposed to China’s Administration of
                                                        Quality Supervision Inspection and Quarantine and the General
                                                        Administration of Customs to use a one-page consolidated wine export
                                                        certificate. In an 18-month period, TTB conducted multiple rounds of
                                                        negotiations with AQSIQ to resolve several issues, including
                                                        requirements for bottling dates, food additives, transportation
                                                        information, and a description of the wine. In June 2013, TTB and
                                                        Chinese officials reached an agreement on the content of the
                                                        consolidated certificate. A start date for accepting the consolidated
                                                        certificate at Chinese ports is to be determined.
                                                        Going forward, TTB will continue to seek agreements with additional
                                                        U.S. trade partners to reduce or eliminate certification requirements
                                                        where possible.

In FY 2013, TTB issued more than 14,000 export          Preventing and Addressing Barriers to Trade
certificates for wine and distilled spirits products.
Without these certificates, U.S. producers and          The TTB Trade Facilitation Program also includes identifying and
exporters of alcohol beverages cannot register or
                                                        addressing barriers to trade in the international marketplace. TTB is
sell their products in many key markets abroad,
such as China, the EU, and Japan. Timely issuance       the principal advisor and technical expert for the Office of the United
is critical to thriving economic activity.              States Trade Representative (USTR) and other federal agencies in the
In five years, the number of export certificates        administration of U.S. alcohol laws, regulations, and policies, and
processed by TTB has increased by 62 percent. In
                                                        coordinates with these agencies as appropriate in responding to
order to facilitate the issuance of certificates, TTB
now provides an electronic submission option for        alcohol beverage and tobacco trade issues. TTB provides expert
certificate requests through Permits Online. TTB        reviews of foreign regulatory proposals impacting the alcohol and
also continues to work with U.S. trading partners to
eliminate unnecessary or burdensome certification
                                                        tobacco trade to identify and assess the impact of potential trade
requirements. U.S. exporters of wine to the EU          barriers for U.S. alcohol and tobacco exporters. The USTR estimates
may use the new, self-certifying export certificate—    that between 10 – 20 percent of new barriers to trade relate to alcohol
accepted for use on April 1, 2007—as it does not
require TTB's approval. The self-certifying export      beverages, and TTB plays a crucial role in the early identification and
certificate is a simplified version of previous         resolution of these issues.
certificates (VI1s) required by the EU.


                                                                      19
                                          TTB 2013 Annual Report

World Trade Organization Committee Participation
Members of the World Trade Organization (WTO) are obligated to submit proposed, new, and amended
technical regulations to the WTO for review and comment by other WTO members. The notification process
prevents new non-tariff trade barriers. TTB participates in the interagency Technical Barriers to Trade (TBT)
and Sanitary and Phytosanitary (SPS) Measures Working Group and provides its expertise on alcohol beverage
regulations submitted to the WTO TBT Committee. In FY 2013, TTB addressed issues related to alcohol
beverage regulations or standards proposed by the European Union, Israel, Russia, and Vietnam.

During FY 2013, TTB reviewed a total of 34 new regulatory measures submitted to the WTO SPS and TBT
Committees related to alcohol beverages and, in conjunction with interagency partners, provided comments
to the notifying country on 14 measures that presented potential technical trade barriers for U.S. producers.
The measures TTB provided comments on included Colombian requirements on analytical parameters,
oenological practices, and testing; Kenyan health warning statements; Mexican health warning statements;
Nicaraguan technical regulations on rum; Peruvian requirements for adulterated beverages; and Vietnamese
labeling requirements.

Codex Alimentarius Participation
TTB participates in Codex Alimentarius committee meetings to prevent this standards-setting organization
from adopting new standards that would impede the U.S. export trade in alcohol beverages. The Codex
Committee on Food Additives (CCFA) sets the maximum use levels of food additives through the General
Standard on Food Additives (GSFA). Many developing countries look to the GSFA to set national legislation and
do not allow additives that are not listed in the GSFA. This reliance on the GSFA has resulted in trade barriers
for U.S. alcohol beverages entering certain markets, especially Japan and other Asian countries, because not all
additives are currently on the GSFA list. In FY 2013, TTB served as the lead agency for the U.S. in a CCFA
working group on wine additives. The working group is currently reviewing acidity regulators, emulsifiers,
stabilizers, and thickeners for use in grape wine products, and CCFA will present its findings and
recommendations in Hong Kong in March 2014. TTB will continue to work with CCFA to include other classes
of food additives in the wine category of the GSFA as part of a multi-year project that will result in greatly
reduced technical trade barriers for the U.S. wine industry.

Additionally, TTB participates in the Codex Committee on Food Labeling (CCFL). In FY 2013, the CCFL began
working on issues related to date marking, which are of great concern to the U.S. alcohol industry based on the
general position that wine and distilled spirits should not require date markings because these products
usually do not spoil over time. TTB discussed the U.S. industry’s concerns and received support from some
countries to possibly exclude wine and distilled spirits from date marking requirements. Discussions on these
issues will continue at the next meeting of the CCFL in Canada in November 2014. TTB will continue to seek an
exemption from date marking labeling requirements for wines and distilled spirits.




                                                      20
                                          TTB 2013 Annual Report

Supporting International Trade Agreements for Alcohol Beverages
TTB also works to address barriers in the international marketplace by participating with other federal agencies
in the negotiation of international trade agreements related to alcohol and tobacco products on behalf of the
U.S. government.

Trans-Pacific Partnership Agreement
In FY 2013, TTB participated with the USTR in the negotiation of the Trans-Pacific Partnership Agreement (TPP).
The TPP—a free-trade agreement being negotiated between Australia, Brunei, Canada, Chile, Japan, Malaysia,
Mexico, New Zealand, Peru, Singapore, the United States, and Vietnam—includes a Wine and Spirits Annex in
the chapter on technical barriers to trade. The Annex aims to reduce barriers to trade in the regulation of wine
and spirits by laying out acceptable procedures in the areas of labeling, identity standards, conformity
assessments, compliance periods, and acceptance of oenological practices. The President of the United States
and other TPP leaders have called on negotiators to complete the agreement by the end of calendar year
2013.

European Union Agreements
The European Union (EU) is the top export market for U.S. wine, and it is the largest source of imported wine
in the United States. As a result, maintaining a free flow of trade between the two economies is vital to U.S.
economic growth.

In FY 2013, TTB participated in two bilateral meetings with representatives of the European Commission (EC)
relating to the U.S.-EU Agreement on Trade in Wine. The meetings covered various trade issues, including the
EU’s:
     • New standards for organic wine, which conflict with U.S. standards and resulted in U.S. exporters
         losing the ability to make certain organic claims on wine exported to the EU;
     • Acceptance of electronic versions of the certificates that it requires for U.S. wine shipments to the EU;
     • Restrictions on the use of certain “traditional terms” like “chateau,” “clos,” “ruby,” and “tawny” on
         labels of U.S. wine exported to the EU; and
     • Recent requirements that wine labels include allergen statements.

TTB also participated in two additional bilateral meetings relating to the U.S. - EU Organic Equivalency
Agreement, during which the parties discussed issues concerning organic wine production and labeling.

Also in FY 2013, the EU and the U.S. announced the start of negotiations on the Transatlantic Trade and
Investment Partnership (TTIP), which is a comprehensive free trade agreement between the two economies.
TTB worked with the USTR to address alcohol beverage issues that may arise in negotiations on intellectual
property, agricultural market access, and technical barriers to trade. TTB will continue to work with USTR on
TTIP in FY 2014 to ensure protection of U.S. stakeholders’ interests.

Asia-Pacific Economic Cooperation Wine Regulatory Forum
In FY 2013, TTB continued its work with interagency partners and U.S. industry to promote U.S. export trade in
wine through the Asia-Pacific Economic Cooperation’s (APEC) Wine Regulatory Forum. Through this project,
TTB works with the USTR, the USDA Foreign Agricultural Service, the U.S. Department of Commerce, and the

                                                       21
                                              TTB 2013 Annual Report

U.S. Department of State to establish open dialogue and exchange of information with the APEC economies in
support of expanding markets for U.S. exports. This forum is particularly important as emerging markets are
creating increasing numbers of technical barriers to trade in alcohol beverages.

APEC is the premier forum for facilitating economic growth, cooperation, trade, and investment in the Asia-
Pacific region. 11 The 21 APEC members are: Australia, Brunei Darussalam, Canada, Chile, the People’s Republic
of China, Hong Kong, Indonesia, Japan, the Republic of Korea, Malaysia, Mexico, New Zealand, Papua New
Guinea, Peru, the Republic of the Philippines, Russia, Singapore, Chinese Taipei, the United States, Thailand,
and Vietnam. Many of the APEC member economies are emerging export markets for the U.S. wine industry
and this forum supports efforts to reduce the technical trade barriers to alcohol beverage trade created by
these emerging markets.

In FY 2013, APEC announced its approval of a multi-year project proposal to address certain wine issues. The
proposal, submitted to APEC by the United States and 11 co-sponsoring economies, would enhance the wine
trade through the spread of good regulatory practices and improved regulatory capabilities across APEC. The
proposal includes activities related to certification, technical workshops, information exchange, and
collaboration on international standards. Moving forward, TTB will continue to work with APEC members to
help those economies develop responsible regulatory activity that does not impede trade in alcohol beverages.

World Wine Trade Group
The U.S. is a participant in the World Wine Trade Group (WWTG), an informal grouping of government and
industry representatives from the wine-producing countries of Argentina, Australia, Canada, Chile, Georgia,
New Zealand, the United States, and South Africa. The WWTG, founded in 1998, aims to collaborate on a
variety of international issues and create new opportunities for wine trade. Since its inception, the WWTG has
completed a number of agreements related to oenological practices, labeling practices for wine, and trade
certifications, all of which seek to minimize trade barriers and facilitate international trade.

In FY 2013, TTB accomplished several key objectives related to WWTG initiatives. In June 2013, TTB published
a final rule that amended its regulations to permit the alcohol content statement to appear on other labels
affixed to the container rather than requiring it to appear on the brand label. This rulemaking conforms the
U.S. wine labeling regulations to the WWTG Agreement on Requirements for Wine Labeling, which was signed
in 2007 by the United States and six other participants. The agreement aims to facilitate international wine
trade by committing the parties to permit four pieces of common mandatory information—country of origin,
product name, net contents, and alcohol content—to be presented in any single field of vision on a primary
container of wine.

TTB also advised USTR during the drafting and negotiation of a Protocol to the 2007 labeling agreement, which
addresses other labeling requirements such as alcohol tolerance, vintage, variety, and wine regions, with a



11
  APEC is an inter-governmental grouping that operates on the basis of non-binding commitments and open dialogue.
Unlike the World Trade Organization or other multilateral trade bodies, APEC has no treaty obligations required of its
participants. Decisions are reached by consensus and commitments are undertaken on a voluntary basis.


                                                           22
                                                 TTB 2013 Annual Report

                                                          view to concluding an additional wine labeling agreement
                                                          to further streamline the international wine trade. The
TTB HOSTS THAI DELEGATION TO                              WWTG participants concluded negotiations on the
STRENGTHEN GLOBAL TAX                                     Protocol, with five member countries signing on.
ADMINISTRATION
                                                          TTB will continue to work with the USTR and its WWTG
In July 2013, TTB officials hosted a delegation from      counterparts in FY 2014 to further the group’s key
the Royal Thai Excise Department. The delegation          objectives, including outreach to strategic markets and
met with officials from across the Bureau to learn        the minimization of technical trade barriers.
more about how TTB administers U.S. excise tax
laws and regulations relating to alcohol and              Coordinating with Foreign Counterparts to Extend
tobacco. The International Tax and Investment             Regulatory Controls
Center, a non-profit organization that provides
excise tax policy guidance to developing countries,       The global trade in alcohol beverages is active and
organized the delegation's educational visit to the       increasing and, to be an effective regulator, TTB must
United States.                                            seek innovative and efficient ways to achieve its
                                                          consumer protection and revenue collection mission.
TTB officials shared information about TTB's
approach to tax administration, the rulemaking
                                                          One key strategy to ensure that U.S. businesses remain
process, current trends in excise tax fraud, and          competitive on a global scale is through improved
how the Bureau combats fraud. The delegation              communication and information exchange with our
shared an overview of how they function and               trading partners. TTB’s expansion of international
pointed out some trends and problems they face.           agreements has fostered a global network of regulators
The delegation also visited TTB's laboratory              in the alcohol and tobacco industries that ensure markets
facilities to learn more about analyzing alcohol and      remain open and that illegal activity in the global trade is
tobacco products to determine correct tax                 addressed promptly.
classifications, and discussions were held regarding
possible future scientific collaboration.                 As part of an effort to protect consumers and to facilitate
                                                          the import and export trade in alcohol beverages, TTB
                                         A delegation
                                         from the         signed a memorandum of understanding with the Wine
                                         Royal Thai       Australia Corporation (Wine Australia) in FY 2013. Wine
                                         Excise
                                         Department       Australia is an Australian government statutory authority
                                         met with TTB     that is responsible for export regulation and compliance,
                                         officials in     wine sector information and analysis, and negotiations
                                         Washington,
                                         D.C. in July     with other countries to reduce trade barriers. As
                                         2013 to learn    Australia is the third-largest source of imported wine in
                                         how TTB
                                         administers      the United States after Italy and France, accounting for 14
                                         its alcohol      percent of wine imports in 2010, Wine Australia is a key
                                         and tobacco
                                                          counterpart for TTB. Australia is also a partner of the
                                         excise tax
                                         system.          United States in the WWTG, the APEC Wine Regulatory
                                                          Forum, and in international technical collaboration on
                                                          wine. As partners in those groups, TTB and Wine
                                                          Australia work together to penetrate strategic foreign
                                                          markets and to minimize technical barriers to
                                                          international wine trade.

                                                           23
                                           TTB 2013 Annual Report


TTB and Wine Australia will build on these efforts in FY 2014, particularly with regard to a five-year project on
good regulatory practices related to wine under the auspices of APEC.

Protecting U.S. Standards of Identity

In FY 2013, TTB published two final rules that recognized the standards of identity for distinctive products of
other countries and, in turn, those countries recognized certain distinctive products of the U.S. in accordance
with trade agreements with those countries. These agreements help to ensure the integrity of U.S. distilled
spirits in foreign markets.

Cachaça
In February 2013, TTB published a final rule to recognize “Cachaça” as a type of rum and as a distinctive
product of Brazil. This followed an agreement between representatives of Brazil and the U.S., signed on April
9, 2012, under which the U.S. would recognize Cachaça as a distinctive product of Brazil, and Brazil would
recognize Bourbon Whiskey and Tennessee Whiskey as distinctive products of the U.S. The Brazilian
government published a decree in its Official Register on March 27, 2013, recognizing Bourbon and Tennessee
Whiskey as distinctive products of the U.S.

Pisco
In May 2013, TTB published a final rule to recognize Pisco as a
type of brandy that must be manufactured in Peru or Chile in
accordance with the laws and regulations of the country of
manufacture. In doing so, TTB clarified the distinctive nature of
this product and reinforced its commitment to the U.S.-Chile
Free Trade and U.S.-Peru Trade Promotion Agreements,
through which Chile and Peru recognized Bourbon Whiskey and
Tennessee Whiskey as distinctive products of the U.S.
                                                                    Pisco, a grape brandy, is the key ingredient in the Pisco
                                                                    sour, the national cocktail of both Peru and Chile.
Product Integrity
Consumer confidence is essential to ensuring that U.S. and world economies perform at their full economic
potential. TTB is the federal agency responsible for carrying out provisions of the FAA Act that ensure that
labeling and advertising of alcohol beverages provide adequate information to the consumer concerning the
identity and quality of the product. This authority also calls for TTB to prevent misleading labeling or
advertising that may result in consumer deception regarding the product.
This consumer protection function falls under TTB’s Advertising, Labeling, and Product Safety Program. Before
an alcohol beverage product can be sold in the United States, TTB reviews the product label to ensure that it
contains all mandatory information and does not mislead the consumer. In addition, labels are reviewed for
compliance with the Alcohol Beverage Labeling Act, the federal law that mandates that a health warning
statement appear on all alcohol beverages offered for sale and distribution in the United States. The approved
label application is called a Certificate of Label Approval (COLA).


                                                        24
                                                      TTB 2013 Annual Report

                                                      TTB confirms compliance with federal product and labeling
                                                      regulations by reviewing production records through its product
IMPROVING PRODUCT
                                                      integrity investigations and by conducting marketplace sampling
INFORMATION FOR CONSUMERS
                                                      to test products for safety as well as container content and label
In FY 2013, TTB published Ruling 2013-2,              compliance. TTB also reviews advertisements for alcohol
Voluntary Nutrient Content Statements in              beverage products from television, radio, the Internet, and other
the Labeling and Advertising of Wines,                sources for compliance with federal regulations.
Distilled Spirits, and Malt Beverages, which
allowed the use of voluntary nutrient                 In the event that a food safety or other product integrity issue
content statements, or “Serving Facts”                occurs, TTB responds by working directly with the responsible
statements, in the labeling and advertising           parties and, as appropriate, shares its findings with other regulatory
of wines, distilled spirits, and malt                 and enforcement agencies and works in partnership to timely
beverages. Industry members may now                   resolve the issue.
voluntarily provide truthful, accurate,
specific, and non-misleading information to           Modernizing the Alcohol Beverage Label Program
consumers about the serving size, the
number of servings per container, the                 TTB continues to modernize its alcohol beverage labeling program
number of calories, and the number of
                                                      through three main initiatives: 1) improving the label application
grams of carbohydrates, protein, and fat
                                                      submission process, 2) providing clear guidance to industry, and 3)
per serving size. Voluntary Serving Facts
                                                      random sampling of alcohol beverage products in the marketplace
statements may also include the alcohol
content of a product as a percentage of               to enhance enforcement efforts and track compliance. These
alcohol by volume as well as by the number            initiatives will facilitate TTB’s planned shift in focus from pre-market
of fluid ounces of alcohol per serving.               approvals of alcohol beverage labels to a more useful marketplace
Industry members do not need to apply to              review of labels.
TTB for a new COLA to add a Serving Facts
statement to an existing label if the
                                                      Label Application Submissions
statement is consistent with one of the
                                                      TTB continues to implement improvements to the label application
examples provided in TTB’s guidance.
                                                      process to help support timely processing and ensure that TTB does
                                                      not interfere with compliant trade. Annual increases in label
                                                      applications and resource challenges have made prompt service
                                                      difficult to maintain. The number of applications for label approval
                                                      that TTB received between fiscal years 2008 and 2012 increased 14
                                                      percent. After a decline in FY 2009, the number of label filings
                                                      trended up again in fiscal years 2010 through 2012, sparked by
                                                      industry growth and product innovation. Processing times have
                                                      been delayed as a result, with the average time for a label approval
                                                      reaching 31 days in FY 2013, up 35 percent compared to the average
An example of an acceptable Serving Facts
statement for a 750 milliliter bottle of wine         of 23 days in FY 2012.
containing 14 percent alcohol by volume. This
example includes the optional percent by volume       Over the same period, industry members increasingly relied on
alcohol content declaration as well as the optional   COLAs Online to electronically file their label applications. Nearly 92
declaration of alcohol in fluid ounces.
                                                      percent of all COLA applications in FY 2013 were submitted to TTB
                                                      via COLAs Online. TTB has continued to introduce system
                                                      enhancements to draw industry members to electronic filing,

                                                                  25
                                           TTB 2013 Annual Report

including updating processing information and adding new system validations to check the completeness of
applications. Technology enhancements alone will not entirely address the strain on TTB resources presented
by the high volume of label applications and scarce resources to process them.

In FY 2013, however, the label application curve shifted downwards, with an 8 percent decrease in label
applications submitted to TTB, dropping from 152,741 in FY 2012 to 140,324 in FY 2013. TTB attributes this
reduction in label applications to its steps to increase the number of changes that manufacturers and
importers may make to their alcohol beverage label without seeking a new label approval. The expanded list
includes 28 permissible revisions, which include repositioning label information. These changes continue to
place a check on the rising number of label applications, and TTB will continue to examine options to reduce
the burden on industry while maintaining its public protection responsibilities.

TTB also issued guidance to the beer industry in TTB Ruling 2013-1 to clarify that malt beverages sold
exclusively in intrastate commerce do not require a COLA unless the state requires brewers to do so. Because
many brewers produce, bottle, and sell their products within the same state, TTB anticipates that this
clarification will reduce the number of label applications submitted by many brewers.

Federal Labeling Regulations

In FY 2013, in line with providing industry with clear guidance, TTB continued its efforts to modernize the
federal alcohol beverage labeling regulations. By modernizing the labeling regulations to remove ambiguity
and to remain current with market conditions, TTB anticipates that industry will gain greater understanding of
federal requirements, resulting in increased label compliance. These efforts should help industry avoid the
administrative burden and cost of multiple application resubmissions, and promote the most efficient use of
TTB’s resources. TTB will continue to develop the notice of proposed rulemaking for revisions to the federal
labeling regulations for beer, wine, and distilled spirits products to reflect the current alcohol beverage market
and industry practices through FY 2014, with an anticipated publication date in early FY 2015.

Market Review of Label and Product Compliance

After alcohol beverages enter the marketplace, TTB monitors labeling compliance through the Alcohol
Beverage Sampling Program (ABSP). The ABSP is a random survey of products in the marketplace to help TTB
evaluate marketplace compliance and determine where compliance issues exist. The Bureau’s continued
monitoring of product and label compliance through the ABSP assists TTB in evaluating the integrity of U.S.
alcohol beverage products, both in the view of U.S. consumers and TTB’s international counterparts, which is
critical to gaining foreign market access for U.S. exporters.

For the random sample of products included in ABSP, TTB determines if they are fully and accurately labeled
(i.e., whether the label accurately reflects the content of the bottle) by reviewing the labels and contents of
those products. In reviewing the label, TTB checks for all required information and determines if there is a
valid COLA. TTB also sends the products to its laboratories to undergo chemical analyses to evaluate whether
the label information accurately reflects the content of the container.

TTB uses the ABSP results to address compliance problems for products that are currently in the
marketplace. In most cases, TTB notifies the industry member about a violation and works with them to bring
the product into compliance. For more significant violations, however, the Bureau conducts field
                                                      26
                                           TTB 2013 Annual Report

investigations and follows up with industry members. Significant violations that required TTB field
intervention in FY 2013 included wines that were misclassified for tax purposes and a case involving possible
COLA fraud. The complete results of the FY 2013 ABSP will be available on TTB.gov in early FY 2014.

ABSP results over the past few years indicate that accurate proofing and gauging for distilled spirits is an issue
for a significant number of industry members. Because the excise tax for distilled spirits is based on alcohol
content, proper gauging of distilled spirits is integral to proper tax determination. To address this issue, TTB is
developing online educational tools in FY 2014 to assist distillers with their gauging skills.

Modernizing the Formula Application Process

TTB reviews domestic and imported alcohol beverage formulations to support accurate labeling of alcohol
beverages, as well as appropriate tax classification. Formulas include statements of process, laboratory
analyses, and pre-import letters, all of which function to ensure U.S. consumers have full and accurate
information about the products they purchase.

Formula applications have increased rapidly in recent years for all alcohol beverage commodities, with the
volume of submissions doubling in the past five years. Formula applications increased another 7 percent
between FY 2012 to FY 2013. This increase is due to the overall growth in the alcohol beverage market as well
as trends toward more flavored distilled spirits, wines, and malt beverages. In addition, craft brewers and craft
distillers are increasingly creating new and innovative products or using non-traditional methods to distinguish
their products. Industry members are required to submit the formulas for these products to TTB for review to
verify that the products are appropriately labeled and do not pose a risk to consumer safety.

TTB is addressing this dramatic increase in the number of formula applications by modernizing the formulation
program through improved regulatory guidance and an enhanced online submission process. In FY 2013, TTB
issued guidance for the beer industry to clarify that certain ingredients and processes are exempt from formula
requirements under the beer regulations. Given that the number of brewers in the U.S. increased by more
than 35 percent in FY 2013, TTB anticipates that this guidance will help reduce the burden for brewers
associated with the formula application and approval process and stem the increase of formula applications
submitted to TTB. In FY 2014, TTB will continue to evaluate whether additional ingredients or processes for
beer may be exempted from the formula approval requirement, and TTB intends to pursue the modernization
of the formula requirements for beer, wine, and distilled spirits through regulatory action within the next
several years.

TTB also made progress in modernizing the formula application process in FY 2013 through implementing
multiple improvements to Formulas Online, the online system that allows industry members to submit and
track formula applications electronically. Formulas Online also allows industry members to link their approved
alcohol beverage formulas to COLAs Online when they file for COLAs. In FY 2013, TTB received 73 percent of
its formula applications electronically, an increase of 24 percent in just one year. Continued system
enhancements and outreach are driving higher adoption rates. The FY 2013 improvements to Formulas Online
included several key features to improve the user experiences, included improvements to user registration,
enhanced search functionality, and improved user notifications.



                                                        27
                                           TTB 2013 Annual Report

TTB is engaging industry to ensure its next phase of system enhancements is responsive to user feedback. In
FY 2013, TTB hosted three Formulas Online Improvement Forums with industry representatives to discuss
recent enhancements to Formulas Online and to share and gather ideas for future improvements. These
forums provided a valuable opportunity for dialogue between industry and TTB and assist TTB in prioritizing
future enhancements. In FY 2014, TTB will continue to conduct forums and enhance Formulas Online to
provide an even more efficient and user-friendly electronic filing venue for both industry and TTB.

Protecting Consumers from Adulterated and Contaminated Products

In administering the Advertising, Labeling, and Product Safety Program, TTB also conducts routine analyses of
sampled alcohol beverages for ingredients or materials whose presence is prohibited or limited. Examples
include thujone and toxic heavy metals. Additional examples include wines that are analyzed to ensure safe
levels of pesticides and ochratoxin-A, and malt beverages that are tested for mycotoxins, among other things.
TTB also works with its counterpart U.S. agencies to evaluate and address incidents involving potential health
hazards related to alcohol beverage products, including the Food and Drug Administration (FDA). TTB
considers an adulterated alcohol beverage product, as defined by the Federal Food, Drug, and Cosmetic Act
and determined by the FDA, to be mislabeled under Federal alcohol beverage labeling laws.

In FY 2013, TTB became aware of high levels of phthalates in a Chinese baijiu product, which is a distilled spirit
made from sorghum and other grains. Phthalates are synthetic chemicals with a broad spectrum of uses,
including as an additive to plastic to increase flexibility and durability. Certain phthalates have been linked to
adverse developmental and reproductive effects, which has raised concerns among the public and regulators
due to their widespread use. To assess whether the phthalate issue was isolated to the identified product, TTB
obtained samples of baijiu products for analysis by TTB’s Beverage Alcohol Laboratory. TTB found phthalates
in the identified product at higher levels than the other baijiu products. TTB is currently working with the
importer to determine the source of the phthalates and coordinating with FDA and its phthalates task force to
conduct a health hazard evaluation for phthalates in distilled spirits products.
Also in FY 2013, TTB worked with industry members on the voluntary recall of several alcohol beverage
products, including a gin product that was found to contain glass particles and a distilled spirits specialty
product made from vodka and sparkling wine that did not have the required sulfite allergen disclosure on its
label. In each instance, TTB worked with other agencies and the affected industry members to monitor and
confirm resolution of the voluntary recalls, and no adverse health impacts to the public were reported.

Voluntary Compliance

In its Collect the Revenue and Protect the Public programs, TTB promotes voluntary compliance by providing
clearer regulatory standards and guidance, encouraging use of its e-Gov filing systems, and supporting industry
members through education and outreach efforts. TTB employees provide industry members and states with
direct assistance on specific needs or guidance on broader issues affecting the regulated commodities.




                                                       28
                                             TTB 2013 Annual Report

Supporting Compliance through Industry Outreach
The industries regulated by TTB are growing rapidly, and obtaining
voluntary compliance requires that TTB educate both new and
existing industry members on federal requirements in the areas of
manufacturing, marketing, importing, and exporting alcohol and
tobacco products, as well as on paying tax on alcohol, tobacco,
firearms, and ammunition products. TTB has reshaped its approach
to outreach in recent years to operate a voluntary compliance
program with limited resources by taking advantage of technological
advances. Although TTB continues to attend select industry-
sponsored seminars and workshops to provide information and
answer questions on federal laws and regulations, TTB increasingly
relies on online training to reach industry members. These online
training materials are published for industry to reference in the
future.

In FY 2013, TTB held several Webinars for industry members that
                                                                         TTB employees participated in the Unified Wine
were intended to promote awareness of recent updates to the              and Grape Symposium in Sacramento, California
alcohol beverage label approval process and to support increased         in January 2013. The symposium is one of the
adoption rates for TTB’s e-Gov filing solutions. To help inform          largest of its kind, with more than 13,000
                                                                         attendees. TTB operated an information booth
industry members and state regulators about the expansion of the
                                                                         and presented on topics ranging from how to
allowable revisions list, TTB provided detailed formal guidance          enter the wine industry, to compliance, labeling,
regarding the allowable revisions on TTB.gov and conducted five          and international issues.
webinars in FY 2013. These webinars promoted the expansion of the
allowable revisions list and explained how reducing the number of COLA applications that TTB receives relates
to COLA application processing times. TTB also delivered three Webinars in 2013 to promote use of Formulas
Online for the submission of nonbeverage formula applications. TTB targeted these Webinars to the
approximately 35 percent of nonbeverage alcohol producers who had never used Formulas Online, with
content directed specifically to flavor manufacturers, specially denatured alcohol users, and dietary
supplement manufacturers.

In FY 2013, TTB also continued to raise awareness of the Pay.gov system for filing tax returns and operational
reports, an important strategy to improve compliance rates as the system facilitates the submission of
complete and accurate filings. A multi-faceted effort was implemented across TTB to promote Pay.gov use,
which included outreach at industry events and seminars, system enhancements, and targeted education
efforts for industry members not yet registered in the system. In FY 2013, TTB also increased the number of
TTB tax-related forms available via Pay.gov and streamlined the automatic registration of new industry
members. These outreach efforts and system enhancements contributed to increased rates of industry
members using the system to electronically submit operational reports and tax returns in FY 2013. At year-
end, 23 percent of excise tax returns and 35 percent of operational reports were submitted through Pay.gov,
an increase of 1 – 2 percent in the electronic filing of returns and reports. To increase use of Pay.gov in the
future, in FY 2013, TTB began discussions with the Bureau of the Fiscal Service, which operates Pay.gov, about


                                                           29
                                          TTB 2013 Annual Report

enabling the system to accept credit card payments from TTB taxpayers. This enhancement would also
address a timing issue that currently requires those who file electronically to remit tax payments early.

Improving Access to Online Guidance
TTB has long relied on TTB.gov as a primary means of sharing information
and announcements with its industry members. In FY 2013, the Bureau
developed and launched a TTB.gov mobile application—TTB Mobile—to
improve customer access to critical information from hand-held mobile
devices. The expectations of the business community TTB serves are
changing in response to the revolution in mobile technology. Today,
approximately 12 percent of TTB.gov visitors are using a mobile device to
access the TTB Web site, an increase of 9 percent over the prior year and
growing.

TTB designed its mobile site to make navigation on smartphones and other
hand-held mobile devices faster and more user-friendly, as informed by the
demographics, habits, and trends of those who visit TTB.gov most often. For
industry members, the mobile site provides access to TTB.gov's most
common tasks, such as general inquiries on applying for a permit, getting
label approval, import and export requirements, and paying taxes. It also
provides instant access to popular topics and public guidance. For TTB’s
                                                                                  The TTB Mobile application improves
increasingly mobile workforce, TTB Mobile provides convenient access to all
                                                                                  access to key information on TTB.gov.
of the Bureau’s regulatory information, guidance, and forms.

TTB Mobile is supported by a wide variety of platforms and devices, including iPhone, Android, Blackberry, and
Windows Mobile. This initiative also supports Treasury’s broader aims in its Digital Government Strategy to
optimize public-facing services.

Issuing Guidance on Social Media Advertising

TTB’s authorities to prevent consumer deception extend to the advertising of alcohol beverages. The federal
regulations for each commodity outline the mandatory information that must appear in advertising and list the
statements and practices that are prohibited from appearing in advertising materials.

In enforcing compliance, TTB routinely reviews advertisements that appear in various media, including print,
television, outdoor, and Web site advertisements. Advances in technology have led to the development of
new forms of advertising (i.e., social media) that are interactive, allowing consumers and industry members to
generate content and create links between various social media outlets. These outlets include social network
services such as Facebook, video sharing sites such as YouTube, blogs, online forums or comment sections, and
applications for mobile devices. With the emergence and growth of these types of media outlets, TTB is
expanding the breadth of its advertising reviews.

TTB has found over the past few years that more industry members are using social media to advertise their
products, and often these advertisements are missing mandatory information or contain information that is
prohibited. In response, TTB issued Industry Circular 2013–1, Use of Social Media in the Advertising of Alcohol
                                                       30
                                          TTB 2013 Annual Report

Beverages, to assist industry members in ensuring that their advertisements appearing in social media outlets
comply with federal advertising regulations. The circular advises industry members that all advertisements of
wine, distilled spirits, and malt beverages in any media, including social media, must comply with federal
requirements regarding both mandatory statements and prohibited practices or statements.

Streamlining Regulations to Reduce the Compliance Burden
TTB seeks to promote voluntary compliance by ensuring that the regulated industry has all the tools needed to
incorporate compliance as part of their business models, including clear and unambiguous regulations and
guidance. TTB has an ongoing regulations modernization effort underway to ensure that its regulations and
enforcement strategy keep up with changes in the industries that it regulates. In FY 2013, TTB made significant
progress in updating its regulations to reflect current industry practices and achieve efficiencies for the
industry and TTB.

TTB is currently engaged in rulemaking to consolidate the required distilled spirits plant (DSP) monthly
operations reports. In its original proposal, published in FY 2012, TTB proposed replacing the current four
report forms that DSPs use to report their operations with two new forms that they would submit monthly, or
quarterly if they qualify to file taxes on a quarterly basis. Based on public comments, TTB currently is
preparing to issue a supplemental proposed rulemaking that will propose to replace the current four
operations report forms with just one form, which would be filed on a monthly or quarterly basis as described
above. TTB undertook this project to address numerous concerns and desires for improved reporting by the
affected distilled spirits industry members and to achieve efficiencies by reducing the number of monthly plant
operations reports that DSPs must complete and file, and that TTB must process. TTB intends to continue this
rulemaking project in FY 2014.

In FY 2013, TTB also continued a rulemaking project to revise the
specially denatured alcohol (SDA) and completely denatured
alcohol (CDA) formula regulations. SDA and CDA are widely used
in the U.S. fuel, medical, and manufacturing sectors. The
industrial alcohol industry is far larger than the beverage alcohol
industry in both size and scope, and it continues to grow in the
U.S. Based upon a determination that certain products present
minimal revenue risk, TTB issued a proposed rulemaking in June
2013 that proposes to eliminate outdated SDA formulas from the
regulations, reclassify some SDA formulas as CDA, and issue new
general-use formulas for products made with SDA to reduce the
number of products that require pre-approval by TTB. TTB
estimates that this effort will decrease the number of formula
submissions required from industry by an estimated 80 percent.
These changes would remove unnecessary regulatory burdens and          Specially     denatured      and    completely
update the regulations to align them with current industry             denatured alcohol are distilled spirits to
practice. TTB expects to publish a final rule in FY 2014.              which materials have been added to render
                                                                       the spirits unfit for beverage use.




                                                      31
                                                    TTB 2013 Annual Report

                                                       Finally, in FY 2013, TTB pursued regulatory changes to
TTB LABORATORIES RENEW                                 encourage more small brewers to file their tax returns, tax
INTERNATIONAL ACCREDITATION                            payments, and operations reports on a quarterly basis, thereby
                                                       reducing the filings required of industry and received by TTB
                                                       annually. As the bond amount is considered to be the limiting
                                                       factor in increasing quarterly filings, TTB published a temporary
                                                       rule in December 2012 that reduced to $1,000 the penal sum for
                                                       a brewer’s bond for certain small brewers. With the temporary
                                                       rule, TTB concurrently published a notice of proposed
                                                       rulemaking (NPRM) that proposed to permanently reduce the
                                                       amount of the bond required for small brewers to a flat rate of
                                                       $1,000 and to require those brewers to quarterly file their tax
                                                       returns, tax payments, and reports of operations. This effort is
                                                       expected to facilitate quarterly filing by approximately 91
                                                       percent of all brewers and, according to a comment on the
In FY 2013, the National Laboratory Center in          proposed rulemaking from the Brewers Association, to save
Beltsville, Maryland and the Compliance
Laboratory in Walnut Creek, California,                small and independent American brewers $2 million annually.
renewed their International Organization for           TTB plans to publish a final rule in FY 2014.
Standardization (ISO) 17025 accreditation from
the American Association for Laboratory                Moving forward, TTB will continue to modernize its regulations
Accreditation.                                         to make positive changes to the regulatory framework, which
Through accreditation, TTB’s laboratories              TTB believes will improve voluntary compliance by industry and
achieve third-party recognition of their quality       significantly enhance TTB’s accomplishment of its mission.
results. Accreditation reduces inefficiencies and
puts mechanisms in place for continuous
improvement.

The ISO is a non-governmental organization
that     promotes      the    development      of
standardization to facilitate the international
exchange of goods and services.              ISO
accreditation promotes recognition and respect
for TTB laboratories’ technical competence from
industry and other agencies, both nationally
and internationally.

The ISO 17025 standard specifically applies to
testing and calibration laboratories, and
includes   management      and       technical
requirements.

To maintain accreditation, TTB’s laboratories
are audited every two years. Both laboratory
locations have maintained accreditation since
2007.




                                                               32
                                                                                                                TTB 2013 Annual Report

Performance Summary
Collect the Revenue
TTB met all of its performance measures under the Collect the Revenue activity. A detailed summary of TTB
performance is discussed in Part II of this report, Program Performance Results.
Investments in the Collect the Revenue mission resulted in the following accomplishments in FY 2013:
Tax Collection
•                                 TTB collected $22.9 billion in excise taxes and other revenues from approximately 9,300 12 taxpayers in the
                                  alcohol, tobacco, firearms, and ammunition industries. In all, TTB returned $457 for every $1 expended on
                                  tax collection activities. 13 Since the tax rate increase on tobacco products took effect, the return on TTB
                                  tax collection activities has increased by approximately 46 percent.
•                                 TTB continued to expand its e-filing capability to enable all excise taxpayers to file and pay taxes, and file
                                  monthly operational reports, electronically through the Pay.gov system. In FY 2013, TTB streamlined the
                                  Pay.gov registration process for newly permitted industry members, increasing the total number of
                                  registered system users by 15 percent to more than 10,900. As registered Pay.gov users increase, TTB has
                                  targeted its outreach efforts to promote its use by these taxpayers. TTB made modest progress in FY 2013,
                                  increasing e-filed tax returns to 23 percent and e-filed operational reports to 35 percent.


                                                       Tax Collections by Commodity
                                                                                                                       Total TTB tax collections trended down for the third consecutive
                                  16.0
                                  14.0
                                                                                                                       year due to declining tobacco revenue. Tobacco tax collections
     Collections ($ in Billion)




                                  12.0                                                                                 reached an all-time high in FY 2010, the first full year of collections
                                  10.0                                                                                 under the new federal tobacco tax rates, and have steadily
                                      8.0
                                                                                                                       decreased due to price conscious consumers switching from high
                                      6.0
                                      4.0
                                                                                                                       tax products to low tax products, reduced tobacco consumption,
                                      2.0                                                                              and tax evasion challenges. Even with this decline, since 2008,
                                      0.0                                                                              tobacco revenues collected by TTB have increased 109 percent.
                                             FY 2009     FY 2010         FY 2011            FY 2012    FY 2013

                                                          Alcohol    Tobacco     Firearms
                                                                                                                       Alcohol tax revenue remained relatively constant compared to FY
                                                                                                                       2012, while FAET revenues continue to rise, with total collections
                                                                 Taxpayers                                             up 49 percent compared to the prior year.
     10,000                                                                                            9,298
      9,000                                                                                 8,533
      8,000                                 6,777        7,070
                                                                         7,750                                         TTB regulates approximately 66,600 permittees, but only a small
      7,000                                                                                                            percentage file a return and pay taxes in a given fiscal year. The
      6,000
      5,000
                                                                                                                       largest segment of TTB permit holders—alcohol importers and
      4,000                                                                                                            wholesalers—do not pay taxes to TTB. Following several years of
      3,000
                                                                                                                       modest growth, the TTB tax base grew nearly 10 percent for the
      2,000
      1,000                                                                                                            third consecutive fiscal year. Since 2009, the number of TTB-
                                  -                                                                                    regulated taxpayers has increased 37 percent.
                                            FY 2009     FY 2010        FY 2011          FY 2012       FY 2013

                                                                    Taxpayers




12
  Of the 15,475 TTB permittees whose business operations are subject to federal excise taxes, approximately 9,300
(60 percent) had activity that required them to file a tax return and pay excise tax in FY 2013.
13
  TTB calculates its return on investment for its tax collection function by comparing total annual tax revenue to the
annual appropriations obligated for tax collection activities.


                                                                                                                           33
                                           TTB 2013 Annual Report

Tax Classification
•   The tax code does not provide clear standards to differentiate certain tobacco products, creating the
    potential for misclassification and erroneous tax payment on these products. The increased federal tax
    rates on cigarettes and other tobacco products has highlighted the importance of TTB’s work to ensure the
    appropriate tax classification of tobacco products. The TTB Tobacco Laboratory analyzes tobacco samples
    in support of tobacco tax classification, tax fraud investigations, and in the development of protocols for
    counterfeit tobacco product authentication. The laboratory’s work also supports regulatory projects to
    improve tobacco regulation and support effective tax enforcement. In FY 2013, TTB’s laboratory advanced
    tobacco science by contributing to international studies on humectant concentration levels in tobacco
    products by the World Health Organization and its Tobacco Laboratory Network, a global network of the
    tobacco enforcement laboratories of more than 100 countries. Humectants, such as glycerol, propylene
    glycol, and triethylene glycol, are often added to tobacco products to retain moisture and increase shelf
    life. Humectant concentration is one of the objective criteria proposed by TTB to support potential
    rulemaking to better define tax classification standards for roll-your-own (RYO) and pipe
    tobacco. Participating and completing the validation study provides an internationally recognized
    consensus method for analysis of humectants in tobacco products.
•   The tax differential on certain tobacco products contributed to the proliferation of cigarette manufacturing
    machines for consumer use. Legislation enacted in July 2012 (H.R. 4348) addressed the legal status of
    retailers that provide so-called RYO machines to customers. The law clarified that such manufacturers are
    required to apply for a permit from TTB, as well as pay federal excise taxes and comply with other federal
    regulatory requirements. TTB issued public guidance in October 2012 to clarify the applicable statutory
    and regulatory requirements for those operating RYO machines. The guidance also clarified that non-
    profit organizations, social clubs, cooperatives, and other similar organizations that made RYO machines
    available to members were not exempt from these requirements. In early FY 2013, TTB initiated
    enforcement action through letter notices to approximately 1,300 locations suspected of illegally
    operating RYO cigarette machines. In FY 2013, this TTB enforcement initiative resulted in the identification
    of approximately $1 million in tax liabilities and the initiation of several criminal investigations.
•   TTB also analyzes nonbeverage and beverage alcohol samples to assign or verify a tax classification. For
    this purpose, in FY 2013, TTB chemists processed approximately 1,600 specially denatured alcohol
    formulas and samples to support tax-free alcohol claims. TTB analyzed another 1,200 beverage alcohol
    samples associated with pre-import evaluation, the 5010 tax credit, and enforcement activities. Pre-
    import evaluations also serve to protect consumers, as the analytical tests also analyze products for limited
    or prohibited ingredients.

Civil Tax Enforcement
•   During FY 2013, TTB identified high-risk activity and industry members using sophisticated analytical
    techniques and completed approximately 520 audits, examinations, and revenue investigations. These
    enforcement efforts resulted in a total of $38.8 million in identified tax liabilities, with $17.6 million
    collected to date.
•   Due to the known revenue risk in the import and export trade in alcohol and tobacco products, and as the
    federal permitting authority for alcohol and tobacco importers, TTB initiated an importer enforcement

                                                       34
                                          TTB 2013 Annual Report

    initiative driven by newly developed and deployed risk models. Between fiscal years 2012 and 2013, TTB
    conducted investigations of alcohol and tobacco importers that resulted in the identification of
    approximately $1.6 million in evaded federal excise taxes.

•   TTB leverages its enforcement resources through partnerships with other regulatory and enforcement
    agencies. During FY 2013, TTB and CBP’s Office of Regulatory Audit conducted a joint audit of a tobacco
    importer. This pilot case resulted in findings that the importer had failed to pay $6.3 million in federal
    excises due, and TTB is working with CBP on collecting the revenue due on the imported tobacco products.
    This effort also resulted in the development and implementation of new protocols between TTB and CBP
    for tax collections on TTB-regulated commodities. To date, CBP has initiated several tax collection actions
    under the new referral procedures, with $2.4 million at issue in those cases.
•   In FY 2013, TTB continued its multi-year enforcement initiative related to manufacturers and importers of
    processed tobacco, as these are newly permitted entities that trade in a non-taxpaid tobacco product. In
    2009, lawmakers enacted legislation to require that tobacco processors obtain a TTB permit and report on
    the first removal, transfer, or sale of processed tobacco to another entity. The transfer of this non-taxpaid
    tobacco product carries a high risk to federal revenue, as there are no restrictions on the sale of processed
    tobacco and only limited reporting requirements. To identify tax loss and potential criminal activity, TTB
    investigations trace processed tobacco from the point of removal by the permittee through the
    distribution chain, and have found that the product is being used in illicit manufacturing of tobacco
    products. Since beginning this enforcement initiative, TTB’s audits and investigations have identified
    approximately $180 million in potential tax liabilities.

•   TTB’s processed tobacco forward trace investigations also identified a growing underground market for
    whole leaf tobacco used to manufacture “blunt” wrappers to smoke marijuana. The whole leaf tobacco,
    known as Grabba or Fronto Leaf, is sold to the consumer, who then removes the stem and cuts the leaf
    into squares used to roll marijuana cigarettes or “blunts.” The whole leaf tobacco itself is not subject to
    federal regulation; however, the resulting blunt wrappers are regulated by TTB and the act of
    manufacturing the wrapper would require a permit and tax payment.

Criminal Tax Enforcement
•   TTB has criminal enforcement authority over the commodities it taxes and regulates. Tax fraud in these
    industries, whether through unlawful product diversion or other means, poses a high risk to federal
    revenues. Diversion includes tax evasion, theft, distribution of counterfeit products, and distribution in the
    United States of products marked for export or for use outside the U.S. Since October 2010, TTB has
    reimbursed the IRS Criminal Investigation office for special agents to operate a law enforcement program
    to counteract illicit trade in the alcohol and tobacco industries. In just three years of operations, TTB
    agents have opened 64 cases for investigation, 17 of which were opened in FY 2013. The total estimated
    tax liability associated with these cases is nearly $350 million, with an additional $117 million in seizures
    and forfeitures. TTB had a higher than 94 percent acceptance rate for cases presented to an Assistant U.S.
    Attorney in FY 2013, with a 100 percent conviction rate in all completed cases. The total amount of tax
    loss at issue in cases recommended for prosecution in FY 2013 exceeded $57 million.




                                                       35
                              TTB 2013 Annual Report




  States^ with the Largest Percentage Increase in Federal Excise Tax Collections
      State                FY 2009                 FY 2013              % Increase
        AL                      $11,812,582            $60,342,919         411%
        NV                       $3,020,417              $7,831,778        159%
        MI                       $3,472,597              $8,505,428        145%
        NE                       $6,746,448            $13,344,140          98%
       MA                       $55,622,122           $106,700,567          92%
        CT                      $64,468,941           $122,054,807          89%
^Includes only those States where industry members remitted more than $5 million in FET
in FY 2013



                                          36
                                                         TTB 2013 Annual Report



•   TTB will continue its current enforcement activities in FY 2014 and expand its enforcement initiatives to
    include other points in the supply chain that are at risk for diversion activity. According to TTB data, non-
    taxpaid removals of alcohol and tobacco products from bonded premises have an excise tax exposure of
    about $380 million and $1 billion annually, respectively. Alcohol and tobacco products intended for export
    and removed from a TTB-licensed manufacturer to a customs bonded warehouse, foreign trade zone, or
    tobacco export warehouse may be diverted illegally into U.S. commerce without tax payment. In FY 2013,
    TTB piloted its forward trace investigations on high-risk tobacco export warehouses that resulted in
    numerous findings of tax-free cigarettes being diverted back into U.S. commerce. TTB is initiating tax
    assessments that total over $3.2 million based on the diversion activity identified in FY 2013, and will also
    take appropriate permit action against the companies engaged in the illicit activity. In partnership with
    CBP, TTB will continue to expand its proven intelligence and investigative techniques to make significant
    inroads into identifying tax evasion schemes that involve the diversion of non-taxpaid products intended
    for export.

•   The complexity of criminal diversion cases requires leveraging all of TTB’s enforcement resources to
    identify, investigate, and successfully prosecute offenders. In FY 2013, TTB continued its team-based
    enforcement approach for major criminal cases with potential nationwide impact. TTB’s National
    Response Teams completed successful civil examinations and referred several criminal cases, identifying
    over$17.3 million in potential federal excise tax liabilities.




                                        Active TTB Permit Holders                                      The total number of active TTB
                                                                                                       permittees or registrants in the
         FY 2013                                                                                       alcohol, tobacco, and firearms
                                                                                                       industries has increased 34 percent
         FY 2012
                                                                                                       since FY 2009. Since last year, the
         FY 2011                                                                                       number has grown another 8
         FY 2010                                                                                       percent.    Alcohol manufacturers,
                                                                                                       importers, and wholesalers comprise
         FY 2009
                                                                                                       the vast majority of TTB permittees,
                    0          10,000       20,000   30,000     40,000        50,000          60,000   or approximately 97 percent.
                        FY 2009           FY 2010     FY 2011       FY 2012            FY 2013         Tobacco permittees and firearms
         Firearms         855              1,012       1,071         1,126              1,159          registrants also trended up slightly,
         Tobacco         886               835         857           910                936            with a 3 percent increase compared
         Alcohol        47,818            50,823      54,289        59,652             64,547
                                                                                                       to FY 2012.




                                                                           37
                                                TTB 2013 Annual Report

Protect the Public
TTB met all but one of its performance measures under the Protect the Public activity. A detailed summary of
TTB performance is discussed in Part II of this report, Program Performance Results.

Investments in the Protect the Public mission resulted in several key achievements during FY 2013:

Permitting of Alcohol and Tobacco Businesses
• TTB facilitates commerce by permitting businesses engaged in the alcohol and tobacco industries. In FY
   2013, TTB processed more than 7,700 applications for a federal permit, and issued an original permit to
   approximately 5,900 start-up businesses. The number of permits processed is down slightly compared to
   2012, but remains approximately 20 percent above the five-year average. The Permits Online system has
   helped TTB manage the influx of applications resulting from sustained growth in its regulated industries.
   However, improvements to processing times that TTB anticipates from ongoing system enhancements and
   other efficacy measures may not materialize until these efforts are completed in FY 2015. In FY 2013,
   processing times increased by 17 percent from 69 days in FY 2012 to 81 days in FY 2013.
•   As illicit activity in the alcohol and tobacco industries has the potential to be highly lucrative, it is crucial
    that TTB investigate permit applicants to prevent criminal operatives from obtaining a permit to engage in
    the alcohol and tobacco trade. In support of this objective, TTB initiated approximately 275 permit
    investigations to verify that applicants were qualified and not prohibited from engaging in business activity
    in the alcohol and tobacco industries, and that those operating in these industries were properly permitted
    and operating in compliance with federal regulations. TTB also performs post-application investigations to
    verify that those who were issued a permit in the prior year supplied accurate information on their
    application and are conducting compliant operations. In the instances where an industry member
    provided false information or had significant compliance violations, TTB took appropriate corrective action,
    including the surrender, suspension, or revocation of the industry member’s permit.




                   Original Permits Issued by TTB                       In five years, the total number of original
         100%                                                           permits and registrations approved by TTB
          90%                                                           has grown 25 percent. Alcohol wholesaler
          80%                                                           permits spiked in FY 2012 due to a change
          70%                                                           in Washington State law, and have since
          60%
                                                                        decreased. Total permits and registrations
          50%
          40%                                                           issued remains 8 percent above the five-
          30%                                                           year average.        Firearms registrations
          20%                                                           approved by TTB decreased, while the
                  FY 2009   FY 2010   FY 2011      FY 2012    FY 2013
       Firearms     33        41        36           37           24
                                                                        number of tobacco permits issued trended
       Tobacco     197       297       188          153           174
                                                                        up due to an increase in the number of
       Alcohol     4,442     4,529     4,839        6,384      5,660
                                                                        manufacturers of processed tobacco.




                                                             38
                                            TTB 2013 Annual Report

Alcohol Beverage Label Approval
• A Certificate of Label Approval (COLA) is required
    before a manufacturer or importer of alcohol
                                                                 ALCOHOL BEVERAGE LABEL
    beverages can introduce their product into interstate        APPROVAL
    commerce. In FY 2013, TTB processed more than
    140,000 COLA applications, with approximately 85
    percent obtaining TTB approval.
•   After a decade of nearly constant annual growth, TTB
    was effective in implementing policy changes to
    reverse the upward trend in label submissions,
    enabling TTB to better respond to the demand for TTB
    services. By revising the label application form to
    expand the list of items that may be changed on an
    alcohol beverage label without TTB pre-approval, TTB
    reduced the number of new and resubmitted label
    applications by 8 percent in FY 2013. Going forward,
    TTB will continue to look for similar solutions to
    reduce regulatory burden and help industry members
    get their products to the marketplace faster without
    compromising its statutory mandates to ensure
    alcohol beverages are truthfully and accurately
    labeled.
                                                                 Between fiscal years 2009 and 2012, the number of
•   Electronic filing rates for COLA applications continue       alcohol beverage label applications submitted to TTB
    to increase, with 92 percent of applications submitted       increased 14 percent. Over the same time period,
    through COLAs Online, the Bureau’s system for the            electronic filing rates increased from 74 percent to 92
                                                                 percent. Electronic filing has many benefits, particularly
    electronic filing of label applications. TTB was             to industry members, who generally experience faster
    successful in increasing the rate of e-filing by 1 percent   response times and higher approval rates as compared
                                                                 to paper filers. Electronic filing, however, does not
    over the previous fiscal year and in reaching and
                                                                 decrease the time required for TTB to review an
    sustaining its long-term target of a 90 percent              application, and with trend data indicating annual
    electronic filing rate. Incremental improvements in          increases in the volume of applications, TTB
                                                                 implemented program changes to meet the demand for
    the years ahead will be achieved through                     service within available resources. These program
    improvements to online information and system                changes included the expansion of changes that may be
    demonstrations targeted toward the highest volume            made to a label that do not require an industry member
                                                                 to apply for a new COLA. This change reduced both the
    paper filers.                                                filing burden on industry and the processing burden on
                                                                 TTB and, in FY 2013, resulted in an 8 percent reduction
•   Obtaining label approval for certain alcohol products
                                                                 in label applications compared to FY 2012. Through
    also requires TTB approval of the formula for that           targeted outreach efforts, the Bureau will continue to
    product. TTB reviews alcohol beverage formulas to            educate industry on the permissible label changes and
                                                                 continue to encourage use of its electronic filing
    verify that the products are appropriately labeled and
                                                                 systems.
    do not pose a risk to consumer safety. TTB’s review of
    formulas also serves a tax purpose, as the tax rate on
    alcohol beverages may change depending on the
    product formulation. Formula submissions have

                                                         39
                                           TTB 2013 Annual Report

    skyrocketed in recent years, largely due to rapid industry growth, particularly among craft brewers and
    distillers. Since 2009, formula submissions have more than doubled, totaling over 12,500 in FY 2013. The
    combination of increased submissions and reduced resources resulted in processing times for formula
    approvals rising by 176 percent to an average of 47 days. As a formula approval must be obtained before
    TTB can issue a COLA, the cumulative wait time in FY 2013 for formula and label approval averaged more
    than two and a half months. Addressing these challenges is critical to facilitating vibrant, compliant trade.
    TTB continues to evaluate the current formula requirements to determine whether certain requirements
    are no longer necessary or if the submission and review process could be streamlined.
•   Since the release of Formulas Online in January 2011, the rate of electronically filed formula applications
    has continued to increase each year. From an initial e-filing rate of 23 percent, TTB now receives 73
    percent of its formula applications for beverage alcohol products electronically. Additionally,
    approximately 65 percent of nonbeverage alcohol producers submit formula applications electronically to
    TTB. TTB marketed Formulas Online in several significant ways in FY 2013. TTB conducted Formulas
    Online Improvement Forums with representatives and members of the alcohol beverage industry. TTB
    also delivered webinars to promote the use of Formulas Online for non-beverage formula applications.
    These webinars were targeted to increase system use by flavor manufacturers, special denatured alcohol
    producers, and dietary supplement manufacturers.

Marketplace Enforcement of Label Compliance
• In assuring the integrity of alcohol beverage products offered for sale to U.S. consumers, TTB conducts
   marketplace sampling to ensure that product labels contain adequate descriptive information and that
   products do not contain ingredients that will harm consumers. TTB’s Alcohol Beverage Sampling Program
   (ABSP) is a random survey of wine, distilled spirits, and malt beverage products in the marketplace to
   determine where compliance issues exist and proactively respond to potential labeling issues or threats to
   the food supply. In cases when technical analysis of the label and bottle contents identifies a compliance
   issue, TTB notifies the industry member about the violation and works with them to bring the product into
   compliance, with field investigations initiated for significant violations. Significant violations that required
   investigation in FY 2013 included wines that were misclassified for tax purposes and a case involving
   possible COLA fraud. Further, ABSP results in recent years indicate that proofing and gauging of distilled
   spirits is a recurring compliance issue. Because the excise tax for distilled spirits is based on alcohol
   content, proper gauging of distilled spirits is vital in proper tax determination. To address this issue, TTB is
   developing educational tools to assist distillers with their gauging skills. For a full report on the FY 2013
   ABSP findings, please visit TTB.gov.

Product Safety and Testing
• In FY 2013, as part of its program to ensure the safety of alcohol beverages, TTB responded to several
   instances of adulterated or contaminated alcohol beverage products. These instances included
   coordinating a response to a Chinese spirits product with high levels of phthalates, a synthetic chemical
   that may be linked to adverse developmental and reproductive effects; overseeing the voluntary recall of a
   distilled spirits specialty product that did not have the required sulfite warning, a required allergen
   disclosure; and overseeing the voluntary recall of a gin product that contained glass particles. TTB works in
   partnership with the U.S. Food and Drug Administration (FDA) to address potential health hazards related
   to alcohol beverage products, as TTB considers an adulterated alcohol beverage product, as defined by the

                                                        40
                                                                  TTB 2013 Annual Report

    Federal Food, Drug, and Cosmetic Act and determined by the FDA, to be mislabeled under federal alcohol
    beverage labeling laws.
•   TTB laboratories continuously develop new capabilities to support TTB’s consumer protection
    mission. TTB currently allows voluntary allergen labeling for alcohol beverages; however, current testing
    methods for detecting allergens in alcohol beverages is often inadequate. TTB is developing a secondary
    method that may be used in conjunction with the current testing technique to detect and quantify egg and
    milk proteins in wine. TTB worked closely with the Wine Institute’s Technical Committee and FDA’s Center
    for Food Safety and Applied Nutrition to obtain test samples and identify chemical markers to support this
    effort.




             All Alcohol Beverage Formula Applications                                           In five years, the total number of alcohol
                     Received by Filing Method                                                   beverage formulas applications has grown
                                       E-Filed      Paper Filed                                  102 percent. Product innovation and the
                                                                                 12,552
                                                                                                 growth in the number of craft brewers and
                                                              11,763
                                                                                  27%            distillers has contributed to the overall
                                             9,136                                               increase in formula submissions.         The
                                                                   51%
                                                                                                 majority of formula submissions are for
           6,210             7,292                                                               distilled spirits products (e.g., flavored
                                                 77%                                             vodkas, liqueurs) and non-traditional malt
                                                                                  73%
            100%              100%                                 49%
                                                                                                 beverages (e.g., flavored malt beverages,
                                                                                                 beers made with fruit, spices, or other
                                                 23%
                                                                                                 flavorings).     There are also formula
          FY 2009            FY 2010         FY 2011          FY 2012            FY 2013
                                                                                                 requirements for certain types of wines.
     The total number of beverage formula applications includes distilled spirits, malt
     beverage, wine, and pre-import and laboratory analyses.                                     Following a year of nearly 30 percent
                                                                                                 growth, formula applications increased
                Alcohol Beverage Formula Applications                                            another 7 percent in FY 2013. Efficiencies
                           by Commodity                                                          gained from the Formulas Online electronic
                                                                                                 filing system, which TTB launched in 2011, do
                                                                                                 not offset the significant increase in the
                                                                                                 volume of submissions. TTB continues to
                                                                                                 evaluate broader changes to its formulation
                                                                                                 requirements to reflect modern industry
                                                                                                 practices and consumer interests, and which
                                                                                                 have the potential to reduce the volume of
                               FY09          FY10          FY11          FY12             FY13
         Distilled Spirits     1,529        1,632          2,189         3,111          5,502
                                                                                                 submissions that industry must submit and
         Malted Beverages      1,090        1,543          2,225         2,863          4,230    TTB must pre-approve.
         Wine                  1,603        1,862          1,887         2,407          2,874




                                                                                   41
                                           TTB 2013 Annual Report

Trade Practice Enforcement
• As part of its Trade Facilitation Program, TTB investigates acts that violate federal law relating to alcohol
   beverage trade practices. Trade practice violations undermine fair competition within the trade and, thus,
   artificially influence consumer access to products based upon anti-competitive practices by influential
   producers. One such prohibited marketing practice, called “tied-house,” makes it unlawful for an industry
   member to induce any retailer to purchase its alcohol beverage products to the exclusion of other
   products or industry members. In FY 2013, TTB initiated a market survey to evaluate the use of shelf plans
   and schematics given by industry members to retailers. TTB followed the market survey with a national
   investigation pertaining to shelf schematics and shelf management programs. During the investigation,
   TTB determined that it is standard practice for industry members who provide shelf plans and shelf
   schematics to retailers to also provide shelf space management services. Providing such services is
   considered “a thing of value” under the FAA Act, and thus an unlawful inducement. TTB is currently
   considering various options to address this nation-wide issue.

International Trade Facilitation
• TTB’s Trade Facilitation program also helps to strengthen the U.S. economy by facilitating import and
    export trade in alcohol beverage products, while also administering the consumer protection standards
    under TTB’s jurisdiction. The Bureau has made significant progress in recent years in establishing and
    effectively employing its international agreements with counterpart agencies in countries that are among
    the United States’ top trading partners. In FY 2013, TTB signed a memorandum of understanding with the
    Wine Australia Corporation (Wine Australia). Wine Australia is responsible for export regulation and
    compliance, wine sector information and analysis, and assisting in negotiations with other countries to
    reduce trade barriers. Wine Australia is a key counterpart for TTB as Australia is the third-largest source of
    imported wine in the United States (after Italy and France), accounting for 14 percent of wine imports in
    2010. These agreements are designed to facilitate trade by increasing mutual understanding of each
    country's alcohol and tobacco production requirements and labeling and licensing standards, and provide
    a process for the exchange of regulatory information that has the potential to enhance protection of the
    revenue or impact product trade, compliance, and safety.
•   As the U.S. tax and regulatory authority for alcohol beverages, TTB must issue certificates for U.S.
    producers in order for the producers to be able to export their products to many foreign countries. In FY
    2013, TTB issued more than 15,000 export certificates for beer, wine, and distilled spirits. Without these
    certificates, which are only issued by TTB, U.S. producers of alcohol beverages cannot sell their products in
    certain major markets abroad. Through its international outreach, TTB has arranged for the elimination or
    reduction of certification requirements for wine exported to various countries, with significant progress
    made in FY 2013 to streamline requirements of Chinese regulatory agencies. Currently, United States
    exporters send four separate certificates with each shipment to meet China’s importation rules, including
    certificates of free sale, origin, health, and sanitation. To streamline the certification and clearance
    process, in FY 2012, TTB proposed to Chinese authorities the use of a consolidated wine export certificate.
    In June 2013, TTB and the Chinese authorities reached agreement on the content of the consolidated
    certificate. TTB will announce the date when the consolidated certificate will be accepted at Chinese
    ports.



                                                       42
                                          TTB 2013 Annual Report

•   TTB continued its coordination with wine regulators from the economies of the Asia-Pacific Economic
    Cooperation (APEC). APEC is the premier forum for facilitating economic growth, cooperation, trade, and
    investment in the Asia-Pacific region, and the 21 member countries are emerging export markets for the
    U.S. wine industry. In FY 2013, APEC announced its approval of a multi-year project proposal for work on
    wine issues. The United States and 11 co-sponsoring economies submitted the proposal to APEC to
    enhance trade through the spread of good regulatory practices and improved regulatory capabilities across
    APEC. The proposal includes activities related to wine certification, technical workshops, information
    exchanges, and collaboration on international standards. The first major activity of the multi-year project
    will be a technical workshop in Washington, D.C., in early FY 2014.
•   TTB works to address barriers of trade in the international marketplace by supporting the United States
    Trade Representative (USTR) in the negotiation of international trade agreements related to alcohol and
    tobacco products. In FY 2013, TTB provided technical expertise to USTR for the negotiation of the Trans-
    Pacific Partnership Agreement (TPP). The TPP—a free-trade agreement being negotiated between
    Australia, Brunei, Canada, Chile, Japan, Malaysia, Mexico, New Zealand, Peru, Singapore, the United States,
    and Vietnam—includes a Wine and Spirits Annex in the chapter on technical barriers to trade. The Annex
    aims to reduce trade barriers in the regulation of wine and spirits by defining acceptable procedures in the
    areas of labeling, identity standards, conformity assessments, compliance periods, and acceptance of
    oenological practices.
•   In FY 2013, TTB participated in two bilateral meetings with representatives of the European Commission
    relating to the United States-European Union (EU) Agreement on Trade in Wine. The EU is the top export
    market for U.S. wine, and is the largest source of imported wine in the United States. Maintaining a free
    flow of trade between the two economies is vital to U.S. economic growth. The meetings covered trade
    issues including organic wine standards, certifications for U.S. wine shipments, the use of certain
    “traditional terms” (e.g., chateau, clos, ruby, and tawny) on labels of U.S. wine exported to the EU, and
    allergen statements. Also in FY 2013, the U.S. and EU announced the start of negotiations on a
    comprehensive free trade agreement between the two economies, known as the Transatlantic Trade and
    Investment Partnership (TTIP). TTB will continue to provide technical assistance to the U.S. TTIP delegation
    regarding alcohol beverage issues, including intellectual property issues, agricultural market access, and
    technical barriers to trade, and will work to ensure the protection of U.S. stakeholders’ interests.




                                                      43
                                             TTB 2013 Annual Report




AMERICAN VITICULTURAL AREAS
An American Viticultural Area (AVA) is a delimited grape-growing
region having a viticulturally significant name, a delineated boundary,
 and distinguishing features as described in part 9 of the TTB regulations.
Distinguishing features may include climate, geology, soils, physical
features, and elevation.

An AVA designation allows vintners and consumers to attribute a
quality, reputation, or other characteristic of a wine made from
grapes grown in an area to its geographic region. The establishment
of an AVA allows vintners to more accurately describe the origin of
 their wines to consumers and helps consumers to identify wines that
they may purchase.

TTB published 11 AVA-related documents in FY 2013. Three of those
documents established new AVAs, the Ancient Lakes of Columbia Valley
AVA, the Indiana Uplands AVA, and the Elkton Oregon AVA. Additionally,
TTB proposed the establishment of the Ballard Canyon AVA, the Moon
Mountain District Sonoma County AVA, the Big Valley-Lake County AVA,
the Kelsey Bench-Lake County AVA, the Malibu Coast AVA, the Upper
                                                                              Aerial photograph depicting the boundary
Hiawassee Highlands AVA, and the Eagle Peak-Mendocino County AVA.             lines of the proposed Ballard Canyon
                                                                              American Viticulture Area. The Ballard
TTB also published a notice of proposed rulemaking that proposed the          Canyon AVA encompasses 7,800 acres in
establishment of 11 new AVAs within the already existing Paso Robles          Santa Barbara County, California.

AVA in San Luis Obispo County, California. The 11 proposed AVAs include
the Adelaida District AVA, the Creston District AVA, the El Pomar District
AVA, the Paso Robles Estrella District AVA, the Paso Robles Geneseo
District AVA, the Paso Robles Highlands District AVA, the Paso Robles
Willow Creek District AVA, the San Juan Creek AVA, the San Miguel District
AVA, the Santa Margarita Ranch AVA, and the Templeton Gap District AVA.

At the end of FY 2013, TTB and its predecessor agency, the Bureau of
Alcohol, Tobacco and Firearms, had established a total of 208 AVAs.




                                                           44
                                           TTB 2013 Annual Report



Financial Summary
Federal Excise Tax Collections
TTB collects excise taxes from the alcohol,
tobacco, firearms, and ammunition industries. In
addition, the Bureau collects Special
Occupational Tax (SOT) from certain tobacco
businesses. During FY 2013, TTB collected $22.9
billion in taxes, interest, and other revenues.

Substantially all of the taxes collected by TTB are
remitted to the Department of the Treasury
General Fund. The firearms and ammunition
excise taxes (FAET) are an exception. This
revenue is remitted to the Fish and Wildlife
Restoration Fund under provisions of the
Pittman-Robertson Act of 1937. The U.S. Fish
and Wildlife Service, which oversees the fund,
apportions the money to State governments for
wildlife restoration and research, and hunter
education programs.



      FY 2013 Excise Tax Collections:
                                                           TTB’s tax collections for domestic alcohol beverages
                                                           have shown a relatively stable rising trend for several
Alcohol……………………………… $ 7,851,953,000
                                                           years. The tax for imported alcohol beverages is
Tobacco……………………………… $ 14,321,017,000
                                                           collected by U.S. Customs and Border Protection.
FAET……………………………………. $    762,836,000
SOT……………………………………… $         280,000                       Tobacco tax revenues in FY 2013 decreased by 4.5
FST……………………………………… $       1,521,000                       percent from the prior year. This trend tracks with
Other………………………………….. $        38,000                       Congressional Budget Office projections for tobacco tax
                                                           revenue following the passage of the CHIPRA
Total……………………………….           $ 22,937,645,000              legislation.

                                                           FAET revenues continue to rise, with total collections up
                                                           48 percent compared to the prior year. Since TTB
                                                           assumed the responsibility for administering the FAET in
                                                           2003, collections have increased 294 percent.




                                                      45
                                               TTB 2013 Annual Report

Refunds and Other Payments
During FY 2013, TTB issued $739 million in tax refunds, cover-over payments, and drawback payments on taxes
paid by manufacturers of nonbeverage products (MNBPs).

Cover-over Payments
Federal excise taxes are collected under the Internal Revenue Code of 1986 on certain articles produced in
Puerto Rico and the U.S. Virgin Islands (USVI) that are brought or imported into the United States. In
accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the U.S. are “covered over,” or paid
into the treasuries of Puerto Rico and USVI, less the collection expenses incurred by TTB. TTB also issues
cover-over payments to Puerto Rico and USVI for “other Caribbean rum,” which is the rum imported into the
United States from other countries or other U.S. possessions. 14

During FY 2013, cover-over payments totaled $358 million, with $349 million paid to Puerto Rico and $9 million
paid to USVI 15 for their proportional share of all Caribbean rum tax collections. Year-to-year, cover-over
payments can vary depending on the rate of payments, which is established by statute.

Drawback Payments
Under current law (26 U.S.C. 5134), MNBPs may be eligible to claim a refund of taxes paid on distilled spirits
used in their products. During FY 2013, drawback payments totaled $345 million.

For distilled spirits on which the tax has been paid or determined, a drawback is allowed on each proof gallon
at the rate of $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund is
due upon the claimant providing evidence that the distilled spirits on which the tax has been paid or
determined is unfit for beverage purposes or was used in the manufacture of medicines, medicinal
preparations, food products, flavors, flavoring extracts, or perfume. The claimant must submit a product
formula to the TTB laboratory for analysis and approval of the nonbeverage claim. To assess drawback claims,
the TTB laboratory analyzed approximately 10,000 formulas and samples in FY 2013.

                                               FY 2013 Excise Tax Refunds:
                            Alcohol and Tobacco Excise Tax Refunds………… $               35,278,000
                            Cover-over Payments, Puerto Rico…….…..………… $              349,017,000
                            Cover-over Payments, Virgin Islands……………… $                 8,706,000
                            Drawbacks on MNBP Claims…………………………… $                     345,231,000
                            Interest and Other Payments………………………….… $                     452,000

                            Total………………………………………………………………… $                          738,684,000



14
  The cover-over payments made to Puerto Rico and the Virgin Islands based on taxes collected on “other Caribbean
rum” is distributed between the territories based on a formula set forth in 27 CFR 26.31.
15
     The Department of the Interior also issues cover-over payments to USVI under Public Law 95-348.

                                                            46
                                         TTB 2013 Annual Report

FY 2013 Bureau Budget
Direct Appropriations (Salaries & Expense Account)
TTB’s budget authority under the 2013 Full-Year Continuing Appropriations Act was $99,878,000, less the
sequestration reduction ($5,024,463) and the across-the-board rescission ($199,756), decreasing TTB’s FY 2013
budget to $94,653,781. This amount included $1,895,388 for the costs of special law enforcement agents to
target tobacco smuggling and other criminal diversion activities. TTB elected not to hire the agents directly,
but to enter into an interagency agreement with the Internal Revenue Service Criminal Investigation office to
conduct criminal investigations into violations of the tax laws TTB enforces. The FY 2013 President’s Budget
authorized 482 full-time equivalent (FTE) positions for TTB.

Reimbursable Authority
During FY 2013, the Bureau realized reimbursable authority in the amount of $5.9 million. Those funds
originated from multiple sources, including recoveries from the operation of the cover-over program and other
enforcement activities in Puerto Rico ($3.1 million); funding from the Department of the Treasury’s Executive
Office of Asset Forfeiture to cover investigative expenses ($300 thousand); and reimbursement from the
Community Development Financial Institutions Fund (CDFI) ($2.5 million) for information technology support
services.

Sequestration
As with most of the federal government, TTB’s 2013 budget was affected by the broad automatic spending
cuts resulting from the Budget Control Act of 2011 (BCA), which were generally referred to as sequestration.
These spending cuts were initially scheduled to begin on January 1, 2013, but were postponed for two months
by the American Taxpayer Relief Act of 2012. The sequestration discretionary spending caps took effect on
March 1, resulting in a TTB budget reduction of $5,024,463 (including a rescission cut of $199,756),
representing a 5.2 percent decrease in TTB’s annual appropriation.

The Bureau achieved these reductions through a series of cuts to three principal budget cost components: 1)
TTB’s staffing level (a 4 percent reduction of TTB’s government workforce); 2) contract support; and 3)
operating costs. The cumulative impact of these reductions, combined with other budget reductions sustained
in recent years, resulted in a number of consequences relating to the Bureau’s ability to achieve its mission,
including increases in permit and label application processing times, which adversely affect tax revenue and
the overall economy. Without a federal permit, businesses cannot manufacture alcohol and tobacco products,
and therefore would not pay taxes on goods that they would have manufactured. Similarly, because TTB
collects the tax on alcohol beverage products at the point of removal from an industry member’s premises,
delays in label application processing affects tax collections.




                                                     47
                                            TTB 2013 Annual Report

Obligations and Expenditures by TTB Program

                                                                        FY 2013 Protect the Public
                                                                           by Major Programs           Trade
                                                            Permits &                                Facilitation
                                                             Business                                 Program
                                                            Assurance                                    7%
                                                             Program
                                                               37%

                                                                                                        Outreach &
                                                                                                         Voluntary
                                                                                     Advertising,       Compliance
                                                                                      Labeling &         Program
                                                                                    Product Safety         11%
                                                                                       Program
                                                                                         45%




The Bureau’s expenditures by its major programs remained relatively consistent between fiscal years 2012 and 2013.


Audit of TTB’s FY 2013 Financial Statements
The Department of the Treasury is one of 23 federal agencies that are required by law to produce annual
audited financial statements. TTB’s financial activities are an integral part of the information reported on by
the Treasury Department.

TTB’s Annual Report includes audited FY 2012 and FY 2013 financial statements; the Independent Auditors’
Report addresses these financial statements and reports on the Bureau’s internal controls over financial
reporting and compliance with laws and regulations.

Management Assurances
An independent, full-scope financial statement audit was conducted for FY 2013 and TTB received an
unmodified audit opinion. For FY 2013, TTB provides reasonable assurance that the objectives of the Federal
Managers’ Financial Integrity Act have been achieved, and the Bureau’s financial management systems are in
substantial compliance with the Federal Financial Management Improvement Act. This overall determination
is based on past and current practices, an improved controls environment, scrutiny by external audit sources,
internal evaluations, and administrative and fiscal accounting system enhancements.

During FY 2013, TTB also applied its custom risk management tools to its Revenue Accounting Section to
identify risks in the accounting and tracking of TTB’s annual federal excise tax collections and to the National
Revenue Center, with a focus on its key business processes. Based on these tools, TTB has adequate internal
controls in place to mitigate risk to operations, and the overall risk of fraud, waste, and abuse is “LOW.”

Bureau Challenges
TTB plans to revisit the vulnerability and risk management tools that are used each year to monitor the
internal controls over tax collections to ensure these documents reflect the key business processes in
operation at the National Revenue Center and fully support our internal control program at the Bureau. As
systems and businesses processes change, it is important that TTB update the tools used to monitor its tax
processing activities.
                                                          48
                                              TTB 2013 Annual Report


Part II
Program Performance Results
Performance Overview

TTB reports its performance in terms of five metrics that represent its ability to foster compliance from
taxpayers, employ technology to meet its public protection mission, and return value to the Nation for the
investment in TTB programs.

TTB exceeded the performance targets for four of the five measures reported to its stakeholders in FY 2013.
TTB achieved 75 percent of its targeted performance level for the measure that it did not meet. Based on
external factors and the results achieved this fiscal year, TTB reviewed its FY 2014 performance targets and set
targets that reflect workload projections, resource constraints, planned business process improvements, and
anticipated impacts from technology enhancements. To meet its performance goals in FY 2014, TTB will
implement an aggressive strategic agenda that integrates new technology, human capital management
strategies, and targeted efforts in both outreach and enforcement. All performance results are subject to
management review and periodic audit by the Department of the Treasury.


                                FY 2013 Performance Measure Status
       Performance Targets Met                                                                      4
       Performance Targets Not Met                                                                  1
       Baseline                                                                                     0
       Total Performance Measures                                                                   5



                                             Performance Measure Trends
                                                   FY 2009 - FY 2013
                   100%              100%
                                                         83%                                  80%
                                                                            50% 50%

                                                               17%                                   20%


                     FY 2009           FY 2010            FY 2011            FY 2012            FY 2013

                                                        Met     Not Met

               *In FY 2012, TTB met 50 percent of its performance targets as opposed to the 67 percent reported
                last year. The error was due to the discontinuation of TTB’s customer survey measure in FY 2012.

                                                              49
                                           TTB 2013 Annual Report



Summary of Collect the Revenue Performance
                               FY 09    FY 10     FY 11        FY 12       FY 13         FY 14    FY 13     % of
Performance Measure                                                                               Target    Target
                              Actual    Actual   Actual    Actual      Target   Actual   Target   Met?     Reached


Amount of revenue
collected per program          $427     $478      $468         $449    $400     $457     $400       Y      114%
dollar

Percentage of voluntary
compliance from large
taxpayers in filing timely     94%       94%      95%          92%     90%      92%       91%       Y      102%
tax payments (in terms of
revenue)


Performance Discussion

In FY 2013, TTB met both of its annual targets for the performance measures under the Collect the Revenue
budget activity. Taken together, TTB’s measures of the Amount of Revenue Collected per Program Dollar and
the Percent of Voluntary Compliance from Large Taxpayers in Filing Payments Timely demonstrate the
effectiveness and efficiency with which TTB operates its revenue collection mission. Achieving results for both
measures was supported by the proactive application of technology to streamline internal and external
processes and an effective tax enforcement presence that leveraged both real-time intelligence data and
interagency partnerships with counterpart enforcement agencies.

Improve Efficiency of Tax Collection

The Amount of Revenue Collected per Program Dollar measure uses annual collections figures and the actual
expenditures and obligations for collection activities to quantify the efficiency of TTB’s tax collection program.
In FY 2013, TTB collected nearly $23 billion in excise taxes and other revenues from approximately 9,300
taxpayers in the alcohol, tobacco, firearms, and ammunition industries.

The return on investment for TTB’s tax collection activities consistently exceeds 400:1 and, in FY 2013, reached
457:1. Effective enforcement combined with process improvements and streamlining efforts should
contribute to continued positive returns on the investment in TTB.

In setting its annual performance targets, TTB examines historical collections trends across each of its
regulated commodities, as well as other predictors that influence consumer behaviors. Specifically, shifts in
consumption patterns, product manufacturing, and trade will impact federal revenues in the years ahead. In
accounting for these types of marketplace shifts, TTB used Congressional Budget Office revenue projections for
tobacco excise tax collections to determine the targeted performance level of 400:1 for fiscal years 2014 –
2015.

                                                          50
                                           TTB 2013 Annual Report




To meet its FY 2014 performance target of $400, TTB will continue to improve efficiencies and results in its tax
enforcement program by improving the systems and processes related to tax verification. On the front end,
TTB will implement plans to increase automation in the detection, notification, assessment, and collection of
excise taxes to preserve staff time for substantive tax analysis. On the back end, TTB will continue to develop
and build risk models based on multiple data sources to identify high-risk activity or high-risk taxpayers for
audit and investigation. Continuous refinements to these models and sound intelligence enable TTB to
efficiently deploy its limited enforcement resources. A primary focus for TTB tax enforcement continues to be
tobacco manufacturers and importers, including importers of processed tobacco. Transfers of this non-taxpaid
tobacco product carry a high revenue risk, as the product may be diverted for illicit cigarette manufacturing.
TTB’s investigations in this area have resulted in multiple civil and criminal cases that have identified more
than $180 million in potential revenue loss from the diversion of more than 10 million pounds of processed
tobacco to non-permitted entities. TTB will continue these and other priority enforcement initiatives related
to on the import and export trade of alcohol and tobacco products in FY 2014, successfully combining data
analytics with advanced field investigative techniques to detect and address tax evasion.

Increase Voluntary Compliance from Taxpayers

Fostering voluntary compliance among excise taxpayers is a primary tax administration strategy for TTB. The
Percent of Voluntary Compliance from Large Taxpayers in Filing Tax Payments Timely is a key performance
metric that shows the rate of compliance by large taxpayers (i.e., those that pay more than $50,000 in annual
taxes) in voluntarily filing their tax payments on or before the scheduled due date. After a drop in the
compliance rate in FY 2012, TTB set a performance target of 90 percent in FY 2013; at year-end, TTB achieved a
92 percent rate of compliance from its large taxpayers. The voluntary compliance rate continues to be
significantly lower in the latter half of the year as efforts to enforce tax compliance result in the submission of
additional late filings by TTB taxpayers. Perhaps counter intuitively, improvements in the Bureau’s ability to
detect non-compliance due to the effective deployment of its automated tool for the identification of late,
missing, and errant tax returns and operational reports has caused a temporary decrease in in this
performance metric. As TTB continues to enhance the functionality of this automated tool, TTB expects that

                                                        51
                                           TTB 2013 Annual Report

its reported compliance rate for timely filings may continue to decline in the short term before these
enforcement efforts lead to demonstrable improvements in industry compliance.

TTB expects to meet its FY 2014 performance target of a 91 percent voluntary compliance rate for its large
taxpayers. During a period of economic recovery, TTB believes that this is an aggressive target for taxpayer
compliance and will demonstrate the effectiveness of TTB’s strategies to improve industry understanding of
and compliance with federal tax requirements. TTB will employ complementary strategies to meet its
performance target that focus on enhancing electronic filing options to enable taxpayers to file complete,
accurate, and timely tax returns and payments; improving online guidance, particularly for the large number of
newly permitted industry members; and maintaining an enforcement presence to encourage voluntary
compliance. Moving forward on all three fronts will ensure that TTB strikes the appropriate balance between
supporting new businesses in setting up compliant operations while ensuring adequate coverage of the high-
risk activity that undermines lawful business activity.

Electronic Filing Improvements
Beginning now and continuing into FY 2015, TTB will intensify its efforts to increase the electronic filing rate of
its taxpayers. TTB expanded its e-filing program to allow all excise taxpayers to file required tax returns,
reports, and payments online through the Pay.gov system, with approximately 23 percent of excise tax returns
and 34 percent of operational reports submitted electronically through Pay.gov in FY 2013. As part of a
comprehensive strategy to promote e-filing by TTB taxpayers, TTB plans to address a primary hindrance for
industry members in using Pay.gov by enabling the system to accept credit card payments. This enhancement
would also address a timing issue that requires those who file electronically to remit tax payments early. TTB
is partnering with the Bureau of the Fiscal Service in this effort, which supports the Department of the
Treasury’s Agency Priority Goals related to improving voluntary tax compliance and increasing paperless
transactions.

Industry Education and Outreach

TTB is planning a series of online initiatives for FY 2014 to improve guidance, transparency, and collaboration
between TTB and industry. Given the increase in new industry members, TTB will provide online training and
Webinars to ensure that these taxpayers understand and are able to comply with the applicable federal tax
and regulatory requirements. These activities will promote compliance across the regulated industries and
support TTB’s achievement of its FY 2014 performance target.

Criminal Enforcement
As an identifiable enforcement presence is a well-established driver of compliance rates, TTB expects to
achieve higher rates of voluntary compliance as the Bureau expands its enforcement initiatives. TTB will
continue to establish a visible enforcement presence that includes special agents to address the revenue
threat posed by alcohol and tobacco diversion and to ensure that compliant businesses are not competing
against illegitimate competitors that are producing non-taxpaid products.




                                                        52
                                                   TTB 2013 Annual Report

Summary of Protect the Public Performance
                                          FY 09      FY 10      FY 11       FY 12            FY 13        FY 14      FY 13        % of
Performance Measure                                                                                                  Target      Target
                                         Actual     Actual      Actual     Actual     Target    Actual    Target     Met?       Reached

Percent of electronically filed
Certificate of Label Approval             74%         79%        88%        91%        92%       92%       93%          Y        100%
(COLA) applications

National Revenue Center (NRC)
                                          89%         89%        90%        84%        DISC      DISC      DISC
customer service survey results

Average number of days to
process an original permit
                                           64          65         77         69         65           81     75         N          75%
application for a new alcohol or
tobacco business 1/

Percentage of importers
identified by TTB as illegally
                                          15%         15%        14%        13%        14%       11%       12%          Y        121%
operating without a federal
permit

DISC - Discontinued
1/ FY 2011 and FY 2012 Actuals have been revised based on an error in the source data. The revised actual for FY 2011 is 77 days (not 74)
and the revised actual for FY 2012 is 69 days (not 67).

Performance Discussion
In FY 2013, TTB met two of its three annual targets for the performance measures under the Protect the Public
budget activity. TTB tracks its success in meeting its trade advancement and consumer protection goals
through three principal performance measures that indicate how timely the Bureau is in issuing permits to
qualified alcohol and tobacco businesses, how effective TTB is in deterring illicit importation of tobacco
products by non-permitted entities, and the efficiency of the Bureau’s alcohol beverage label application
processing activity. Taken together, these measures reflect the priorities of a service-oriented organization
that applies technology to the greatest extent to perform its consumer protection role and to ensure that
commerce is fair, lawful, and open. TTB’s strategies to achieve its performance targets in this budget activity
include a combination of streamlining its internal procedures, implementing enhancements to its online filing
systems, and publishing clear guidance to industry members.

Improve Efficiency and Effectiveness of Permitting Process

TTB protects consumers by screening permit applicants to ensure only qualified persons engage in operations
in the alcohol and tobacco industries. For this purpose, in FY 2013, TTB processed approximately 7,700 original
and 18,000 amended permits, and performed 275 investigations into high-risk applicants to meet TTB’s
business integrity objective. TTB monitors its timeliness in processing permit applications through its measure
of the Average Number of Days to Process an Original Permit Application for a New Alcohol or Tobacco
Business. Undue delays in permit application processing impede economic growth, primarily in the small
                                                                   53
                                          TTB 2013 Annual Report

business sector, as taxable commodities such as finished wine, beer, or spirits products cannot be lawfully
produced without a federal permit from TTB. TTB targeted a 65-day turnaround time for original permit
applications in FY 2013, but resource challenges resulted in average processing times of 81 days.

TTB completed its rollout of the Permits Online system in FY 2012, with the dual goals of improving permit
processing times and increasing the number of paperless transactions with the business community TTB
serves. Over the past several years, however, the volume of applications has increased, making it difficult to
maintain service levels, particularly given recent budget constraints. Between 2008 and 2011, TTB
experienced an average annual increase of 3 percent in original permit applications. In FY 2012, however, the
number of original permit applications received increased 33 percent, primarily due to growth in the craft
brewer and alcohol wholesaler segments. In FY 2013, following a year of unprecedented growth, original
permit applications remain well above the five-year average.

Even with greater than anticipated adoption rates for the Permits Online system, which reached 70 percent for
the year, TTB does not anticipate achieving sustained reductions to its permit application turnaround time
until various additional system enhancements are implemented in the latter quarters of FY 2015. Rather, the
immediate benefit of Permits Online has been cost savings, with system efficiencies contributing to nearly $1
million in budget reductions. Although these reductions (equivalent to 9 full-time positions) have produced
budget savings, they have slowed anticipated improvements in service delivery. TTB projects to average 75
days to process an original permit application at the close of FY 2014. Given the demand for TTB service, and
the reductions to TTB staff, the targeted performance level will demonstrate TTB’s effectiveness and the
success of its new e-filing system, without which processing times would exceed 90 - 120 days.

Streamline Permit Qualification Process

TTB intends to meet the FY 2014 performance target through a combination of streamlining its internal
procedures, engaging in industry outreach, and implementing ongoing system enhancements. TTB will also
update its risk model and the procedures used to process permit applications, adding new financial data
sources and improving the risk criteria used to vet applicants for suitability to hold a federal permit in the
alcohol and tobacco industries. Increased focus on risk modeling and statistical sampling will help TTB
maintain its assurance that it is permitting only qualified applicants while improving the efficiency of TTB’s
permit qualification process. In addition, TTB will continue to promote use of the Permits Online system by all
permit applicants, including through webinars and online training.

Electronic Permit Filing

TTB also understands that the customer experience with Permits Online is a critical driver of adoption rates.
TTB routinely updates the business rules and customer support features embedded in the system to help
prospective industry members submit complete and accurate permit application information. By receiving
complete applications, TTB can reduce the time spent returning applications to customers for correction and
reviewing corrected submissions, thus improving the overall time from initial application submission to permit
issuance.

TTB is also taking steps to speed its transition to an entirely online processing environment. System
enhancements in development for fiscal years 2014 and 2015 include the data upload of historical permit

                                                      54
                                           TTB 2013 Annual Report

application data from TTB’s legacy permit and tax database to the Permits Online system. This initiative will
allow the approximately 60,000 TTB permittees who originally filed a paper permit application to file for
amendments to their permit (i.e., change in control or change in address) electronically through Permits
Online. As TTB receives an average of 18,000 – 20,000 permit amendments annually, this project will result in
efficiencies for both TTB and the businesses it serves.

Ensure Compliance with Importer Permit Requirement

Maintaining lawful operations in the trade of alcohol and tobacco commodities is a principal TTB objective.
TTB continues its enforcement of federal permit requirements, targeting entities identified as importing
cigarettes and other tobacco products without a TTB permit. Through its measure of Percentage of Importers
Identified by TTB as Illegally Operating without a Federal Permit, TTB monitors CBP’s International Trade Data
System and compares the import data to the permittees on file with TTB, which enables the Bureau to identify
and take action against entities engaging in unlawful operations. In FY 2013, TTB set a performance target of
14 percent for this measure. TTB met its target, as just 11 percent of entities reporting importations of
tobacco products had done so without a permit. The vast majority of unpermitted importers consist of
individuals purchasing tobacco products from overseas via the Internet. TTB’s issuance of cease and desist
letters, and appropriate follow up activities, ensured that the responsible parties ended operations or obtained
a permit.

TTB intends to meet its FY 2014 performance target of 12 percent for this measure by continuing to monitor
and take action to address imports of tobacco products by non-permitted parties. These efforts support the
enforcement of federal laws designed to prevent tobacco smuggling and to ensure the collection of all taxes
levied on tobacco products. TTB also will continue to focus its enforcement efforts on the importation of
processed tobacco to ensure that importers comply with federal law. Processed tobacco is the subject of
intense TTB enforcement scrutiny, as it is a non-taxpaid tobacco product that may be diverted for illegal
manufacturing purposes. Beginning in FY 2014, TTB will incorporate import data into its risk models for audit
and investigation targets to help deter illegal importations of tobacco.

Improve Efficiency and Effectiveness of Alcohol Beverage Label Processing

TTB protects U.S. consumers by ensuring that alcohol beverage products offered at retail outlets are properly
labeled and comply with federal production standards. This activity also facilitates compliant trade, as a TTB
label approval is required before an industry member can introduce their products into interstate commerce.
In FY 2013, TTB met both objectives through the approval of 118,800 of the 140,300 COLA applications
received; the remaining applications were rejected, returned for correction, withdrawn, or expired. In
furtherance of the Treasury-wide goal to increase paperless transactions, the Bureau targeted and met its
performance level of 92 percent electronic filing for COLA applications. The ongoing rise in electronic filing is
due to system improvements made in response to customer feedback that simplify the filing process for
industry members.

TTB has set an FY 2014 performance target of 93 percent for this measure and, to meet this performance goal,
the Bureau will use targeted outreach to reach the segments of the industry that have not migrated to the
online filing environment. In FY 2013, TTB modified its internal operating procedures to process paper label
applications electronically. This move to a paperless processing environment has improved communications

                                                        55
                                          TTB 2013 Annual Report

with industry members regarding rejected applications or applications that TTB returns to the applicant for
correction.

Even with high rates of electronic filing, the volume of label applications necessitates consideration of broader
efforts to streamline the alcohol beverage label application process. Between 2008 and 2012, the number of
applications increased by 14 percent. Actions taken in FY 2013 to expand the number and type of changes that
industry may make to an alcohol beverage label without submitting a new COLA application reduced the
volume of submissions by 8 percent compared to the prior year. Though TTB labeling program changes in
2012 and 2013 were successful in bending the curve for label applications, rapid annual growth in the industry
may cause label applications to increase in the future. Addressing the volume of label applications requires
TTB to continue its efforts to update and streamline its labeling program. Through other changes to its forms,
guidance, and internal processing procedures, as well as a planned modernization of the federal alcohol
labeling regulations, the Bureau will prepare to shift from a pre-approval process for reviewing label
applications to a more useful marketplace review of labels. By redirecting resources to marketplace
enforcement, TTB intends to improve program results by continuing to ensure that labels that reach
consumers are accurate and not deceptive while improving service by reducing the time it takes industry to
enter compliantly labeled alcohol beverages into the marketplace. TTB plans to publish a proposed
modernization of its labeling and advertising regulations in FY 2015.




                                                       56
                                          TTB 2013 Annual Report

Summary of Management and Organizational Excellence Performance

Effectively and efficiently administering the Bureau’s revenue collection and public protection mission requires
that TTB create the conditions necessary for programs to reach and sustain excellence. In all aspects of
performing its mission, TTB aims to ensure that its programs operate efficiently and effectively, and with full
accountability. TTB accomplishes this by providing program offices with the high-quality management and
administrative support needed to achieve the Bureau’s program goals.

The Bureau’s objectives in the area of Management and Organizational Excellence align with the
Administration’s emphasis on automating processes to improve services and enhancing internal operations to
be more efficient and effective. In FY 2013, TTB demonstrated its ability to enhance efficiency and reduce
costs through its strategic management of human capital, IT enhancements to improve operations, and
rigorous financial management practices.

Human Capital Management

TTB continues to implement the strategic goals, strategies, and measures outlined in the current Human
Capital Strategic Plan. As the majority of TTB’s human resource functions are operated through the Bureau of
the Fiscal Service Administrative Resource Center (ARC), TTB establishes and updates, as appropriate,
performance benchmarks and measures to monitor these outsourced functions. In FY 2014, TTB will complete
its 2014-2017 Human Capital Strategic Plan to align with the strategic direction of the Bureau. The new plan
takes into account the overall business and cultural vision for TTB, to include:
    •   Addressing retirement trends by identifying and closing competency gaps and creating a succession
        plan, enhancing our recruitment and retention plan, and identifying targeted skills sets;
    •   Providing an employee-friendly culture that strikes an appropriate work/life balance through
        employee recognition, performance management, flexible schedules, and teleworking;
    •   Incorporating organizational needs into human capital planning as identified by the OPM Employee
        Viewpoint Survey results; and

    •   Streamlining human resource functions through various information systems, including a new
        electronic employee official personnel file, performance management system, and enhanced online
        availability of self-service personnel actions.

Employee satisfaction is critical to a productive workplace. Each year, the Office of Personnel Management
(OPM) administers the Federal Employee Viewpoint Survey (FEVS) to measure the satisfaction of the federal
workforce. The TTB FEVS average score for FY 2013 trended down to a 74.7 percent positive response rate
from employees, a decrease from 77.1 percent in FY 2012. TTB will develop an FY 2013 FEVS Action Plan to
address areas in the survey that showed a decline from the prior year.

Based on this survey data, the Partnership for Public Service determines rankings for federal agencies. TTB
ranked 25th out of 300 sub-component agencies on the FY 2013 Best Places to Work in the Federal
Government rankings, a decrease from its 2012 ranking of 15 out of 292.


                                                      57
                                                       TTB 2013 Annual Report



                                              TTB BPTW Ranking
                                  1
                                       10        7                                  15
                              51                                                           25
                                                                             34
                             101
                   Ranking
                                                            83
                             151

                             201

                             251
                                      2006     2008        2010          2011      2012   2013

                                                                  TTB




                                             TTB EVS Average Score
                             85
                                               78.2                                77.1
                             80       75.5                                                74.7
                                                                         73.4
                             75                            69.2
                             70
                             65
                   Score




                                                           67.9          67.3
                             60                63.8                                64.6
                                      62.4                                                61.3
                             55
                             50
                             45
                             40
                                      2006     2008        2010          2011      2012   2013

                                                     TTB      Federal Government

                 The reported scores indicate the average of three survey items that identify
                 overall employee satisfaction.




In its efforts to improve employee satisfaction, TTB used survey results to identify key actions for its FY 2013
FEVS Action Plan. TTB targeted the areas of internal communications and workforce engagement to sustain
the improvements in employee satisfaction realized in these areas in FY 2012. During FY 2013, TTB:
    •   Continued its development and implementation of its new strategic plan, developed using a
        collaborative process that involves the participation of a Core Team of employees from across the
        Bureau and the TTB executive team;

    •   Implemented a comprehensive communications strategy to promote understanding of TTB’s strategic
        objectives and priorities, which included NTEU briefings, a TTB-wide virtual town hall meeting, and
        several Strategy Forums with the workforce;

    •   Launched an online resource center and reported progress on the strategy, performance results, and
        planned priority initiatives through online postings. The resource center provides updates on
        performance measures through an online dashboard that is accessible by all employees; and

                                                                        58
                                           TTB 2013 Annual Report

    •   Initiated the development of a formal communications program, with strategies for both internal and
        external stakeholders, to sustain improvements in survey scores made over the past two years.

Implementing these and other initiatives in the FY 2013 FEVS Action Plan increased communication to
employees, ensured a highly talented and well-developed staff, and enhanced employee engagement.
As a knowledge-intensive organization, TTB requires a highly trained workforce to fulfill its responsibility to
protect the public and collect the revenue within a dynamic and global environment. During FY 2013, TTB used
a variety of human capital policies and programs for recruiting and attracting talent to ensure qualified people
with the necessary skills are in the right positions, and to continue to retain those professionals in the
future. Successful strategies included partnerships with a diverse range of universities across the country and
use of the Treasury Veterans Program.
Succession planning is also a strategic priority for the Bureau, especially as it relates to TTB’s mission-critical
positions. One in three TTB employees is eligible to retire in FY 2014. TTB continued its Emerging Leaders
Program (ELP), established in FY 2009. This leadership development initiative offers three unique certificate
programs for non-supervisors, first-level supervisors, and second-level managers at TTB. The three-year
program series supports TTB’s succession planning strategies and prepares participants with the competencies
critical for higher levels of leadership responsibility. Based on participant feedback, TTB is working on
expanding the program’s offerings to include mentoring opportunities and detail assignments to broaden the
exposure of program participants.
The FY 2014 President’s Budget proposed the discontinuance of the pilot pay-for-performance program at TTB,
a program originally authorized in 1999 and that had been in operation at TTB since the Bureau was
established in 2003. Since this program did not originate as an OPM pilot pay-for-performance system, and as
such had not been subject to direct OPM oversight, the Administration did not support the continuation of the
program. The Administration suggested that TTB petition OPM for authorization to pilot a new demonstration
project and to use the results of a five-year pilot program to determine whether a permanent program should
be established at TTB. In FY 2013, as required by law, TTB negotiated with the National Treasury Employees
Union (NTEU) to terminate the existing pay demonstration project. As TTB believes pay-for-performance
aligns with its results-driven culture, TTB will work jointly with the Department of the Treasury and OPM to
develop a sound business strategy to implement a permanent pay-for-performance program at the Bureau.


Financial Management

TTB established and monitored key performance standards to ensure that its business activities covering
financial accounting and reporting operate in a highly effective and efficient manner. In FY 2013, TTB achieved
all of its financial management performance metrics, in collaboration with its shared service provider, the
Bureau of the Fiscal Service Administrative Resource Center.




                                                        59
                                           TTB 2013 Annual Report

This joint effort in providing financial management services has allowed TTB to meet its financial goals and
deliver quality accounting and budget services to program staff, including:

    •   Paying vendor invoices on time (Prompt Payment Rate) greater than 99 percent;
    •   Achieving an Electronic Fund Transfer Compliance Rate of greater than 99 percent;

    •   Ensuring a Proper Payments Rate of greater than 99 percent;
    •   Processing Budget Reprogramming Documents within 2 business days;

    •   Completing timely entry of budget and financial data in the OMB MAX reporting system;
    •   Reconciling Cash Account by the 4th calendar day of the month;

    •   Ensuring prompt deposits and recording of tax collections; and
    •   Providing timely and useful financial management data.


TTB also met established due dates to ensure timely submission of reports required by the Bureau of the Fiscal
Service. Monthly closing of financial data was completed within three business days, and payroll information
was downloaded into the core accounting system within three working days of receipt from the National
Finance Center.
Joint reviews of payroll activity were conducted to obtain reliable projections of payroll costs relative to
continuously changing on-board staffing levels. The payroll projection system has proven to be a valuable tool,
and its use has led to better financial information for budget decision making and helped the Bureau avoid
Anti-Deficiency Act violations. The ability to extract information from the core accounting system and make
sound payroll projections continues to provide reliable and accurate financial information for TTB
management to use in executing the budget.
In FY 2013, TTB was also able to conduct timely reviews of financial information so that program offices were
provided with the data necessary to make efficient use of the bureau’s annual appropriation and fulfill TTB’s
tax collection and regulatory responsibilities, as outlined in its budget plan. By closely monitoring the Bureau’s
financial status, TTB was successful in making a number of key investments to support its mission. These
financial reviews were not limited to the current year’s appropriation. TTB also conducted a review of prior
year obligations because up to 50 percent of unobligated funds from a prior year may be accessed for critical
and/or unforeseen investments with appropriate authorization. In FY 2013, TTB received authorization for
$790 thousand from unobligated FY 2012 funds to invest in its Permits Online system and in IT hardware
equipment.
In support of Treasury’s OMB Circular A-123 requirements over financial reporting controls, the TTB Office of
Finance and Performance Budgeting tested internal controls related to the financial reporting of tax
collections. The review identified no control weaknesses over TTB’s collection activity and the reporting of
those collections.




                                                       60
                                           TTB 2013 Annual Report

Expansion of Technology Solutions

TTB made significant progress in achieving its strategic vision of using technology to streamline the delivery of
its critical lines of business and to support data-driven decision making. In FY 2013, TTB continued with
business application development to support improvements to the permit, formula, and label application
processes in order to reduce the regulatory burden on industry members.

In FY 2013, TTB completed two major releases of the Permits Online system. Among other things, these
system updates enabled industry members to download an encrypted electronic copy of their application data.
After receiving their federal permit, industry members may then submit their permit data to state liquor
authorities in applying for equivalent state licenses. For example, applicants intending to operate in the state
of Kentucky may now upload their federal application data into their state application, reducing the burden of
data entry. TTB also added functionality to assist customers in identifying and filing required supplemental
documents with each electronic application. Depending on the commodity, these documents may include
items such as corporate documents, bank statements, trade name registrations, and premise descriptions. TTB
also made it easier for customers to view and copy information, which assists industry members with multiple
permits or locations.

Going forward, TTB will continue to improve the usage rate of Permits Online through outreach efforts and
system enhancements that improve the system’s functionality for both external and internal users.
Significantly, TTB is in the process of developing and testing enhancements that will enable approximately
60,000 active industry members to use Permits Online to electronically file an amendment to their permit.
Given that TTB receives approximately 18,000 permit amendments annually, TTB anticipates that this system
enhancement will result in efficiencies for both TTB and industry members.
TTB also works to continuously improve COLAs Online, recognizing the importance of issuing timely approvals
for alcohol beverage labels that comply with federal requirements. Also, over time, improving and
streamlining the processing of electronic applications will facilitate TTB’s planned transition to a market-based
review of labels for both TTB and the regulated industries. In FY 2013, TTB added system validations to ensure
compliant COLA applications, enhanced search options to assist industry with obtaining access to their COLAs,
and improved the view of pending applications by adding new sorting capabilities.
TTB has also integrated features of COLAs Online with its electronic system for filing formula applications,
Formulas Online. Many alcohol beverages require formula approval prior to the issuance of a COLA and, to
simplify this process, Formulas Online allows industry members to link their approved formulas to COLAs
Online when they file for label approval. In FY 2013, TTB made multiple improvements to Formulas Online,
including enhancements to user registration; an upgrade to the search function; and changes to the print,
work list, submission summary, and user notification features. TTB will continue to review and enhance
Formulas Online to provide an even more efficient and user-friendly electronic filing venue for industry
members. Through its planned industry forums, TTB intends to develop both short- and long-term initiatives
to make the Formulas Online system more functional for external and internal users.
As part of TTB's effort to maintain a state of the art laboratory environment, TTB initiated a project in FY 2011
to replace the existing Laboratory Information Management System (LIMS), a platform for consolidating
sample analysis data for the four laboratories that comprise the Bureau’s Scientific Services Division. The new

                                                       61
                                           TTB 2013 Annual Report

system integrates with laboratory instruments and provides a secure process that facilitates the electronic
collection and processing of sample analyses. The LIMS 2.0 system is also crucial to maintaining the
laboratory’s international accreditation status, as it streamlines the process, review, and disposition of sample
analyses to ensure compliance with ISO 17025 accreditation. Other benefits include chemical inventory
management for the disposal or destruction of reagents and chemicals and robust reporting capabilities to
support the effective management of laboratory process workflows.

In support of the Department of the Treasury’s technology modernization campaign, TTB worked toward
improving program results and reducing overall operating costs in FY 2013 through its ongoing support of
“cloud computing” initiatives. Cloud computing is a model for enabling convenient, on-demand network
access to a shared pool of configurable computing resources (e.g., networks, servers, storage, applications, and
services) that can be rapidly provisioned and released with minimal management effort or service provider
interaction. The Bureau is developing TTB’s private cloud by building its virtualized infrastructure and cloud
software service as well as a community cloud by hosting and providing cloud infrastructure as a service to the
Community Development Financial Institutions (CDFI) Fund.

TTB’s network infrastructure operates on a “virtual desktop” that centralizes all computing power,
applications, user data, and user settings, which allows Bureau employees to access to TTB resources through
thin client computing devices. A thin client is a computing device or program that relies on another device for
computational power. Currently about 70 percent of TTB personnel use thin client devices to access all TTB
applications and data. Certain TTB users, particularly investigators and auditors who operate in the field, are
not candidates for the virtual desktop solution due to intermittent Web access. In FY 2013, TTB piloted a
solution that may enable TTB to extend the benefits of the virtual desktop infrastructure to all TTB users,
which will make the TTB network and hardware inventory more manageable, reliable, and secure.

As the IT service provider for CDFI, TTB made improvements in FY 2013 that increased CDFI’s telework
capabilities and improved its ability to collaborate with industry members and other bureaus, while achieving
cost savings for the government. In February 2013, TTB implemented video teleconferencing capabilities and a
Voice over Internet Protocol (VoIP) phone system to CDFI. As a result, CDFI users are no longer tied to their
geographical locations; they can make calls from any location with access to the Internet and can conduct face-
to-face meetings via the new video teleconferencing and VoIP infrastructure.

These cloud computing efforts have been critical to TTB’s effective telework program, one of the most robust
telework programs within the Department of the Treasury. TTB’s workforce is widely dispersed, with many
personnel working from home full time and over 80 percent of the workforce regularly teleworking.
Advancements in TTB’s IT network completed in FY 2013 have both improved the effectiveness of TTB’s
telework program and contributed to the Administration’s goals under the “Bring Your Own Device” initiative
of improving mobile work capabilities and reducing IT costs across government.




                                                       62
                                          TTB 2013 Annual Report


Message from the Chief Financial Officer
                          As the Nation continues to recover from a prolonged economic downturn, it is
                          incumbent upon Government to lead the way in demonstrating responsible fiscal
                          stewardship through sound management, efficient operations, and smarter and
                          more streamlined services to its constituencies. To be more results oriented and
                          performance driven, we continue to place more reliance on evidence based decision
                          making and the use of such performance tools as dashboards. This has contributed
                          to better choices that are rooted in facts and evidence. Though we have much to be
                          proud of, as evidenced in this report, the Bureau continues to strive for continuous
                          improvement through sound strategic planning, effective application of technology,
                          and strong fiscal discipline.

The Bureau has developed a compliance dashboard to provide a consistent and efficient means of calculating
and reporting performance metrics and key workload statistics for TTB managers and the clients that we serve.
This transparency is an integral part of ensuring accountability and improvement of our client services.

Recognizing that we are responsible for producing results for every dollar entrusted to us, it is more important
than ever for TTB to examine its operations to ensure that we are efficiently managing our resources and
returning value for the investments made in our mission. Assurance that we are effectively allocating limited
resources to deliver on our mission requires a comprehensive organizational strategy to guide strategic
decisions about our operations and policies. We have chosen to apply the Balanced Scorecard methodology to
our planning process in order to integrate our strategic plan into our management and investment decisions to
ensure TTB’s long-term effectiveness. This tool provides a comprehensive management framework to assist in
making decisions regarding where to direct our limited resources to achieve the greatest impact in moving the
Bureau forward. By effectively using the data provided by the Balanced Scorecard and maintaining open
dialogue about our strategy, we will be able to readily identify issues and opportunities and take targeted
actions to improve the organization as a whole.

During Fiscal Year 2013, the Bureau operated under a continuing resolution until March 27, 2013, requiring us
to plan for multiple funding scenarios, and to determine program implications surrounding those actions. The
Bureau had to operate for most of the year, under a blanket of uncertainty, as to its level of resources for
operations for the year, which was ultimately resolved when mid- way through the fiscal year, Congress
enacted a Full Year Continued Resolution, which was combined with sequestration and rescission cuts.
Extensive planning was necessary to absorb those budget reductions within a short time frame to ensure the
Bureau would operate within its available financial resources and fulfill its mission.

To compound the circumstances, increasingly talks about a government shutdown over the debt ceiling and
discretionary spending caps meant the Bureau had to invest a great of time to develop a plan that would
provide for an orderly shutdown. Many believed a government shutdown would not occur when spending
authority expired on September 30, but continual prudent planning was necessary in case it did happen. This
plan provided instructions on how operations and personnel would be affected, and what services and
functions of the Bureau would need to continue even in the absence of an exacting appropriation. In the
absence of funding, the vast majority of the Bureau employees, not engaged in excepted activities under the
                                                      63
                                         TTB 2013 Annual Report

Antideficiency Act, were furloughed. The excepted service provision could only be applied at the Bureau to tax
collections, so the plan had to cover a shutdown and curtailment of most routine operations. These plan
documents were subjected to a series of reviews both inside and outside of the Bureau.

In FY 2013, TTB again received an unmodified audit opinion on its financial statements from an independent
public accounting firm, and they reported no significant deficiencies or material weaknesses in internal
controls over financial reporting. Our support of this annual audit affirms our commitment to a vigorous
internal control environment and financial reporting excellence. Further evidence of this commitment lies in
our management practices, which include routine evaluations of our tax collection and revenue accounting
operations at the National Revenue Center. These evaluations validate that sound internal and administrative
controls are in place to ensure the collection and verification of $22.9 billion in annual Federal excise tax
collections from alcohol, tobacco, firearms and ammunition industry members.

Even as resources contract, TTB will continue to aim high and put in place improved processes and tools to
meet our mission. In the years ahead, strategic investments and sound planning will support the Bureau in
improving the management and performance of this organization. Providing superior administrative support
services while meeting our financial management improvement goals, while operating within our available
resources is critical to producing sound agency performance results and providing taxpayer value. We remain
optimistic about the continued opportunities to develop and implement new ideas for improving the
management and performance of this Bureau and to more effectively integrate performance management
across our programs.




                                             Cheri D. Mitchell
                                 Assistant Administrator, Management/CFO




                                                     64
                                                  TTB 2013 Annual Report


PART III
Financial Results, Position, Condition, and Auditors’ Reports

Budget Highlights by Fund Account

                                              FY 2013 Salaries and Expenses
       Fund Source:
       Salaries & Expenses FY 2013
         Appropriation (P.L. 113-6, Consolidated and Further Continuing Appropriations Act, 2013) 1/        $       99,878,000
         Sequestration (P.L. 112-25, Budget Control Act of 2011)                                            $       (5,024,463)
         Across-the-Board Rescission (P.L. 113-6, Sec. 3004 (C)(1))                                         $         (199,756)

       Salaries & Expenses FY 2013 (Net)                                                                    $       94,653,781

       Obligations Incurred in FY 2013 from Current Year Appropriations                                    $        93,809,000

       Salaries & Expenses FY 2012/13
                                                                                                            $          790,000
       (50% Prior Year Recovery) 2/

       Obligations Incurred in FY 2013 from Current Year Appropriations                                    $           790,000

       1/ P.L. 113-6 included $2 million in funding for TTB to use for the costs of special law enforcement agents to target
       tobacco smuggling and other criminal diversion activities.
       2/ General Provisions of the appropriations bill provide that 50 percent of the unobligated balances remaining available
       at the end of Fiscal Year 2012 shall remain available through September 30, 2013.


In FY 2013, TTB received $99,878,000 in direct appropriations under the Full-Year Continuing Appropriations
Act, 2013, less the sequestration amount ($5,024,463) and less the rescission amount of ($199,756), which
provided a total of $94,653,781. This amount included $1,895,388 for the costs of special law enforcement
agents to target tobacco smuggling and other criminal diversion activities. TTB elected not to hire the agents
directly, but to enter into an interagency agreement with the Internal Revenue Service Criminal Investigation
office to conduct criminal investigations into violations of the tax laws TTB enforces. The authorized full-time
equivalent (FTE) staffing level for direct positions was 482 in the FY 2013 President’s Budget.

The budgeted amount maintains a program level consistent with the current level of effort necessary to
support TTB’s responsibility for revenue collection and the enforcement of laws and regulations governing
alcohol and tobacco commodities.

The Bureau obligated or expended 99.1 percent of the $94,653,781 in FY 2013 direct funding from its one-year
Salaries and Expenses appropriation.

Also during FY 2013, Congress authorized an additional $790,000 from the prior year account of unobligated
available balances (often referred to as the 50 percent account) to cover a one-time investment in IT
infrastructure to replace obsolete network equipment and enhancements to the Permits Online system.




                                                                  65
                                          TTB 2013 Annual Report

Reimbursable Authority and Related Activities
During FY 2013, the Bureau realized reimbursable authority in the amount of $5.9 million. The primary sources
of reimbursable funding were collections from the cover-over program and enforcement activity in Puerto
Rico, investments in the TTB enforcement program from the Executive Office of Asset Forfeiture, and
reimbursement from CDFI for information technology services.

Puerto Rico Cover-Over and Enforcement Activities

All costs associated with the functioning and support of the Puerto Rico office are paid from the cover-over
program, which is offset from cover-over taxes collected in the United States on products originating in Puerto
Rico ($349 million) and the Virgin Islands ($9 million).

In Puerto Rico, TTB conducts annual audits and investigations of industry members regarding the collection of
revenue, application processing, and product integrity. Revenue inspections are used to conduct tax
examinations on major producers of alcohol and tobacco. This is critical due to the requirements of verifying
tax payments under the Internal Revenue Code (IRC), as well as TTB’s subsequent accountability for all cover-
over amounts due to the government of Puerto Rico.

All distilled spirits producers and processors, wineries, wholesalers, importers, Manufacturer of Nonbeverage
Products claimants, and specially denatured alcohol permit applicants are subject to a qualification inspection
under the IRC.

Additionally, major producers of distilled spirits, wine, and malt beverages are subject to inspection and audits
in Puerto Rico.


Linking Budget and Program Spending

TTB has two primary budget activities: collecting all the Federal tax revenue due on alcohol, tobacco, firearms,
and ammunition products and protecting consumers of alcohol beverages. Assisting industry members to
understand and comply with the Federal laws and regulations regarding the commodities TTB regulates is an
integral part of both activities.

In FY 2013, TTB used an account code structure that provides a direct link from the Bureau budget to specific
programs and project activities. An analysis of the data stemming from the account code structure shows that,
in FY 2013, TTB incurred obligations of $93,809,000 of its salaries and expenses appropriation, of which 53
percent was spent on the Collect the Revenue and 47 percent was spent on Protect the Public budget
activities.




                                                       66
                                                                                       TTB 2013 Annual Report




         In order to ascertain the full costs of each of these budget activities, the overhead costs were allocated and
         combined with the direct program costs. TTB arrived at the overhead allocation by applying the pro rata share
         of the number of direct program dollars to each overhead cost category. The overhead is comprised of three
         major cost components: 1) general and administrative costs; 2) legal costs; and 3) information technology
         costs. The general and administrative category consists of costs related to operating the human resources,
         finance, procurement, training, facilities management, and other support-type functions.

                                                                                            TTB presents its obligations incurred by budget activity and program in its
     Spending by Major Object Class
                                                                                            Annual Report to explain the cost of delivering the services that support the
                                      Equipment &   Communications &                        mission. TTB also presents specific data regarding the purchase of goods and
                                                        Utilities          Travel
                                        Software                                            services by major object class that support its program activities. The majority
                                                        $1.2M              $1.8M
                                         $1.2M
                           GSA Rent                                                         of TTB’s incurred obligations (90 percent) fall into two principal major object
                                                                           Miscellaneous
                            $4.5M                                             $1.1M         classes: Salaries & Benefits and Advisory & Assistance Services (Contracts).
                                                                                            Salaries & Benefits comprise 62 percent of total obligations incurred by object
                  Advisory &                                                                class, and cover the cost of TTB’s roughly 466 full-time equivalent positions in
              Assistance Services
                    $26.3M                                                                  FY 2013. The Advisory & Assistance Services object class constitutes 28
                                                     Salaries & Benefits                    percent of FY 2013 incurred obligations, and covers the cost of both
                                                           $57.7M                           commercial and intra-governmental services.

                                                                                            The commercial contracts category is predominantly IT contracts in support of
                                                                                            engineering, infrastructure, and support services. This category includes other
                                                                                            commercial contracts for services such as the scanning and imaging of label
    Obligations Incurred from FY 2013 Appropriation by Major Object Class,                  applications and tax forms, lab maintenance, and Web site development.
                                   ($ Million)
                           Total FY 2013 $93.8 Million
                                                                Intra-governmental services include administrative support services
provided by our shared service provider for human resources, accounting, travel, and procurement. Other intra-governmental services
include the costs for special agent support, background investigations, and Federal protective services. In FY 2013, the Bureau’s travel
                                                                      67
costs were primarily related to its audits and investigations. The remaining object classes that cover the FY 2013 obligations incurred
include those cost categories for rent, communications, equipment, and other miscellaneous categories.
                                           TTB 2013 Annual Report

Obligations Incurred from FY 2013 Appropriations by Budget Activity

Collect the Revenue….. $50,173,000

The Collect the Revenue budget activity encompasses TTB’s revenue strategy and goal to provide the most
effective and efficient system for the collection of all revenue that is rightfully due. It is also designed to
prevent or eliminate tax evasion and other criminal conduct and provide high-quality service while imposing
the least regulatory burden.

Under the Collect the Revenue activity, TTB administers three programs: 1) Alcohol and Tobacco Tax; 2)
Firearms and Ammunitions Excise Tax (FAET); and 3) Outreach and Voluntary Compliance.




In FY 2013, TTB expended 91 percent of its Collect the Revenue resources in collecting Federal excise taxes
from the alcohol and tobacco industries and 3 percent in collecting FAET. The specific projects that comprise
these costs include the processing of tax returns and operational reports at the National Revenue Center and
the audits and investigations conducted on industry.

Costs for the Outreach and Voluntary Compliance Program reached 6 percent of our Collect the Revenue
resources. These resources went toward efforts to educate and train industry members regarding their
obligations in the areas of tax calculations and remittance.

Protect the Public….. $43,636,000

The Protect the Public budget activity encompasses TTB’s strategy and goal to ensure industry compliance with
laws and regulations designed to protect the consumers of alcohol beverages.

TTB does this by assuring the integrity of the people who operate these businesses, of the products
themselves, and of the marketplace in which they are traded.
                                                       68
                                          TTB 2013 Annual Report

TTB administers four programs under the Protect the Public budget activity: 1) Permits and Business
Assurance; 2) Advertising, Labeling, and Product Safety; 3) Trade Facilitation; and 4) Outreach and Voluntary
Compliance.




An analysis of the financial data from FY 2013 reveals that TTB spent the preponderance of its Protect the
Public resources on two programs: Labeling, Advertising, and Product Safety at 45 percent, and Permits and
Business Assurance at 37 percent.

The Labeling, Advertising, and Product Safety Program includes activities designed to assure that beverage
alcohol labels fully and accurately describe the products upon which they appear and are not misleading. It
also encompasses activities to verify that alcohol advertisements contain all mandatory information and do not
mislead consumers. The Product Safety component involves all investigative and laboratory activities
performed as part of the Alcohol Beverage Safety and Verification Program, including work related to domestic
and imported product analysis.

The Permits and Business Assurance Program is designed to determine the eligibility of persons wishing to
enter any of the businesses TTB regulates and to process applications for changes to the original permit. These
activities may include a field investigation. The permit is necessary in order to conduct operations in the
regulated industries.

The remainder of the Protect the Public resources were divided between the Trade Facilitation Program (7
percent) and the Outreach and Voluntary Compliance Program (11 percent).




                                                      69
                                          TTB 2013 Annual Report

Systems and Controls
Introduction

During FY 2013, TTB contracted with the Bureau of the Fiscal Service (BFS) Administrative Resource Center
(ARC) to handle its administrative, human resources, procurement, travel and, financial functions.

Accounting Systems and Controls

The BFS ARC accounting system, known as Oracle Federal Financials, is certified by the Financial Systems
Integration Office (FSIO) requirements and is in full compliance with Treasury reporting requirements; it also
meets requirements under the Federal Financial Management Improvement Act (FFMIA).

The FY 2013 audit of Treasury’s consolidated financial statements, which covered the financial management
systems of our service provider, BFS ARC, did not identify any instances in which ARC’s financial management
systems did not substantially comply with FFMIA. Specifically, no instances were identified in which ARC’s
financial management systems did not substantially comply with 1) Federal financial management systems
requirements, 2) applicable Federal accounting standards, and 3) the United States Government Standard
General Ledger at the transaction level.

The Bureau successfully met the Department of the Treasury’s reporting requirements and has maintained
accurate and reliable financial information on TTB’s program activities. The various administrative modules
integrated with the TTB financial system have proven to accurately capture Bureau financial data and provide
reliable information to management to inform decision making. Only two TTB databases operate outside the
BFS ARC environment—the TTB property management system and the tax administration database, IRIS.

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

The FMFIA requires Federal agencies to conduct ongoing evaluations of the systems of internal accounting and
administrative control. Annually, TTB must report to Treasury all material weaknesses found through these
evaluations. Treasury submits a consolidated report on the Department’s controls to the President.

The FMFIA also requires the heads of agencies to provide the President with yearly assurance that obligations
and costs are in compliance with applicable laws; that funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for.

To provide this report and assurance to the President, the Secretary of the Treasury depends upon information
from component heads regarding their management controls. The FMFIA program places reliance on each
office at TTB to maintain a cost-effective system of controls to provide reasonable assurance that Government
resources are protected against fraud, waste, abuse, mismanagement, or misappropriation.

Responsibilities of the Bureau’s executive staff include ensuring that programs and administrative support
activities are managed efficiently and effectively. Managers must conform to specific management
accountability and improvement policies when designing, planning, organizing, and carrying out their
responsibilities in order to ensure the most efficient and effective operation of their programs.
                                                       70
                                          TTB 2013 Annual Report

These policies address:

    •   Delegation of authority and responsibility;
    •   Hierarchical reporting of emerging management problems;
    •   Personal integrity;
    •   Quality data;
    •   Separation of key duties and responsibilities;
    •   Periodic comparisons of actual with recorded accountability of resources;
    •   Routine assessment of programs with a high potential for risk;
    •   Systematic review strategy to assess the effectiveness of program operations; and
    •   Prompt management actions to correct significant problems or improve operations.

Since its inception, TTB has gradually developed its own Bureau-specific policies.

Management accountability systems must assure basic compliance with the objectives of the FMFIA and the
management control standards set by the Government Accountability Office. In addition, any inspection,
audit, evaluation, peer or program review process, self-assessment, or the equivalent, used by TTB
management to keep informed about needs and opportunities for improvement must incorporate these same
standards into its methodology.

Furthermore, the Bureau completed an annual risk assessment for improper payments on all of its programs
and activities. This process disclosed low risk susceptibility for improper payments, and documented that
sound internal management and controls were in place at the Bureau to cover its disbursements.

The Bureau continues to strengthen and improve the execution of its mission through the application of sound
internal controls over financial reporting. In response to OMB Circular A-123, Management’s Responsibility for
Internal Controls, the Bureau, in concert with the Department, developed and implemented an extensive
testing and assessment methodology that identified and documented internal controls over financial reporting
on our revenue accounting activities.

This increased emphasis on management controls has had a positive impact on programs and enabled the
Bureau to achieve the intended results. The process also ensures that the utilization of resources is consistent
with mission priorities and that program and resources are being used without waste, fraud, or
mismanagement. Also, in addition to the A-123 review, TTB conducted a series of office reviews during FY
2013 that included an extensive review of administrative and internal controls.




                                                         71
                                           TTB 2013 Annual Report

Financial Statement Highlights

The following overview of the TTB financial statements highlights certain aspects of the financial statements
for the fiscal year ended September 30, 2013.

    •   The Balance Sheet shows the assets, liabilities, and net position as of a point in time, in this case, as of
        September 30, 2013.
            o The total assets were reported as $72.0 million at the close of the fiscal year. Of this amount,
                 $32.1 million is classified as the fund balance with Treasury. That fund balance account is the
                 undisbursed account balance with the Treasury, primarily resulting from undisbursed
                 appropriations.
            o The total liabilities amount reported is $41.8 million, of which total intragovernmental
                 liabilities amounts to $17.9 million. The other liabilities are classified by type, such as accrued
                 tax refunds, payables, and other liabilities.
    •   The Statement of Net Cost shows the total net cost of operations at $100.9 million for the Bureau to
        administer its two budget activities.
            o The total net cost reported as program costs under the Collect the Revenue program was
                 $48.2 million.
            o The total net cost reported as program costs under the Protect the Public program was $52.7
                 million.
    •   The Statement of Change in Net Position shows a total net position balance of $30.1 million, and that
        amount represents the unexpended appropriations from both prior periods and from the current
        operating cycle in addition to Net Position from Operations.
    •   The Statement of Budgetary Resources shows the budgetary resources received and the status of
        those resources. For TTB, the resources are primarily annual appropriations received from the in the
        amount of $94.7 million, in addition to spending authority from collections. The offsetting collections
        amount was $7.1 million. Of that amount, $3.2 million is from the recovery of costs for maintaining
        enforcement operations in Puerto Rico.
    •   The Statement of Custodial Activity shows the amount of revenue received during FY 2013 compared
        with FY 2012, along with tax refunds, drawback on Manufacturer of Nonbeverage Products claims, and
        cover-over payments. The amount displayed shows that the total Federal excise tax revenues
        collected from alcohol, tobacco, firearms, and ammunition amounted to $22.9 billion. Within this
        total, the Bureau processed tax refunds, drawback claims, and cover-over payments in the amount of
        $738.7 million.
            o Drawback claims of $345.2 million were processed based on claims filed from MNBPs. Under
                 current law, a drawback claim is allowed when distilled spirits on which the tax has been paid
                 were unfit for beverage purposes and used in the production of medicines, medicinal
                 preparations, food products, flavors, flavoring extracts, or perfumes.
            o Tax refunds and other adjustments (e.g., interest) were processed in the amount of $35.3
                 million.
            o Cover-over payments were returned to Puerto Rico and the Virgin Islands in the amount of
                 $357.7 million. Such taxes collected on rum imported in the United States are “covered over,”
                 or paid into, the treasuries of Puerto Rico and the Virgin Islands.

                                                        72
                                           TTB 2013 Annual Report

            o   The disposition of the custodial revenue, after refunds, claims, and cover-over payments, nets
                to $22.2 billion, and that amount was deposited to the U.S. Treasury to fund the Federal
                Government, with the exception of the Federal firearms and ammunition Federal excise taxes.
                Those revenues, in the amount of $762.7 million, were remitted to the Fish and Wildlife
                Restoration Fund under provisions of the Pittman Robertson Act of 1937.



Notes to the Basic Financial Statements

The notes to the basic financial statements provide additional information that is essential to a full
understanding of the financial information provided in the statements.

Required Supplementary Information

In addition to the basic financial statements and accompanying notes, this report presents required
supplementary information. For instance, TTB includes a table that outlines the tax collections for the past 10
years for each of the key revenue sources. Also, a table has been included to show the refunds, cover-over
payments, and drawback payments for the past 10 years.


Financial Statements, Accompanying Notes, and Supplemental Information
Limitations of Financial Statements

The principal statements have been prepared to report the financial position and results of operations of the
entity, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the
books and records of the entity in accordance with GAAP for federal entities and the formats prescribed by the
Office of Management and Budget (OMB), the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records. For fiscal
years 2013 and 2012, all financial statements and notes have been audited.

Management Responsibilities

Bureau management is responsible for the fair presentation of information contained in the principal financial
statements, in conformity with generally accepted accounting principles (GAAP), and the form and content for
entity financial statements specified by OMB in Circular A-136.

Management is also responsible for the fair representation of TTB’s performance measures in accordance with
OMB requirements. The quality of the Bureau’s internal control structure rests with management, as does the
responsibility for identification of and compliance with pertinent laws and regulations.




                                                        73
                                          TTB 2013 Annual Report

TTB in Relation to Treasury’s Annual Financial Statements

The Department of the Treasury received an unmodified audit opinion on its FY 2013 financial statements. The
financial activities of the Bureau are an integral part of the information reported by the Department of the
Treasury.

This unmodified audit opinion means that the financial information presented by the Treasury, which includes
TTB’s financial activities, was presented fairly and in conformity with generally accepted accounting principles
(GAAP) of the United States.




                                                       74
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

Report on the Financial Statements

We have audited the accompanying financial statements of the Alcohol and Tobacco Tax and Trade
Bureau, which comprise the balance sheets as of September 30, 2013 and 2012, and the related statements
of net cost, changes in net position, budgetary resources, and custodial activity, for the years then ended,
and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Alcohol and Tobacco Tax and Trade Bureau as of September 30, 2013 and 2012,
and its net costs, changes in net position, budgetary resources, and custodial activity for the years then
ended in accordance with U.S. generally accepted accounting principles.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required by the
Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The Other Accompanying Information included in (1) pages i through vii, (2) Part II: Program
Performance Results, (3) Message from the Chief Financial Officer, (4) pages 65 through 74 and pages 108
through 112 of Part III, Financial Results, Position, Condition and Auditors’ Reports, and (5) Part IV:
Appendices is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements, and accordingly, we do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated January 30, 2014
on our consideration of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial
reporting and our report dated January 30, 2014 on our tests of its compliance with certain provisions of
laws, regulations, contracts, and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards in considering
Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial reporting and compliance.




January 30, 2014
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of Alcohol and
Tobacco Tax and Trade Bureau, which comprise the balance sheets as of September 30, 2013 and 2012,
and the related statements of net cost, changes in net position, budgetary resources, and custodial activity,
for the years then ended, and the related notes to the financial statements, and have issued our report
thereon dated January 30, 2014.

Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements as of and for the year ended September 30,
2013, we considered the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial
reporting (internal control) to determine the audit procedures that are appropriate in the circumstances for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade Bureau’s internal control.
Accordingly, we do not express an opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade
Bureau’s internal control. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade
Bureau’s internal control. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the Alcohol and Tobacco Tax and Trade Bureau’s internal
control. Accordingly, this communication is not suitable for any other purpose.




January 30, 2014
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of Alcohol and
Tobacco Tax and Trade Bureau, which comprise the balance sheets as of September 30, 2013 and 2012,
and the related statements of net cost, changes in net position, budgetary resources, and custodial activity,
for the years then ended, and the related notes to the financial statements, and have issued our report
thereon dated January 30, 2014.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Alcohol and Tobacco Tax and Trade Bureau’s
financial statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests of compliance disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the Alcohol and Tobacco Tax and Trade Bureau’s compliance.
This report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the Alcohol and Tobacco Tax and Trade Bureau’s compliance. Accordingly, this
communication is not suitable for any other purpose.




January 30, 2014




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
 TTB 2013 Annual Report




Page left intentionally blank.



             80
                                             TTB 2013 Annual Report

                         ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                        BALANCE SHEETS
                               As of September 30, 2013 and 2012
                                         (In Thousands)

                                                                          2013         2012

              ASSETS
                Intragovernmental Assets:
                    Fund Balance with Treasury (Note 2)               $ 32,142     $ 34,431
                    Accounts Receivable (Note 3)                           541          262
                    Due from the General Fund (Notes 5 and 8)            3,739        2,873
                    Advances (Note 7)                                      460          751
                Total Intragovernmental Assets                          36,882       38,317

                 Accounts Receivable (Note 3)                                417          444
                 Tax and Trade Receivables, Net (Notes 4 and 8)           16,868       20,334
                 Property, Plant and Equipment, Net (Note 6)              17,777       20,353
                 Advances                                                     22           44

              TOTAL ASSETS (Note 8)                                   $ 71,966     $ 79,492

              LIABILITIES
                 Intragovernmental Liabilities:
                     Accounts Payable                                 $      745   $      480
                     Payroll Benefits                                        265          651
                     FECA Liabilities                                         31           39
                     Due to the General Fund (Notes 4 and 5)              13,661       18,851
                     Other Liabilities (Note 9)                            3,207        1,483
                 Total Intragovernmental Liabilities                      17,909       21,504

                Accounts Payable                                         2,176        2,573
                Payroll Benefits                                         1,095        2,723
                FECA Actuarial Liability                                   206          228
                Refunds                                                  3,739        2,873
                Unfunded Leave                                           4,202        4,233
                Cash Bond Liabilities                                   11,167       12,570
                Other Liabilities (Note 9)                               1,345          560
              TOTAL LIABILITIES                                       $ 41,839     $ 47,264

              NET POSITION
                Unexpended Appropriations                             $ 16,629     $ 16,377
                Cumulative Results of Operations                        13,498       15,851
              TOTAL NET POSITION                                      $ 30,127     $ 32,228

              TOTAL LIABILITIES AND NET POSITION                      $ 71,966     $ 79,492


The accompanying notes are an integral part of these statements.


                                                        81
                                           TTB 2013 Annual Report

                         ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                    STATEMENTS OF NET COST
                         For the Years Ended September 30, 2013 and 2012
                                          (In Thousands)

                                                                      2013        2012

    COLLECT THE REVENUE
      Program Costs
         Intragovernmental Gross Costs                              $ 14,216    $ 14,436
         Less: Intragovernmental Earned Revenue                       (2,601)     (1,308)
         Intragovernmental Net Costs                                  11,615      13,128

            Gross Costs with the Public                               38,957      40,541
            Less: Earned Revenues from the Public                     (2,357)     (2,655)
            Net Costs with the Public                                 36,600      37,886

              Total Net Program Cost                                $ 48,215    $ 51,014

    PROTECT THE PUBLIC
      Program Costs
         Intragovernmental Gross Costs                              $ 14,549    $ 13,988
         Less: Intragovernmental Earned Revenue                         (901)       (197)
         Intragovernmental Net Costs                                  13,648      13,791

            Gross Costs with the Public                               39,870      39,285
            Less: Earned Revenues from the Public                       (817)       (401)
            Net Costs with the Public                                 39,053      38,884

              Total Net Program Cost                                $ 52,701    $ 52,675

    NET COST OF OPERATIONS (Note 13)                                $ 100,916   $ 103,689




The accompanying notes are an integral part of these statements.




                                                        82
                                           TTB 2013 Annual Report

                         ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                            STATEMENTS OF CHANGES IN NET POSITION
                         For the Years Ended September 30, 2013 and 2012
                                          (In Thousands)

                                                                     2013        2012

     Cumulative Results of Operations
       Beginning Balances                                           $ 15,851    $ 15,817

         Budgetary Financing Sources
          Appropriations Used                                         93,886      99,591

         Other Financing Sources
          Transfers-in without reimbursement                            693          91
          Imputed Financing from Costs Absorbed
             by Others (Note 12)                                       3,984       4,041

         Total Financing Sources                                      98,563     103,723

         Net Cost of Operations (Note 13)                           (100,916)   (103,689)

         Net Change                                                   (2,353)        34

         Cumulative Results of Operations                           $ 13,498    $ 15,851

     UNEXPENDED APPROPRIATIONS
       Beginning Balances                                           $ 16,377    $ 16,559

         Budgetary Financing Sources
          Appropriations Received                                     99,878      99,878
          Other Adjustments                                           (5,740)       (469)
          Appropriations Used                                        (93,886)    (99,591)

         Total Budgetary Financing Sources                              252         (182)

         Net Position of Unexpended Appropriations                  $ 16,629    $ 16,377

     TOTAL NET POSITION                                             $ 30,127    $ 32,228


The accompanying notes are an integral part of these statements.


                                                        83
                                           TTB 2013 Annual Report

                         ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                             STATEMENTS OF BUDGETARY RESOURCES
                         For the Years Ended September 30, 2013 and 2012
                                          (In Thousands)
                                                                             2013            2012

          BUDGETARY RESOURCES (Note 14)
            Unobligated Balance Brought Forward, Oct 1                   $      3,116    $      3,518
             Recoveries of Prior Year Obligations                               2,079           1,268
             Other Changes in Unobligated Balance                                (516)           (468)
            Unobligated Balance from Prior Year Budget Authority, Net           4,679           4,318
            Budget Authority:
             Appropriations                                                   94,654          99,878
             Spending Authority from Offsetting Collections                    5,745           6,841
          TOTAL BUDGETARY RESOURCES                                          105,078         111,037

          STATUS OF BUDGETARY RESOURCES
            Obligations Incurred (Note 15)                               $ 100,358       $   107,921
             Unobligated Balance Apportioned                                   845               398
             Unobligated Balance Unapportioned                               3,875             2,718
            Total Unobligated Balance, End of Period                         4,720             3,116
          TOTAL STATUS OF BUDGETARY RESOURCES                            $ 105,078       $   111,037

          CHANGE IN OBLIGATED BALANCE
            Unpaid Obligations Brought Forward, Oct 1                    $     21,795    $     22,762
             Obligations Incurred, Net (Note 15)                              100,358         107,921
             Outlays, Gross                                                  (102,953)       (107,620)
             Recoveries of Prior Year Unpaid Obligations, Actual               (2,079)         (1,268)
            Unpaid Obligations , End of Period, Gross                          17,121          21,795
              Uncollected Payments Brought Forward, Federal Souces,
               Beginning of Period                                            (3,609)         (1,554)
              Change in Uncollected Customer Payments, Federal Sources         1,398          (2,055)
            Uncollected Payments, Federal Souces, End of Period               (2,211)         (3,609)
          OBLIGATED BALANCE, END OF PERIOD, NET                          $    14,910     $    18,186

          BUDGET AUTHORITY AND OUTLAYS, NET
            Budget Authority:
             Budget Authority, Gross                                     $ 100,399       $   106,719
             Actual Offsetting Collections                                  (7,143)           (4,786)
             Change in Uncollected Customer Payments, Federal Sources        1,398            (2,055)
          BUDGET AUTHORITY, NET                                          $  94,654       $    99,878
            Outlays:
             Outlays, Gross                                                102,953           107,620
             Actual Offsetting Collections                                  (7,143)           (4,786)
             Outlays, Net                                                   95,810           102,834
             Distributed Offsetting Receipts                                    (2)               (3)
          AGENCY OUTLAYS, NET                                            $  95,808       $   102,831


The accompanying notes are an integral part of these statements.




                                                        84
                                           TTB 2013 Annual Report

                         ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                               STATEMENTS OF CUSTODIAL ACTIVITY
                         For the Years Ended September 30, 2013 and 2012
                                          (In Thousands)

                                                                       2013              2012

      SOURCES OF CUSTODIAL REVENUE

          Revenue Received
             Excise Taxes (Note 16)                                $   22,935,992    $   23,378,944
             Interest, Fines and Penalties                                  1,651               934
             Other Custodial Revenue                                            2                 3
          Total Revenue Received (Note 17)                             22,937,645        23,379,881

          Refunds and Drawbacks (Note 16)                                (380,961)         (323,447)
          Net Revenue Received                                         22,556,684        23,056,434

         Accrual Adjustment                                                (4,331)           15,176
      Total Sources of Custodial Revenue                           $   22,552,353    $   23,071,610

      DISPOSITION OF CUSTODIAL REVENUE

          Amounts Provided to:
           General Fund                                            $   21,436,310    $   22,159,339
           Fish and Wildlife Restoration Fund                             762,651           511,385
          Amounts Provided to Fund the
           Federal Government (Note 17)                                22,198,961        22,670,724

          Amounts Provided to Non-Federal
           Entities (Note 16)                                            357,723           385,710

         Increases/(Decreases) in Amounts Yet
            to be Provided:
              General Fund                                                 (5,190)           14,605
              Fish and Wildlife Restoration Fund                            1,724             1,420
         (Increase)/Decrease in Accrued Refunds                              (865)             (849)
      Total Disposition of Custodial Revenue                       $   22,552,353    $   23,071,610

      NET CUSTODIAL REVENUE ACTIVITY                               $            -    $            -



The accompanying notes are an integral part of these statements.




                                                        85
                                    TTB 2013 Annual Report


Notes to the Financial Statements


Note 1. Summary of Significant Accounting Policies



A. Reporting Entity

The Alcohol and Tobacco Tax and Trade Bureau (TTB) was established on January 24, 2003, as a
result of the Homeland Security Act of 2002. The Act transferred firearms, explosives, and arson
functions of the Bureau of Alcohol, Tobacco and Firearms (ATF) to the Department of Justice and
retained the tax collection and consumer protection provisions of the Internal Revenue Code (IRC)
and Federal Alcohol Administration Act in TTB within the Department of the Treasury. While the
agency has a new name, the history of TTB’s regulatory responsibility dates back to the creation
of the Department of the Treasury and the first Federal taxes levied on distilled spirits in 1791.
TTB has two primary programs: Collect the Revenue and Protect the Public. Under the Collect the
Revenue program, TTB collects alcohol, tobacco, firearms, and ammunition excise taxes, and
under its Protect the Public program, TTB protects the consumer by ensuring that alcohol
beverages are labeled, advertised, and marketed in accordance with the law, and facilitates trade
in beverage and industrial alcohols.

B. Basis of Presentation

The financial statements were prepared to report the significant assets, liabilities, and net cost of
operations, changes in net position, budgetary resources, and custodial activities of TTB. The
financial statements have been prepared from the books and records of TTB in conformity with
generally accepted accounting principles (GAAP) in the United States, and form and content
guidance for entity financial statements issued by the Office of Management and Budget (OMB) in
OMB Circular A-136. TTB’s accounting policies are summarized in this note. GAAP for Federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which has
been designated the official accounting standards-setting body for the Federal Government by
the American Institute of Certified Public Accountants.

C. Basis of Accounting

Transactions are recorded on a proprietary accrual and a budgetary basis of accounting. Under
the accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
regardless of when cash is exchanged. However, under the budgetary basis, funds availability is
recorded based upon legal considerations and constraints. As a result, certain line items on the
proprietary statements may not equal similar lines on the budgetary financial statements.




                                                 86
                                    TTB 2013 Annual Report


D. Revenue and Financing Sources

    (1) Exchange Revenue

        Exchange Revenues are inflows of resources to a Government entity that the entity has
        earned by providing something of value to the public or another Government entity at a
        price. The majority of the Exchange Revenues earned by the Bureau result from providing
        services to the Government of Puerto Rico, as well as other Treasury entities.

    (2) Financing Sources

        Financing sources provide inflows of resources during the reporting period and include
        appropriations used and imputed financing. Unexpended appropriations are recognized
        separately in determining net position, but are not financing sources until used. Imputed
        financing sources are the result of other Federal entities financing costs on behalf of TTB.

        TTB receives the majority of the funding needed to support the Bureau through
        congressional appropriations. The appropriations received are annual and multi-year
        funding that may be used, within statutory limits, for operating and capital expenditures.

    (3) Imputed Financing Sources

        Imputed financing sources are the result of Federal entities financing costs on behalf of
        TTB. Those entities pay future benefits for health insurance, life insurance, and pension
        benefits for TTB employees.

E. Custodial Revenue

For TTB, most custodial revenues result from collecting taxes on alcohol and tobacco products,
which are transferred to the General Fund, and recognized as a nonexchange revenue on the
Federal government’s consolidated financial statements. The excise taxes collected by TTB come
from businesses, and the taxes are imposed and collected at the producer and importer levels of
operations. Members of the regulated industries paying excise taxes are distilleries, breweries,
bonded wineries, bonded wine cellars, manufacturers of cigarette tubes, manufacturers of
tobacco products, and manufacturers and importers of firearms and ammunition. These taxes are
recorded on the records on a modified cash basis of accounting. The Statement of Custodial
Activity is presented on a net accrual basis.

F. Fund Balance with Treasury

The Fund Balance with Treasury is the undisbursed account balance with the Treasury, primarily
resulting from undisbursed appropriations. The balance is available within statutory limits to pay
current liabilities and finance authorized purchase obligations. The Fund Balance also includes a
non-entity balance, primarily the result of custodial activities related to collecting escrow
payments designed to finance Offers-in-Compromise and cash bonds held in lieu of corporate
surety bonds guaranteeing payment of taxes.



                                                 87
                                    TTB 2013 Annual Report


G. Accounts Receivable

Intragovernmental accounts receivable consist of amounts due under reimbursable agreements
with Federal entities for services provided by TTB. Public accounts receivable consist of taxes,
penalties, and interest that have been assessed but unpaid at year end.

Receivables due from Federal agencies are considered to be fully collectible. An allowance for
doubtful accounts is established for public receivables based on specific identification.

H. Property, Plant, and Equipment

Property, plant, and equipment purchased with a cost greater than or equal to $25,000 per unit
and a useful life of two years or more, is capitalized and depreciated. Normal repairs and
maintenance are charged to expense as incurred.

TTB also capitalizes internal use of software when the unit cost or development costs are greater
than or equal to $25,000. The same threshold also applies to enhancements that add significant
functionality to the software. TTB will amortize this software based on its classification. The
classifications are as follows: 1) Enterprise and other business software (five years), and 2)
Personal productivity and desktop operating software (three years).

Additionally, TTB also capitalizes like assets purchased in bulk when the unit price is greater than
or equal to $5,000 and less than $25,000, with the aggregated purchase amount greater than or
equal to $250,000.

Assets are depreciated on a straight-line basis beginning the month the asset was put in to use.

I. Advances

Advances are payments made to cover certain periodic expenses before those expenses are
incurred. In accordance with Public Law 91-614, TTB participated in the Treasury’s Working
Capital Fund for which it receives services on a reimbursable basis. Payments from TTB to
Treasury are made in advance and are authorized for services that have been deemed as more
advantageous and more economical when provided centrally. The services provided include
those for telecommunications, payroll/personnel systems, printing, and other centralized
services. The amount reported represents the balance available at the end of the fiscal year after
charges/expenses incurred by the fund are deducted.




                                                 88
                                    TTB 2013 Annual Report


J. Non-entity Assets

Non-entity assets consist primarily of cash and receivables for excise taxes and fees that are to be
distributed to the Treasury, other Federal agencies, and other governments. Non-entity assets
are not considered a financing source (revenue) available to offset the operating expenses of TTB.

K. Liabilities

Liabilities represent the amount of monies, or other resources, that are likely to be paid by TTB as
the result of a transaction or event that has already occurred. However, no liability can be paid by
TTB absent an appropriation. Liabilities for which an appropriation has not been enacted and for
which there is uncertainty an appropriation will be enacted, are classified as a liability not covered
by budgetary resources. Also, the Government, acting in its sovereign capacity, can abrogate
liabilities of TTB that arise from other than contracts.

Intragovernmental liabilities consist of amounts payable to the Treasury for collections of excise
tax, fees receivable, payments to other Federal agencies, and accrued Federal Employees’
Compensation Act (FECA) charges. Liabilities also include amounts due to be refunded to
taxpayers, as well as amounts held in escrow for Offers-in-Compromise and cash bonds held in
guaranteeing payment of taxes.

L. Litigation Contingencies and Settlements

Probable and estimable litigation and claims against TTB are recognized as a liability and expense
for the full amount of the expected loss. Expected litigation and claim losses include settlements
to be paid from the Treasury Judgment Fund (Judgment Fund) on behalf of TTB and settlements
to be paid from Bureau appropriations. The Judgment Fund pays Bivens-type tort claims.
Settlements paid from the Judgment Fund for TTB are recognized as an expense and imputed
financing source.

M. Annual, Sick, and Other Leave

Annual and compensatory leave earned by TTB employees, but not yet used, is reported as an
accrued liability. The accrued balance is adjusted annually to current pay rates. Any portions of
the accrued leave, for which funding is not available, are recorded as an unfunded liability. Sick
and other leave are expensed as taken.

N. Interest on Late Payments

Pursuant to the prompt payment Act, 31 # U.S.C. & 3901-3907, Federal agencies must pay
interest on payments for goods or services made to business concerns after their due date. The
due date is generally 30 days after receipt of a proper invoice or acceptance of the goods or
services.




                                                 89
                                   TTB 2013 Annual Report


O. Retirement Plan

Employees hired after December 31, 1983, are automatically covered by FERS and Social Security.
For most employees hired after December 31, 1983, TTB also contributes the employers’
matching share of Social Security. For the FERS basic benefit, employees contribute 0.8 to 3.1
percent of basic pay while TTB contributes 11.9 percent, for a total contribution rate of 12.7 to
15.0 percent in FY 2013. The employee contribution is an increase over the .8 percent
contributed in FY 2012. The cost of providing a FERS basic benefit, as provided by the Office of
Personnel Management (OPM), is equal to the amounts contributed by TTB and the employees.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and TTB makes a mandatory 1
percent contribution to this account. In addition, TTB makes matching contributions, ranging
from 1 to 4 percent, for FERS-eligible employees who contribute to their TSP accounts. Matching
contributions are not made to the TSP accounts established by CSRS employees.

TTB recognized the full cost of providing future pension and other retirement benefits (ORB) for
current employees as required by Statement of Federal Financial Accounting Standards (SFFAS)
No. 5. Full cost includes pension and ORB contributions paid out of Bureau appropriations and
costs financed by OPM. Costs financed by OPM are reported in the accompanying financial
statements as an imputed financing revenue source. Reporting amounts such as plan assets,
accumulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

P. Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job and employees who have incurred a work-
related injury or occupational disease. The future workers’ compensation estimates were
generated from an application of actuarial procedures developed to estimate the liability for FECA
benefits. The actuarial liability estimates for FECA benefits include the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
is determined using the paid losses extrapolation method, which is calculated over the next 37-
year period. This method utilizes historical benefit patterns related to a specific incurred period
to predict ultimate payments related to that period.

Claims are paid for TTB employees by the Department of Labor (DOL) from the FECA fund, for
which TTB reimburses DOL. The accrued liability represents claims paid by DOL for TTB
employees, for which the fund has not been reimbursed. The actuarial liability is an estimate of
future costs to be paid on claims made by TTB employees. The estimated future cost is not
obligated against budgetary resources until the year in which the cost is billed to TTB.




                                                90
                                   TTB 2013 Annual Report


Q. Use of Estimates

The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amount of assets and liabilities, as well as the disclosure of
contingent liabilities at the date of the financial statements, and the amount of revenues and cost
reported during the period. Actual results could differ from those estimates.

R. Tax Exempt Status

As an agency of the Federal Government, TTB is exempt from all income taxes imposed by any
governing body, whether it is a Federal, state, commonwealth, local, or foreign government.

S. Changes in Presentation

The FY2012 financial statements were reclassified to conform to the FY2013 financial statements
presentations requirements. The reclassifications had no material effect on total assets,
liabilities, net position, changed in net position, budgetary resources or custodial activity as
previously reported.

T. Subsequent Events

Subsequent events and transaction occurring after September 30, 2013 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial
statements were available for issue.




                                                91
                                      TTB 2013 Annual Report


Note 2. Fund Balance with Treasury

Fund Balance with Treasury as of September 30, 2013 and 2012 consisted of the following (in thousands):



                                                             2013             2012
Fund Balances:
 General Funds                                           $ 19,630         $ 21,302
 Other Funds                                               12,512           13,129
   Total                                                 $ 32,142         $ 34,431

Status of Fund Balances:
 Unobligated Balance - Available                         $    845         $    398
 Unobligated Balance - Unavailable                          3,875            2,718
 Obligated Balance Not Yet Disbursed                       14,910           18,186
   Subtotal                                                19,630           21,302
 Adjustment for Non-Budgetary Funds                        12,512           13,129
   Total Status of Fund Balances                         $ 32,142         $ 34,431



The other funds and non-budgetary fund balance primarily represents cash bonds, which are cash
payments made to the Bureau by taxpayers, in lieu of obtaining corporate surety bonds,
guaranteeing payment of taxes. It also includes Offers-in-Compromise (OIC). OICs are payments
made to the Bureau, being held in escrow, to finance offers from taxpayers to settle their tax debt
at less than the assessed amount.

The unobligated balance that is unavailable is the balance of prior years’ expired appropriations.




                                                   92
                                    TTB 2013 Annual Report


Note 3. Accounts Receivable
Accounts Receivable as of September 30, 2013 and 2012 consisted of the following (in thousands):



                                                                          2013            2012

Intragovernmental Accounts Receivable:
  Due from Treasury Executive Office of Asset Forfieture              $       86      $      68
  Due from Community Financial Development Institutions Fund                 455            194
    Total Intragovernmental Accounts Receivable                       $      541      $     262

  Due from the Government of Puerto Rico                              $      414      $     436
  Due from Employees                                                           3              8
   Total Accounts Receivable Due from the Public                      $      417      $     444


No allowance for doubtful accounts has been recognized, nor have any accounts been written off.
All intragovernmental accounts receivable are considered fully collectible. Additionally, other
non-Federal receivables consist of a receivable from the government of Puerto Rico, which is
collected via an offset to cover-over payments the Bureau remits to Puerto Rico, and employee
accounts receivable, which can be collected via salary offsets.


Note 4. Tax and Trade Receivables, Net

Tax and Trade Receivables as of September 30, 2013 and 2012 consisted of the following
(in thousands):


                                                                  2013              2012

Tax and Trade Receivables                                       $ 87,086           $ 59,965
Interest Receivable                                                 7,805             5,019
Penalties, Fines and Administrative Fees Receivable                23,457            15,490
  Total Tax and Trade Receivables                                 118,348            80,474
Allowance for Doubtful Accounts                                  (101,480)          (60,140)
  Total Tax and Trade Receivables, Net                          $ 16,868           $ 20,334


All tax and trade receivables are non-entity assets. An allowance for uncollectible amounts has
been established based on: 1) an analysis of individual receivable balances and 2) the application
of historical non-collection rates for similar types of receivables. Because current laws governing
the collection period for these tax assessments, 26 U.S.C. 6502, stipulate taxes are collectible for
10 years from the date the taxes were assessed, a large amount of aged receivables that are not
likely to be collected have been offset with an allowance, but not written off. This is an offsetting
liability reported as Due to the General Fund.


                                                 93
                                    TTB 2013 Annual Report


The increase in gross receivables is largely related to new receivables with one taxpayer,
approximating $25 million. The remaining $13 million increase is primarily related to six
taxpayers who’s receivables increased between $1.3 - $3.3 million.


Note 5. Due from the General Fund and Due to the General Fund

In addition to collecting taxes from the alcohol and tobacco industries, the Bureau also is
responsible for paying refunds, when applicable, to those same industry members. Amounts due
from the General Fund represent a receivable from appropriations to cover the Bureau’s accrued
refund liability to alcohol and tobacco excise taxpayers.



                                                   2013                 2012

Due from the General Fund                      $     3,739          $    2,873
(in thousands)


Amounts due to the General Fund primarily represent the balance of receivables related to
Alcohol and Tobacco excise taxes. Receivables related to Firearms and Ammunition excise taxes
are payable to the Department of Interior’s Fish and Wildlife Restoration Fund, not the General
Fund.

                                                   2013                 2012

Due to the General Fund                        $ 13,661             $ 18,851
(in thousands)




                                                94
                                   TTB 2013 Annual Report


Note 6. Property, Plant, and Equipment, Net (PP&E)

Property, Plant and Equipment as of September 30, 2013 and 2012 consisted of the following
(in thousands):


                           Estimated Useful      Acquisition     Accumulated          Net
2013                         Life (Years)          Value         Depreciation      Book Value

Internal Use Software            3-5            $    13,644       $     7,523      $     6,121
Equipment                        4-6                 11,611             7,593            4,018
Leasehold Improvements           2-5                  1,312             1,090              222
Building                          40                  9,772             2,356            7,416
  Total PP&E                                    $    36,339       $    18,562      $    17,777

                           Estimated Useful      Acquisition     Accumulated          Net
2012                         Life (Years)          Value         Depreciation      Book Value

Internal Use Software            3-5            $    13,644       $     5,542      $     8,102
Equipment                        4-6                 11,064             6,792            4,272
Leasehold Improvements           2-5                  1,134               825              309
Building                          40                  9,772             2,102            7,670
  Total PP&E                                    $    35,614       $    15,261      $    20,353


Depreciation and amortization are calculated using the straight-line method.

The balance in the buildings account represents TTB’s 13.2 percent equity interest in the National
Laboratory Center facility in Beltsville, Maryland, which TTB co-owns with ATF.




                                                95
                                      TTB 2013 Annual Report


Note 7. Advances

Intragovernmental advances consist of the balances paid to Treasury’s Working Capital Fund that
have not yet been earned and billed by the fund. Advances with the public generally consist of
prepaid services agreements for support or maintenance.


Note 8. Non-entity Assets

Non-entity Assets as of September 30, 2013 and 2012 consisted of the following (in thousands):


                                                                 2013            2012

Intragovernmental Non-entity Assets:

Fund Balance with Treasury                                      $ 12,512      $ 13,129
Due from the General Fund                                          3,739         2,873
 Total Intragovernmental Non-entity Assets                        16,251        16,002

 Tax and Trade Receivables, Net                                  16,868          20,334
Total Non-Entity Assets                                          33,119          36,336

 Total Entity Assets                                              38,847        43,156
Total Assets                                                    $ 71,966      $ 79,492


Note 9. Other Liabilities

Other Liabilities as of September 30, 2013 and 2012 consisted of the following (in thousands):



                                                                2013             2012

Due to the Fish and Wildlife Fund                           $    3,207       $    1,483
 Other Intragovernmental Liabilities                             3,207            1,483

Offers-in-Compromise not yet Accepted                            1,345              560
 Total Other Liabilities with the Public                         1,345              560

Total Other Liabilities                                     $    4,552       $    2,043



All Other Liabilities are considered current liabilities.

                                                    96
                                   TTB 2013 Annual Report


Note 10. Liabilities Not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources as of September 30, 2013 and 2012 consisted of
the following (in thousands):


                                                                    2013           2012

Accrued FECA Liability                                          $      31      $       39
 Total Intragovernmental Liabilities not Covered by
   Budgetary Resources                                                 31              39

FECA Actuarial Liability                                               206            228
Accrued Leave                                                        4,202          4,233
 Total Liabilities with the Public not Covered by
   Budgetary Resources                                               4,408          4,461

Total Liabilities not Covered By Budgetary Resouces                  4,439          4,500

Total Liabilities Covered by Budgetary Resources                    37,400         42,764

Total Liabilities                                               $ 41,839       $ 47,264


Note 11. Future Funding Requirements

Total liabilities not covered by budgetary resources generally do not equal the total financing
sources yet to be provided on the Reconciliation of Net Cost of Operations to Budget. The
amounts reported on the Balance Sheet are period ending balances, while the amounts reported
on the Reconciliation of Net Cost of Operations to Budget are activity for the period.

Generally, liabilities not covered by budgetary resources require future funding and can be
liquidated only with the enactment of future appropriations.




                                                97
                                    TTB 2013 Annual Report


Note 12. Imputed Financing

Imputed Financing as of September 30, 2013 and 2012 consisted of the following (in thousands):



                                                         2013             2012

Health Insurance                                     $    2,146       $    2,440
Life Insurance                                                8                8
Pension                                                   1,830            1,593
  Total Imputed Financing                            $    3,984       $    4,041

Imputed financing recognizes actual cost of future benefits to be paid by other Federal entities.
These benefits include Federal Employees Health and Benefits Program (FEHB), Federal
Employees Group Life Insurance Program (FEGLI), and pensions. Imputed financing also
recognizes costs paid by the Judgment Fund. The Fund was established and funded by Congress
under 31 U.S.C. 1304 to pay in whole or in part court judgments and settlement agreements
negotiated by Treasury on behalf of agencies, as well as certain types of administrative awards.
The Judgment Fund did not pay out any awards on TTB’s behalf during fiscal years 2013 or 2012.
TTB does not report CSRS assets, FERS assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to retirement plans because the accounting for and reporting of such amounts is
the responsibility of OPM. Based on cost factors provided by OPM, which vary by retirement
plan, estimated future pension benefits for TTB employees, to be paid by OPM, totaled $1.8
million and $1.6 million for fiscal years 2013 and 2012 respectively. Similarly, OPM rather than
TTB, reports liabilities for future payments to retired employees who participate in the FEHB and
FEGLI programs. The FEHB cost factor applied to a weighted average number of employees
enrolled in the FEHB program decreased in FY 2013 to $5,190 from $5,817 in FY 2012, producing
$2.1 million and $2.4 million of imputed cost for employees’ health benefits in each respective
year. The cost factor, as provided by OPM, for employees enrolled in the FEGLI program,
remained unchanged from FY 2012 to FY 2013, at .02 percent of employees’ basic pay. The FEGLI
amounts, approximating $8,000 each year, are also included as an expense and imputed financing
source in TTB financial statements for fiscal years 2013 and 2012, respectively.




                                                98
                                    TTB 2013 Annual Report


  Note 13. Consolidated Gross Cost and Earned Revenue by Budget Functional
  Classification

  Consolidated Gross Cost and Earned Revenue by Budget Function Classification as of
  September 30, 2013 and 2012 consisted of the following (in thousands):


Fiscal Year Ended September 30, 2013

                        Budget Function         BFC       Gross        Earned             Net
Activity              Classification (BFC)      Code      Costs       Revenue            Costs
Intragovernmental   Central Fiscal Operations    803    $ 28,765      $ (3,502)        $ 25,263
With the Public     Central Fiscal Operations    803       78,827       (3,174)           75,653
Consolidated        Central Fiscal Operations    803    $ 107,592     $ (6,676)        $ 100,916

Fiscal Year Ended September 30, 2012

                        Budget Function         BFC       Gross        Earned             Net
Activity              Classification (BFC)      Code      Costs       Revenue            Costs
Intragovernmental   Central Fiscal Operations    803    $ 28,424      $ (1,505)        $ 26,919
With the Public     Central Fiscal Operations    803       79,826       (3,056)           76,770
Consolidated        Central Fiscal Operations    803    $ 108,250     $ (4,561)        $ 103,689




                                                99
                                     TTB 2013 Annual Report


Note 14. Statement of Budgetary Resources vs. Budget of the United States
Government

The following chart displays balances from the FY 2012 Statement of Budgetary Resources and
actual fiscal year balances included in the FY 2014 President’s Budget. There were no
differences. The FY 2015 budget, which would include FY 2013 actuals, had not been published at
the time of this report.


Fiscal Year Ended September 30, 2012                            Statement of
(In Millions / Unaudited)                                        Budgetary         President's
                                                                 Resources           Budget

Budgetary Resources:
 Appropriations                                                  $        100     $        100
 Spending Authority from Offsetting Collections                             7                7
Budgetary Resources Available for Obligation                     $        107     $        107

Change in Obligated Balances:
 Unpaid Obligations brought forward, Beginning of Period         $         23     $         23
 Obligations Incurred                                                     108              108
 Outlays, Gross                                                          (108)            (108)
 Recoveries of Prior Year Unpaid Obligations                               (1)              (1)
Unpaid Obligations, End of Period                                $         22     $         22
 Uncollected Payments, Federal Sources, End of Period                      (4)              (4)
Obligated Balance, End of Period                                 $         18     $         18

Outlays:
 Outlays, Gross                                                  $        108     $        108
 Actaul Offsetting Collections                                             (5)              (5)
Outlays, Net                                                     $        103     $        103


Additionally, the FY 2014 President’s Budget disclosed budget authority of $376 million for FY
2012, funding cover-over payments to Puerto Rico, which is not reported in the Statement of
Budgetary Resources.

The cover-over payments and associated tax revenues are reported as custodial activity of the
Bureau. The tax revenues are not available for use in the operation of the Bureau and are not
reported on the Statement of Net Cost. Likewise, the resultant cover-over payments are not
recognized as an operating expense of the Bureau. Consequently, to present the refunds as an
expense of the Bureau on the Statement of Net Cost would be inconsistent with the reporting of
the related Federal tax revenue and would materially distort the costs incurred by the Bureau in
meeting its strategic objectives. Further, since this activity is not reported on the Statement of
Net Cost, it would be contradictory to report the budget authority on the Statement of Budgetary
Resources.




                                                  100
                                     TTB 2013 Annual Report


Note 15. Apportionment Categories of Obligations Incurred

Obligations Incurred as of September 30, 2013 and 2012 consisted of the following (in thousands):


                                                                                            Total
       Fiscal         Apportionment              Direct              Reimbursable        Obligations
        Year            Category               Obligations            Obligations         Incurred

2013                    Category B         $           94,939    $           5,419   $        100,358

2012                    Category B         $        100,769      $           7,152   $        107,921



The amount of direct and reimbursable obligations against amounts apportioned under Category
B is reported in the table above. Apportionment categories are determined by the
apportionment categories reported on the Standard Form 132 Apportionment and
Reapportionment Schedule. Category B represents annual apportionments.



                                                          2013              2012

Undelivered Orders, End of Period                       $ 13,322          $ 16,185


Note 16. Net Custodial Revenue Activity

• Excise Taxes
  As an agent of the Federal Government and as authorized by 26 U.S.C., TTB collects excise
  taxes from alcohol, tobacco, firearms, and ammunition industries. In addition, special
  occupational taxes are collected from certain alcohol and tobacco businesses. During FY 2013
  and FY 2012, TTB collected $22.9 billion and $23.4 billion respectively in taxes, interest, and
  other custodial revenues.

   Substantially all of the taxes collected by TTB net of related refund disbursements are remitted
   to the Department of Treasury General Fund. The Department of Treasury further distributes
   this revenue to Federal agencies in accordance with various laws and regulations. The firearms
   and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and
   Wildlife Restoration Fund under provisions of the Pittman-Robertson Act of 1937.




                                                 101
                                    TTB 2013 Annual Report


• Refunds and Other Payments

  During FY 2013 and FY 2012, TTB issued $739 million and $709 million in refunds, cover-over
  payments, and drawback payments in the respective years.

  Tax Refunds

  Tax Refunds result when taxpayers file returns for payments made for a given tax period and
  the result of the return is an overpayment.

  Cover-over Payments

  Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on
  certain articles produced in Puerto Rico and the Virgin Islands, and imported into the United
  States. In accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the
  United States are custodial revenues and “covered over,” or paid into, the treasuries of Puerto
  Rico and the Virgin Islands.

  TTB maintains operations in Puerto Rico to enforce the provisions of chapter 51 in respect to
  items of Puerto Rican manufacture brought in to the United States. These operations include
  conducting annual revenue, application, and product integrity investigations of large alcohol
  and tobacco industry members. Except for application investigations, TTB investigates medium
  and small alcohol and tobacco producers in response to specific problems and risk indicators.
  Revenue inspections are used to verify that TTB is collecting all of the revenue that is rightfully
  due from the taxpayer. TTB staff in Puerto Rico also conducts qualification inspections of all
  distilled spirits producers/processors, wineries, wholesalers, importers, Manufacturer of
  Nonbeverage Products (MNBP) claimants, and Specially Denatured Alcohol permit applicants.
  All costs associated with the functioning and supporting of the Puerto Rico office, $3.2 and
  $3.1 million in FY 2013 and FY 2012 respectively, are offset against the cover-over payments
  made by the United States to Puerto Rico.

  Drawbacks

  Under current law, 26 U.S.C. 5134, MNBP permittees may be eligible to claim a refund of tax
  paid on distilled spirits used in their products. In the case of distilled spirits, on which the tax
  has been paid or determined, a drawback shall be allowed on each proof gallon at the rate of
  $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund
  is due upon the claimant providing evidence that the distilled spirits on which the tax has been
  paid or determined were unfit for beverage purposes and were used in the manufacture or
  production of medicines, medicinal preparations, food products, flavors, flavoring extracts, or
  perfume.




                                                102
                                      TTB 2013 Annual Report


Refunds, Drawbacks and Cover-over Payments as of September 30, 2013 and 2012 consisted of
the following (in thousands):


                                                                     2013              2012

Alcohol and Tobacco Excise Tax Refunds                             $ 35,278         $ 30,293
Drawbacks on MNBP Claims                                            345,231          289,330
Interest and Other Payments                                             452            3,824
    Refunds and Drawbacks                                           380,961          323,447

Cover-over Payments - Puerto Rico                                    349,017          376,373
Cover-over Payments - Virgin Islands                                   8,706            9,337
  Amounts Provided to Non-federal Entities                           357,723          385,710

Total Refunds, Drawbacks and Coverover Payments                    $ 738,684        $ 709,157


Note 17. Custodial Revenue

Collection and Disposition of Custodial Revenue as of September 30, 2013 and 2012 consisted of
the following (in thousands):

FY 2013 Collections and Refunds by Tax Year

                                                                                   Pre-          FY 2013
Revenue Type                      2013            2012             2011            2011           Total
Excise Taxes                  $ 16,718,436     $ 6,213,206     $      1,457    $      2,893   $ 22,935,992
Fines, Penalties,
   Interest and Other                    161           1,247             62             183            1,653
Total Revenue Received            16,718,597       6,214,453          1,519           3,076       22,937,645
Less: Amounts Collected
   for Non-federal Entities       (357,723)              -                -               -       (357,723)
Total                         $ 16,360,874     $ 6,214,453     $      1,519    $      3,076   $ 22,579,922

Refund Type

Excise Taxes                  $     190,370    $    185,272    $      4,767    $       278    $     380,687
Fines, Penalties,
   Interest and Other                    12              51             191             20              274
Total Refunds & Drawbacks     $     190,382    $    185,323    $      4,958    $       298    $     380,961

Amounts Provided to Fund
  the Federal Government      $ 16,170,492     $ 6,029,130     $     (3,439)   $     2,778    $ 22,198,961




                                                   103
                                       TTB 2013 Annual Report


FY 2012 Collections and Refunds by Tax Year

                                                                                    Pre-             FY 2012
Revenue Type                         2012           2011             2010           2010              Total

Excise Taxes                   $ 17,158,574     $ 6,209,558      $     3,510   $      7,302      $ 23,378,944
Fines, Penalties,
   Interest and Other                     246             371            184            136                 937
Total Revenue Received             17,158,820       6,209,929          3,694          7,438          23,379,881
Less: Amounts Collected
   for Non-federal Entities        (385,710)              -                -              -          (385,710)
Total                          $ 16,773,110     $ 6,209,929      $     3,694   $      7,438      $ 22,994,171

Refund Type

Excise Taxes                   $     159,021    $    155,721     $     1,011   $      7,107      $     322,860
Fines, Penalties,
   Interest and Other                    587               -               -              -                587
Total Refunds & Drawbacks      $     159,608    $    155,721     $     1,011   $      7,107      $     323,447

Amounts Provided to Fund
  the Federal Government       $ 16,613,502     $ 6,054,208      $     2,683   $           331   $ 22,670,724




Note 18. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget explains the difference between the
budgetary net obligations and the proprietary net cost of operations.

Reconciliation of Net Cost of Operations to Budget, as of September 30, 2013 and 2012 consisted
of the following (in thousands):


                                                                                   2013              2012

Resources Used to Finance Activities
   Budgetary Resources Obligated
      Obligations Incurred                                                     $ 100,358         $ 107,921
      Less: Spending Authority from Offsetting Collections
          and Recoveries                                                           (7,824)            (8,109)
      Obligations Net of Offsetting Collections and Recoveries                     92,534             99,812
      Less: Offsetting Receipts                                                        (2)                (3)
      Net Obligations                                                              92,532             99,809
   Other Resources
      Transfers-in without Reimbursement                                            693                 91
      Imputed Financing from Costs Absorbed by Others                             3,984              4,041
      Net Other Resources Used to Finance Activities                              4,677              4,132
   Total Resources Used to Finance Activities                                  $ 97,209          $ 103,941




                                                    104
                                    TTB 2013 Annual Report



                                                                             2013           2012

Resources Used to Finance Items not Part of the
 Net Cost Of Operations
       Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided (+/-)                $    (1,206)   $      181
       Resources that Fund Expenses Recognized in Prior Periods                   55           193
       Other Budgetary Offsetting Collections and Receipts that
          do not Affect Net Cost of Operations                                  691             88
       Resources that Finance the Acquisition of Assets                       1,787          3,625
       Other Resources or Adjustments to Net Obligated Resources
          that do not Affect Net Cost of Operations (+/-)                      (693)             (91)
   Total Resources Used to Finance Items not Part of the Net
    Cost of Operations                                                        634          3,996
Total Resources Used to Finance the Net Cost of Operations               $ 96,575       $ 99,945

Components of the Net Cost of Operations Requiring
 or Generating Resources in Future Periods
   Components Requiring or Generating Resources in Future Periods:
      Other (+/-)                                                        $          -   $          -
   Total Components of Net Cost of Operations that will Require
      or Generate Resources in Future Periods                            $          -   $          -

Components of the Net Cost of Operations not Requiring
 or Generating Resources
      Depreciation and Amortization                                      $    4,286     $    3,744
      Revaluation of Assets or Liabilities                                       55              -
   Total Components of Net Cost of Operations that will not Require
      or Generate Resources                                              $    4,341     $    3,744
   Total Components of Net Cost of Operations that will not Require
      or Generate Resources in the Current Period                        $    4,341     $    3,744

NET COST OF OPERATIONS                                                   $ 100,916      $ 103,689




Note 19: Contingent Liabilities

As of September 30, 2013, TTB is not party to any legal matters where the estimated loss would
be of a material amount.




                                                 105
                                    TTB 2013 Annual Report


Required Supplementary Information (Unaudited)

Budgetary Information

Budgetary information aggregated for the purposes of the Statement of Budgetary Resources
should be disaggregated for each of an entity’s major budget accounts (i.e., Appropriated Funds,
Trust Funds, Revolving Funds, or other funds) and presented as Supplementary Information.
However, for proprietary reporting, TTB only has appropriated funds. Consequently, a Combining
Statement of Budgetary Resources disaggregated by fund type has not been presented.

Excise Tax and Other Collections

                               Required Supplementary Information
                          Excise Tax and Other Collections by Fiscal Year
                                    Unaudited (In Thousands)

   Fiscal
    Year      Alcohol       Tobacco        FAET           SOT           FST          Other       Total

   2004     $ 6,995,366   $ 7,433,852    $ 216,006      $ 100,562   $        -   $      359   $ 14,746,145
   2005       7,074,076      7,409,608     225,818         10,190            9          141     14,719,842
   2006       7,182,940      7,350,058     249,578          2,895          638          146     14,786,255
   2007       7,232,138      7,194,081     287,835          2,808            -           32     14,716,894
   2008       7,420,576      6,851,705     312,622            448            -          634     14,585,985
   2009       7,424,292     11,548,504     452,693            272    1,192,375          970     20,619,106
   2010       7,476,789     15,913,479     360,813            300        8,558          180     23,760,119
   2011       7,594,330     15,515,073     344,262            268        5,220        2,257     23,461,410
   2012       7,856,391     15,002,616     514,622            249        5,942           61     23,379,881
   2013       7,851,953     14,321,017     762,836            280        1,521           38     22,937,645
  Average   $ 7,410,885   $ 10,853,999   $ 372,709      $ 11,827    $ 121,426    $      482   $ 18,771,328




FAET – Firearms and Ammunition Excise Tax
SOT – Special Occupational Tax
FST – Floor Stocks Tax

The sharp decrease in SOT tax collections was the result of a new law that became effective
during fiscal year 2005 that suspended the collection of most of the taxes. The law became
permanent in 2008.

TTB collects FAET taxes on behalf of the Department of Interior, U.S. Fish and Wildlife Service, and
deposits the collections directly into the Fish and Wildlife Restoration Fund. During fiscal years
2013 and 2012, TTB incurred $1.8 million and $1.7 million respectively of direct and indirect costs
associated with collecting the FAET taxes. The law currently does not provide for TTB to recover
these costs. The cost of the program was communicated to the U.S. Fish and Wildlife Service so
the agency could properly record an imputed cost in its financial records.




                                                  106
                                   TTB 2013 Annual Report


Refunds, Cover-over Payments, and Drawback Payments

                            Required Supplementary Information
             Refunds, Cover-over Payments and Drawback Payments by Fiscal Year
                                  Unaudited (In Thousands)

  Fiscal   Cover-over      Cover-over        A&T         Drawbacks        Interest
   Year    Puerto Rico    Virgin Islands   Excise Tax   MNBP Claims      and Other          Total

  2004      $   335,293    $     6,244     $   15,409     $   355,605    $     1,216    $   713,767
  2005          419,602          6,010         18,504         317,132          2,100        763,348
  2006          358,664          6,491         17,524         337,632            699        721,010
  2007          459,278          8,054         13,208         335,706            972        817,218
  2008          373,418          7,615         14,125         283,462          2,938        681,558
  2009          472,695          8,624         17,791         268,612            252        767,974
  2010          378,186          8,871         28,232         297,596            315        713,200
  2011          452,040          9,592         33,414         306,584            418        802,048
  2012          376,373          9,337         30,293         289,330          3,824        709,157
  2013          349,017          8,706         35,278         345,231            452        738,684
 Average    $   397,457    $     7,954     $   22,378     $   313,689    $     1,319    $   742,796




A&T – Alcohol and Tobacco
MNBP – Manufacturer of Nonbeverage Products

Note – During January 2013, the Puerto Rico cover-over rate was increased from $10.50 per proof
gallon to $13.25 per proof gallon, with retroactive provisions, as it has every two years over the
last ten years. The increased rate expires December 31, 2013. Despite the increase in the cover-
over rate, an overall decrease in cover-over payments to Puerto Rico resulted primarly because of
Diageo moving its operations from Puerto Rico to the Virgin Islands.




                                               107
                                   TTB 2013 Annual Report


Other Information (Unaudited)
                                       Other Information
                                      Schedule of Spending
                       For the Years Ended September 30, 2013 and 2012
                                   Unaudited (In Thousands)

                                                                         2013       2012

What Money is Available to Spend
Total Resources                                                      $ 105,078    $ 111,037
 Less: Amount Available but not Agreed to be Spent                        (845)        (398)
 Less: Amount Not Available to Be Spent                                 (3,875)      (2,718)
Total Amounts Agreed to be Spent                                     $ 100,358    $ 107,921

How was the Money Spent
Collect the Revenue
 Object Class 11: Personnel Compensation                             $ 24,284     $ 23,722
 Object Class 12: Personnel Benefits                                    7,098        6,730
 Object Class 21: Travel                                                1,334        1,757
 Object Class 23: Rent, Utilities, and Telecommunications Services      3,018        3,475
 Object Class 25: Contractual Services                                 14,858       15,878
 Object Class 31: Equipment and Software                                2,145        3,255
 Other                                                                    471          713
Total Collect the Revenue                                              53,208       55,530

Protect the Public
 Object Class 11: Personnel Compensation                                 24,164     22,998
 Object Class 12: Personnel Benefits                                      6,898      6,330
 Object Class 21: Travel                                                    516        634
 Object Class 23: Rent, Utilities, and Telecommunications Services        2,841      3,273
 Object Class 25: Contractual Services                                   13,668     14,734
 Object Class 31: Equipment and Software                                  1,344      3,556
 Other                                                                      314        565
Total Protect the Public                                                 49,745     52,090

Total Spending                                                         102,953      107,620
Change in Amounts Remaining to be Spent                                 (2,595)         301
Total Amounts Agreed to be Spent                                     $ 100,358    $ 107,921




                                               108
                              TTB 2013 Annual Report


Intragovernmental Assets

                                   Other Information
                               Intragovernmental Assets
                               As of September 30, 2013
                               Unaudited (In Thousands)


                             Agency   Fund Balance            Accounts

Trading Partner              Code      W/ Treasury        Receivable          Advances

Department of the Treasury     20      $              -   $         541   $         460
General Fund                   99                32,142           3,739               -
          Total                        $         32,142   $       4,280   $         460




                                   Other Information
                               Intragovernmental Assets
                               As of September 30, 2012
                               Unaudited (In Thousands)


                             Agency   Fund Balance            Accounts

Trading Partner              Code      W/ Treasury        Receivable          Advances

Department of the Treasury     20      $              -   $         262   $         751
General Fund                   99                34,431           2,873               -
          Total                        $         34,431   $       3,135   $         751




                                           109
                                    TTB 2013 Annual Report


Intragovernmental Liabilities

                                        Other Information
                                   Intragovernmental Liabilities
                                     As of September 30, 2013
                                     Unaudited (In Thousands)


                                          Agency       Accounts        Accrued     Custodial and
 Trading Partner                           Code         Payable         FECA      Other Liabilities

 Government Printing Office                 04         $    108    $          -   $              -
 Department of the Interior                 14                -               -              3,207
 Department of Justice                      15              469               -                  -
 Department of Labor                        16                -              31                  -
 Office of Personnel Management             24                -               -                196
 General Services Administration            47              168               -                  -
 Treasury General Fund                      99                -               -             13,730
                     Total                             $    745    $         31   $         17,133




                                        Other Information
                                   Intragovernmental Liabilities
                                     As of September 30, 2012
                                     Unaudited (In Thousands)


                                          Agency       Accounts        Accrued     Custodial and
 Trading Partner                           Code         Payable         FECA      Other Liabilities

 Government Printing Office                 04         $     26    $          -   $              -
 Department of the Interior                 14                -               -              1,483
 Department of Justice                      15              330               -                  -
 Department of Labor                        16                -              39                  -
 Office of Personnel Management             24                -               -                480
 General Services Administration            47              123               -                  -
 Treasury General Fund                      99                1               -             19,022
                     Total                             $    480    $         39   $         20,985




                                                 110
                              TTB 2013 Annual Report


Intragovernmental Earned Revenue

                                    Other Information
                           Intragovernmental Earned Revenue
                For the Fiscal Years Ended September 30, 2013 and 2012
                                Unaudited (In Thousands)



                                   Agency
 Trading Partner                    Code                 2013                2012

 Department of Treasury               20             $       3,502       $     1,500
 Department of Justice                15                         -                 5
  Total                                              $       3,502       $     1,505



 Budget Function                     BFC
 Classification (BFC)                Code                2013                2012

 Central Fiscal Operations            803            $       3,502       $     1,505
  Total                                              $       3,502       $     1,505




                                         111
                                   TTB 2013 Annual Report


Intragovernmental Gross Cost

                                        Other Information
                                  Intragovernmental Gross Cost
                    For the Fiscal Years Ended September 30, 2013 and 2012
                                    Unaudited (In Thousands)

                                                     Agency
 Trading Partner                                      Code           2013              2012

 Library of Congress                                   03        $        71       $        68
 Government Printing Office                            04                232               160
 Department of Interior                                14                  -                75
 Department of Justice                                 15              1,066               742
 Department of Labor                                   16                  8                19
 United States Postal Services                         18                 44                54
 Department of State                                   19                  -                 1
 Department of the Treasury                            20              5,573             5,247
 Office of Personnel Management                        24             12,795            12,480
 General Services Administration                       47              5,480             6,020
 Environmental Protection Agency                       68                  4                20
 Department of Homeland Security                       70                324               450
 Department of Health and Human Services               75                 22                49
 National Archives Records Administration              88                 39                42
 Department of Defense                                 97                119               100
 General Fund                                          99              2,988             2,897
                     Total                                       $    28,765       $    28,424



During fiscal years 2013 and 2012, TTB incurred costs with other Federal agencies totaling
approximately $28.8 million and $28.4 million, in each year respectively. The majority of those
costs were associated with the five entities detailed below.

• Department of Justice: TTB paid ATF $1.1 million and $742,000 in fiscal years 2013 and 2012
  respectively for shared lab space and shared building services.
• Department of the Treasury: The Bureau received services from Treasury’s Working Capital
  Fund, as well as administrative services from the Bureau of Public Debt’s Administrative
  Resource Center, in fiscal years 2013 and 2012 in the amounts of $5.6 million and $5.2 million
  respectively.
• Office of Personnel Management: TTB incurred $12.8 million and $12.5 million in costs for
  employee benefits for fiscal years 2013 and 2012 respectively.
• General Services Administration: TTB paid $5.5 million and $6.0 million to GSA for rent and
  information technology services in fiscal years 2013 and 2012 respectively.
• General Fund: The Bureau paid $3.0 and $2.9 million in fiscal years 2013 and 2012 respectively
  for employee benefits and lockbox fees.


                                               112
                                                         TTB 2013 Annual Report




Part IV
Appendices

Principal Officers of TTB

Administrator............................................................................................................ John Manfreda

Deputy Administrator...................................................................................................... Mary Ryan

Equal Employment Opportunity and Diversity Advancement......................................... Tiara Ngo

Assistant Administrator, Field Operations ..................................................................... Tom Crone

Assistant Administrator, Headquarters Operations........................................... Theresa McCarthy

Assistant Administrator, Management/CFO ............................................................. Cheri Mitchell

Assistant Administrator, Information Resources/CIO.............................................. Robert Hughes

Executive Liaison for Industry and State Matters ........................................................ Susan Evans

Chief Counsel .......................................................................................................... Anthony Gledhill



                                                   For additional information, contact:



                                              Alcohol and Tobacco Tax and Trade Bureau

                                                          1310 G Street, NW, Box 12

                                                            Washington, DC 20005



                                                                  (202) 453-2000



                                                              http://www.ttb.gov




                                                                          113
            TTB 2013 Annual Report




TTB Organization Chart




                     114
                                   TTB 2013 Annual Report


Connecting the Treasury and TTB Strategic Plans
       TREASURY GOALS               TTB STRATEGIC GOALS                    TTB OBJECTIVES


  TREASURY STRATEGIC           PROTECT THE PUBLIC (PTP):           PTP 1. BUSINESS INTEGRITY:
  GOAL:                                                            Assure that only qualified
  Enhance U.S.                 Alcohol and tobacco industry        persons and business entities
  Competitiveness and          operators meet permit               operate within the industries TTB
  Promote International        qualifications, and alcohol         regulates
  Financial Stability and      beverage products comply with
  Balanced Global Growth       federal production, labeling, and   PTP 2. PRODUCT INTEGRITY:
                               marketing requirements              Assure that alcohol beverage
  AGENCY PRIORITY GOAL:
                                                                   products comply with federal
  Increase Electronic
                                                                   production, labeling, and
  Transactions with the
                                                                   advertising requirements
  Public to Improve Service,
  Prevent Fraud, and Reduce
                                                                   PTP 3. MARKET INTEGRITY:
  Costs
                                                                   Assure fair trade practices
                                                                   throughout the alcohol beverage
                                                                   marketplace




Note: TTB revised its goals and objectives in FY 2010, and is operating under these goals until the
publication of its revised strategic plan in FY 2014. The current TTB strategic plan covers the
period of FY 2007 – 2012.




                                                115
                         TTB 2013 Annual Report


    TREASURY GOALS              TTB STRATEGIC GOALS                  TTB OBJECTIVES



TREASURY STRATEGIC GOAL:    COLLECT THE REVENUE (CTR):        CTR 1. TAX VERIFICATION AND
Pursue Comprehensive Tax                                      VALIDATION: Assure voluntary
and Fiscal Reform           Enforce the tax code to ensure    compliance in the timely and
                            proper federal tax payment on     accurate remittance of tax
                            alcohol, tobacco, firearms, and   payments
AGENCY PRIORITY GOAL:       ammunition products
Increase Voluntary Tax
Compliance                                                    CTR 2. CIVIL AND CRIMINAL
                                                              ENFORCEMENT: Detect and
                                                              address noncompliance, excise
                                                              tax evasion, and other criminal
                                                              violations of the Internal
                                                              Revenue Code in the industries
                                                              TTB regulates




                                    116
                             TTB 2013 Annual Report


    TREASURY GOALS                TTB STRATEGIC GOALS                  TTB OBJECTIVES



TREASURY STRATEGIC           MANAGEMENT AND                    MGT 1. HUMAN CAPITAL
GOAL:                        ORGANIZATIONAL EXCELLENCE         MANAGEMENT: Maintain a
Manage the Government’s      (MGT):                            qualified, engaged, and satisfied
Finances in a Fiscally                                         workforce
Responsible Manner           Maximize performance,
                             efficiency, and program results   MGT 2. TECHNOLOGY
AGENCY PRIORITY GOAL:        through effective resource and    SOLUTIONS: Deliver effective,
Increase Electronic          human capital management          streamlined, and flexible IT
Transactions with the                                          solutions that add value and
Public to Improve Service,                                     support program performance
Prevent Fraud, and Reduce
Costs                                                           MGT 3. FINANCE AND
                                                                PERFORMANCE RESULTS:
                                                                Facilitate strategic
                                                                management and financial
                                                                accountability through the
                                                                delivery of timely and reliable
                                                                financial and performance
                                                                information




                                         117
 TTB 2013 Annual Report




Page left intentionally blank.




             118
